<html>
<title> - DRUG TRAFFICKING IN THE CARIBBEAN: DO TRAFFICKERS USE CUBA AND PUERTO RICO AS MAJOR TRANSIT LOCATIONS FOR UNITED STATES-BOUND NARCOTICS?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 DRUG TRAFFICKING IN THE CARIBBEAN: DO TRAFFICKERS USE CUBA AND PUERTO 
   RICO AS MAJOR TRANSIT LOCATIONS FOR UNITED STATES-BOUND NARCOTICS?

=======================================================================

                                HEARINGS

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                         JANUARY 3 AND 4, 2000

                               __________

                           Serial No. 106-178

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
69-521                     WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                    Lisa Smith Arafune, Chief Clerk
                 Phil Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
        January 3, 2000..........................................     1
        January 4, 2000..........................................    59
Statement of:
    Agostini, Jose Fuentes, former attorney general of the 
      Government of Puerto Rico..................................    60
    De La Guardia, Ileana, daughter of Cuban Colonel Tony De La 
      Guardia; and Jorge Masetti, former Cuban Ministry of 
      Interior Official..........................................    23
    Diaz-Balart, Lincoln, a Representative in Congress from the 
      State of Florida...........................................    19
    Ledwith, William E., Chief of Foreign Operations, Drug 
      Enforcement Administration; Michael S. Vigil, Chief Agent 
      in Charge, Caribbean Field Division, Drug Enforcement 
      Administration; and John C. Varrone, Executive Director, 
      Operations, East, U.S. Customs Service.....................    85
    Ros-Lehtinen, Ileana, a Representative in Congress from the 
      State of Florida...........................................    10
Letters, statements, et cetera, submitted for the record by:
    Agostini, Jose Fuentes, former attorney general of the 
      Government of Puerto Rico, prepared statement of...........    66
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana, information concerning 60 dangerous fugitives..   147
    De La Guardia, Ileana, daughter of Cuban Colonel Tony De La 
      Guardia, prepared statement of.............................    26
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, information concerning a December 
      21, 1999, GAO report.......................................    54
    Ledwith, William E., Chief of Foreign Operations, Drug 
      Enforcement Administration; and Michael S. Vigil, Chief 
      Agent in Charge, Caribbean Field Division, Drug Enforcement 
      Administration, prepared statement of......................    89
    Masetti, Jorge, former Cuban Ministry of Interior Official, 
      prepared statement of......................................    31
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, U.S. Customs Service Caribbean staffing 
      information................................................   126
    Ros-Lehtinen, Ileana, a Representative in Congress from the 
      State of Florida, prepared statement of....................    15
    Varrone, John C., Executive Director, Operations, East, U.S. 
      Customs Service, prepared statement of.....................   109

 
 DRUG TRAFFICKING IN THE CARIBBEAN: DO TRAFFICKERS USE CUBA AND PUERTO 
   RICO AS MAJOR TRANSIT LOCATIONS FOR UNITED STATES-BOUND NARCOTICS?

                              ----------                              


                        MONDAY, JANUARY 3, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                         Miami, FL.
    The committee met, pursuant to notice, at 1:23 p.m., in the 
Commission Chambers, Sweetwater City Hall, 500 S.W. 109th 
Avenue, Miami, FL, Hon. Dan Burton (chairman of the committee) 
presiding.
    Present: Representatives Burton, Gilman, Ros-Lehtinen, 
Mica, and Ose.
    Also present: Representative Diaz-Balart.
    Staff present: James C. Wilson, chief counsel; Kevin Long 
and Gil Macklin, professional staff members; Kristi Remington, 
senior counsel; Lisa Smith Arafune, chief clerk; Maria 
Tamburri, staff assistant; and Michael J. Yeager, minority 
counsel.
    Mr. Burton. Good afternoon. A quorum being present, the 
Committee on Government Reform will now come to order.
    I ask unanimous consent that all materials, exhibits or 
other extraneous materials referred to in the course of this 
hearing be included in the record. Without objection, it is so 
ordered.
    I also ask unanimous consent that the Congressmen who are 
not members of this committee be allowed to participate in this 
hearing. Without objection, it is so ordered.
    Before I go to my opening statement, I would like to state 
that not only is the chairman of the Government Reform 
Committee here and other members, but also the chairman of the 
International Relations Committee, Mr. Ben Gilman is here. So 
this is a very important hearing for southern Florida and for 
the United States, because it bears on not only an important 
subject, but it also is important enough to have two committees 
represented here today.
    I want to thank everybody in south Florida for allowing us 
to be here. Everyone today will be able to say that they are 
part of a historic event. This is the first congressional 
hearing of the new millennium and it is being broadcast live 
into Cuba on Radio Marti so Fidel Castro and the people of Cuba 
will be hearing what we say today and what we find. And if he 
blocks it, I hope Radio Marti will rebroadcast it again and 
again so that the people of Cuba will hear the facts.
    The topic of the hearing is drug trafficking in the 
Caribbean; specifically, do traffickers use Cuba and Puerto 
Rico as major transit points for United States-bound narcotics? 
Fidel Castro's longstanding participation in international drug 
trafficking is well-documented, as is Cuba's notorious state 
sponsorship of terrorism. Unfortunately for the American 
people, President Clinton has chosen to ignore these facts and 
proceed down the trail of normalization with a totalitarian 
drug-running Castro dictatorship.
    In November, the Clinton-Gore administration refused to put 
Cuba on the major drug list of countries that substantially 
impact the United States. Just last week, the State Department 
informed my staff that they are going to send a United States 
Coast Guard officer to Cuba to be a liaison with the Castro 
government on drug trafficking matters. That's very curious to 
me since Castro is deeply involved in the drug trafficking 
himself. These decisions were clearly rooted in politics rather 
than determined by the facts.
    The stained foreign policy legacy of this administration 
has never been more evident. The Clinton administration has 
turned its back on American children in order to normalize 
relations with Fidel Castro, a brutal dictator who is helping 
flood American streets and school yards with deadly drugs, all 
the while lining his pockets with illicit drug money.
    The Clinton-Gore legacy will be an entire generation of 
Americans subjected to dramatically increased drug use as well 
as record numbers of drug addicts and overdose deaths. This has 
already happened in places like Baltimore, MD where 1 out of 17 
citizens--1 out of 17--are addicted to heroin, according to the 
DEA. In August, our Government Reform colleague, Mr. Cummings, 
told us of the devastating impact it has had on his district in 
Baltimore and later this month, Chairman John Mica's 
subcommittee will hold a field hearing in Baltimore. Just up 
the road in Chairman Mica's district in Orlando, over 50 people 
died of heroin overdoses last year alone, many of them 
teenagers.
    It does not take boxes of physical evidence, just common 
sense, to see that Fidel Castro's regime has resorted to drug 
trafficking to help fund Cuba's sagging economy. It is quite 
clear to those who have followed Cuba as closely as I have that 
his brutal dictatorship is in dire straits since the collapse 
of the Soviet Union and the subsidies that it provided to Cuba. 
Further, the Helms-Burton embargo has Castro's dictatorship 
strapped for hard currency. This begs the question, where has 
Castro turned to subsidize this loss of money. In my opinion, 
he has turned in large part to drug trafficking and quite 
possibly money laundering to prop up his regime.
    There is an abundance of evidence that Castro's regime is 
involved in drug trafficking. My staff has conducted nearly a 
year-long investigation into one particular shipment of drugs 
seized by the Colombian National Police last December. The 
International Relations Committee, chaired by Mr. Gilman, has 
been doing the same thing. These investigations have shown the 
Cuban Government was the primary principal behind this shipment 
of drugs destined for Havana before it was seized. We believe 
this shipment may have been headed for the United States after 
it got to Cuba. 7.2 metric tons of drugs, cocaine, worth $1.5 
billion was seized in six containers belonging to the Cuban 
Government which were to be transported to Cuba by a Cuban 
Government-owned shipping company and were to be opened only in 
the presence of the Cuban Government's customs agents. This is 
now being called ``the December incident'' in Cuba.
    According to an article in the May 27, 1999 government-run 
newspaper in Havana, Prensa Latina, Rogelio Sierra, a spokesman 
for the Cuban Ministry of Foreign Relations, said--he is a 
government official down there--that 7 tons of Cuba-bound 
cocaine seized in Colombia in December was destined for the 
United States of America. The only Clinton-Gore administration 
response to this statement was they could not explain it. I 
think that tells a lot. Why would a Cuban foreign ministry 
official have said that the cocaine shipment was going to the 
United States through Cuba? I can only imagine there was hell 
to pay for Mr. Sierra as a result of his slip of the tongue.
    Sierra's statement is important because it directly 
contradicts Fidel Castro's earlier assertions in January when 
he alleged that two Spanish businessmen, who were minority 
partners in the joint venture company, were solely responsible 
for this shipment. Since these two were from Spain, the 
shipment must have been going to Spain--a perfect setup by a 
notorious lying dictator.
    In reality, the Cuban Ministry of Interior, which is the 
equivalent of our CIA, assigned two agents to run this company 
under the Cuban Ministry of Light Industry. It was an operation 
that proceeded only under the strict control of the Ministry of 
Interior. The two Interior agents were very upset that this 
cocaine shipment was twice delayed in Colombia and even phoned 
one of the Spanish businessmen to ask when it would be 
delivered. After the seizure in Colombia, when the Cuban 
authorities could have detained the other Spaniard, they sent 
him back to Spain with a gift for his sick wife without 
detaining or questioning him about the seizure.
    He said that he was not involved in the drug operation, had 
no knowledge of it and he was willing to take a lie detector 
test administered by the Drug Enforcement Administration of the 
United States. So far the DEA has not offered him a lie 
detector test.
    Surprisingly, the White House chose to take Castro's story 
without a shred of evidence and based their assumptions on 
Castro's word--nothing else. Now, the Clinton-Gore 
administration is sending a U.S. Coast Guard officer--a law 
enforcement officer--as a reward to Castro, who no doubt 
requested help as a face-saving effort to show the world he is 
``serious'' about drug trafficking. Sadly, the Clinton-Gore 
administration has chosen to reward Castro rather than question 
his complicity with drug traffickers.
    This is not the only case that can be made that the Castro 
regime is neck-deep in drug trafficking. On April 8, 1993, the 
Miami Herald reported that the United States Attorney in Miami 
had a draft indictment for drug trafficking and racketeering 
against Raul Castro, Fidel's brother, also a high-ranking Cuban 
Government official. Under pressure from the Clinton-Gore 
Department of Justice in Washington, the indictment was 
shelved. Why? Is it because the Clinton administration is so 
tilted toward normalizing relations with Cuba that it does not 
want to deal with the allegations of drug trafficking by 
Castro's Cuba? Unfortunately, this seems like the logical 
conclusion.
    I hope the television is working and I hope you will all 
pay attention to the monitor there. I want to show a portion of 
a DEA-edited surveillance videotape that shows a drug 
trafficker bragging about faking an emergency landing in Cuba 
to drop off a load of dope, then getting the royal treatment 
from the Cuban Government. He was even given false repair 
documents for his plane, which permitted him to enter the 
United States after leaving Cuba. I was provided with this tape 
only after threatening to subpoena it from the DEA. The 
administration and the DEA would not give it to us. While I 
would like to show more of the tape, the vulgar language 
prohibits me from doing so. So you are going to see the part 
where he is talking about his involvement landing in Cuba and 
getting false information about the landing.
    So would you please show the video now?
    [Videotape shown.]
    Mr. Burton. Well, the volume was poor. For those of you in 
the media, we will make that available at the conclusion of the 
hearing so you can get a more clear picture of what we are 
talking about. I apologize for that, but under the 
circumstances with the volume problem we had, I think we will 
let you see that later.
    That portion of the video seems pretty convincing to me, 
but not to the administration, which has repeatedly claimed 
there is no evidence of Cuban Government involvement in drug 
trafficking. I cannot believe this administration is making 
those statements. And I think today the witnesses we are going 
to have will clearly show that the Cuban Government has been 
deeply involved in drug trafficking since the 1970's.
    My good friend, Representative Bob Menendez, a New Jersey 
Democrat, said, ``In a country where every human rights 
activist, political dissident and journalist is followed, that 
narco-traffickers can meet without the Cuban secret police 
knowing is a tale from Alice in Wonderland.'' This is from one 
of the President's own party members.
    I agree with my Democrat friend from New Jersey. Castro 
knows everything of significance that is going on in Cuba. It 
is impossible to believe that anyone could move 7.2 tons of 
cocaine through Cuba without Castro's knowledge or at least his 
willingness to turn a blind eye to the movement in exchange for 
some of the profit.
    The Clinton-Gore administration has argued that Cuba does 
not have the capacity to respond to drug plane overflights or 
boats entering its territorial waters. That claim rings hollow. 
Castro has shown his ability to lethally respond to innocent 
civilians in the past. For example, Castro scrambled his MiGs 
in 1996 to shoot down two Brothers to the Rescue planes in 
international airspace, murdering innocent Americans.
    Castro has also sent his Navy to murder nearly 100 innocent 
women and children when it rammed the 13th of March tugboat, 
and then used fire hoses to flood the deck and sink the ship. 
These were innocent men, women and children merely fleeing the 
oppression of his brutal dictatorship.
    What this shows is that Castro has the capacity to respond 
to boats and planes if he wants to, even if it involves killing 
innocent women and children. Apparently Castro feels more 
threatened by innocent women and children telling the world the 
truth about his dictatorship than he does by allowing drug 
traffickers to use Cuba as a syringe for injecting drugs into 
American streets and school yards.
    My good friend, Senator Robert Torricelli, who is chairman 
of the Democrat Senatorial Committee, recently said, ``The 
regular use of Cuban air space and the tracking of drugs 
through Cuba make it clear Cuba belongs on the major drug list. 
Any decision not to place Cuba on the list would be for purely 
political reasons.''
    The Clinton-Gore administration is now in the ironic 
position of defending Fidel Castro's illicit activities. What 
the administration does not realize, or chooses to ignore, is 
that by not placing Cuba on the major's list, it became an 
accomplice to Castro's activities.
    The Clinton-Gore administration's decision will impact an 
entire generation of American children. Even worse is that the 
Clinton-Gore administration made this decision based on its 
desire to normalize relations with Fidel Castro--shameless even 
to fellow Democrats like Senator Torricelli and Representative 
Menendez.
    Today, we will hear first from two very important Members 
of Congress from southern Florida--Lincoln Diaz-Balart and 
Ileana Ros-Lehtinen. Then we will hear from two very important 
witnesses. First, Mr. Jorge Masetti, who is a former Cuban 
Ministry of Interior official, and then his wife, Ms. Ileana de 
la Guardia, whose father, Cuban Colonel Anthony de la Guardia, 
was executed by Fidel Castro for drug trafficking in the famous 
General Ochoa case. Mr. Masetti will be providing us with his 
eyewitness testimony to the drug trafficking and state-
sponsored terrorist activities of the Castro regime. Ms. de la 
Guardia will explain how her father acted with the knowledge of 
Fidel Castro when he ran the drug trafficking organization out 
of the Ministry of the Interior.
    Now, I would like to take this opportunity to thank 
Congressman Lincoln Diaz-Balart, who is not on our committee, 
but is hosting these hearings in his district. My staff has 
informed me that Congressman Diaz-Balart's staff, especially 
Ana Carbonell, deserves a special thank you for all of her hard 
work in putting this event together. Ana, I would like for you 
to stand up so everybody can see, because you worked very hard 
on this.
    [Applause.]
    Mr. Burton. She has probably collapsed from all this work--
there she is back there.
    I would also like to thank the city of Sweetwater for 
permitting the committee to hold this hearing in their lovely 
town hall, particularly Mayor Jose Pepe Diaz, and the 
Sweetwater Police Department, including Chief Jesus Menocal, 
Assistant Chief Ed Fuentes, Lieutenant Roberto Fulgueira, 
Sergeant Lawrence Churchman, Corporal Ignacio Menocal and 
Officer Eddie Magarino. I hope I got those names pronounced 
correctly, so forgive me if I did not.
    Finally, I would like to thank Ileana Ros-Lehtinen and 
Lincoln Diaz-Balart for their support of our hearings in the 
past and for their hard work down here.
    I would like to now recognize Congresswoman Ros-Lehtinen 
and Congressman Diaz-Balart, who will be testifying from up 
here, and then we will go to our witnesses who came all the way 
from Spain to testify today.
    So we will start with--oh, excuse me, pardon me. First, we 
go to opening statements. Forgive me, my colleagues. We will 
start with my ranking member and the head of the International 
Relations Committee, Chairman Gilman.
    Mr. Gilman. Thank you, Mr. Chairman, and Mayor Diaz and the 
Sweetwater officials for hosting this hearing.
    And we welcome the opportunity to appear here today in 
Miami along with our congressional colleagues to address a very 
important issue, an issue of the narcotics trade targeting our 
Nation, and in particular Cuba's links to the illicit narcotics 
trade targeting both our Nation and the European continent. It 
is a subject which is and should be of major importance and 
concern not only to our Nation and all of our communities, 
especially here in south Florida but many of our towns and 
cities throughout our Nation have been ravaged by illicit drugs 
trafficking here from abroad through places like Cuba.
    On November 10, 1999, President Clinton notified me in my 
role as chairman of our International Relations Committee of 
his annual determinations on the major drug source, and the 
major transit list, as required by law. Regrettably, the 
President failed to include Cuba on the major's list, a nation 
which is the largest land mass in the Caribbean and only 90 
miles from our Florida coastline.
    The list of major drug trafficking transit nations included 
the nearby Caribbean nations of Haiti, the Dominican Republic 
and Jamaica. The Bahamas were also included on the President's 
list. The State Department International Narcotics Bureau 
[INL], which has the lead on preparing the recommendations for 
the President's annual major's list determination was 
apparently ignored on the long-overdue inclusion of Cuba as a 
major drug transiting nation that significantly impacts our own 
Nation.
    The fact that the State Department avoided answering 
questions at our hearing in our committee last November on what 
their own recommendations were with regard to Cuba being 
included on that major's list, is some indication that they 
have privately disagreed with the President, as some media 
accounts have already speculated. After weeks of State 
Department lawyer time and extraordinary legal gymnastics on 
whether the term ``through'' means drugs over the skies and in 
the territorial waters of Cuba, we once again witnessed a 
failure of Presidential leadership in our fight against illicit 
drugs.
    In his November 10 letter to the Congress, President 
Clinton stated that our law enforcement community, with regard 
to the 7.5 metric tons of deadly cocaine seized in northern 
Colombia in December 1998 and clearly consigned to Cuba, 
believed that Spain and not the United States was the ultimate 
destination of this major shipment.
    Irrespective of the ultimate destination of that particular 
large shipment of cocaine, it is obvious that massive amounts 
of illicit drugs are now transiting Cuba, either to our Nation 
or to the European continent and possibly with some Cuban 
Government complicity. This is an alarming trend and a new 
reality which we ignore at our own risk.
    Our administration has sadly become a cheerleader for the 
dictatorial communist regime in Havana, and has not adequately 
recognized the long-term significance that this massive 
shipment of cocaine represents. Our Nation's administration has 
not been objective, it has swallowed the Cuban Government's 
efforts to spin--hook, line and sinker--on a likely destination 
of this massive tonnage of Colombian cocaine seized in December 
1998 in northern Colombia and, as we all acknowledge, was 
consigned to Cuba.
    It has long been my understanding that our Drug Enforcement 
Administration [DEA], had no concrete evidence to support the 
conclusion that Spain was the ultimate destination of this 
major shipment of 7.5 tons of cocaine. There may be conjecture, 
there may be hints and speculation, but there is no hard 
evidence that Spain was the final destination, as Mr. Castro 
and his regime would have us believe, without a thorough 
inquiry.
    Why should we give this benefit of the doubt to Cuba and to 
the Castro regime? We ought to be more than curious in 
conducting a serious, no nonsense investigation of that major 
shipment, the implications of which are ominous for our Nation 
and for Europe.
    Once the shipment of 7.5 tons of cocaine was clearly and 
effectively determined to be headed for Cuba, could we have 
expected Mr. Castro to say it was headed for our Nation? 
Never--since he is a master of propaganda and disinformation.
    The head of the Spanish National Police told our committee 
staff in late October of last year in Colombia, that Cuba is 
the only destination they have been able to determine for this 
massive load of Colombian cocaine, not Spain, as Mr. Castro and 
as our President is so willing to believe at this point.
    There are a few significant conclusions that the DEA has 
made clear to our Committee on International Relations, however 
that are worth noting again for the record concerning Cuba's 
rightful inclusion on the major's transiting list. First, the 
DEA says a massive shipment of 7.5 metric tons of cocaine such 
as this does not represent the first time that Cuba was used to 
transit such illicit drugs. This route would have been tried 
and tested many times and well before such a massive quantity 
of drugs were passed through Cuba.
    Second, any organization moving such a large quantity of 
illicit drugs is targeting both our Nation and Europe, two of 
the major cocaine markets in the world. A recent case in point 
was a drug trafficking organization that our DEA encountered 
that was moving large quantities of drugs to Europe as well as 
to Florida and to Texas.
    Until we have a thorough investigation by our 
administration of this 7.5 ton narcotic shipment's ultimate 
destination, instead of the distortions, speculation and 
propaganda from Mr. Castro and from our administration, we 
should give the benefit of the doubt to the communities and to 
the children of our Nation.
    Mr. Chairman, we thank you for keeping the focus on this 
important issue and for conducting this field hearing today in 
Miami. Today, we look forward to hearing firsthand from those 
who are not naive about the illicit drugs and about Cuba's 
involvement. We look forward today to hearing from those who 
can provide us with the facts which ought to concern each and 
every community in America, all those wanting to see our Nation 
prevent illicit drugs from coming to our Nation from abroad, 
entering our Nation from Cuba or anywhere else around the 
globe.
    Thank you, Mr. Chairman.
    Mr. Burton. Thank you, Chairman Gilman.
    Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. In the interest of time, 
I think I will yield my opening statement.
    Mr. Burton. Ok, Mr. Ose. Mr. Mica, do you have an opening 
statement?
    Mr. Mica. Thank you, Mr. Chairman.
    Today's hearing is a followup of a hearing that I chaired 
on November 17, 1999 on the question of Cuban links to 
international drug trafficking. That hearing we conducted in 
Washington was the first on this subject area and it raised 
specifically a number of questions. Unfortunately, we got more 
questions out of the hearing than answers. That is why it is 
important that we focus at least part of today's full committee 
hearing on the subject of Cuba and its involvement.
    Why Cuba? Because the scourge of illegal drugs entering our 
country remains a national security and an economic threat to 
the United States of America. Because American citizens are 
dying every day from these drugs and because there are very 
large questions to be answered concerning Cuba's role in drug 
trafficking.
    The chairman talked about the number of deaths in my 
district from heroin. We know that a large portion of that 
heroin is produced in Colombia then trafficked through the 
Caribbean and we have traced some of that, of course, to Cuba 
and other areas. The only reason we have not exceeded the 
number of deaths last year, my law enforcement folks told me 
while I was home this year, is because they have become so good 
at providing quick drug antidotes in the treatment of these 
folks. Otherwise, our young people would be dying at an even 
more rapid rate.
    The chairman also opened his remarks with saying that in 
Baltimore, 1 out of I think 17 or 18 people of their population 
are being addicted to heroin. A recent city council woman in 
Baltimore said that it is now one in eight people. That is why 
we are taking our subcommittee there in a few more weeks.
    Cuba, of course, we know is located just 90 miles south of 
Florida and it is the largest of the Caribbean nations. It 
provides a direct trafficking route for drugs that are produced 
in South America as they move through the Caribbean and into 
the southeastern United States, mainly through Florida.
    When you draw a straight line from any northern port in 
Colombia--and Colombia now produces 80 percent of the cocaine. 
When the Clinton administration took over in 1993, there was 
almost zero cocaine produced in Colombia, most of the cocaine 
came out of Peru and Bolivia. In 7 short years, they have 
managed to make Colombia the world's largest producer of 
cocaine through their policy.
    We also know, due to the latest statistics, that the DEA 
can trace through a very accurate analysis of heroin, that 74 
percent of the heroin reaching our shores comes from Colombia. 
It is also amazing that in 1993, almost zero heroin was 
produced in Colombia, there was none produced there. In 6 or 7 
years, this administration's policy has turned Colombia into 
the major producer of heroin in the world, and 74 percent of 
that heroin is coming into the United States.
    The illegal drug trade is first and foremost a business, 
and drug traffickers always seek the shortest, most direct, 
least expensive route and most cooperative route. That is why 
Cuba is of great concern to us.
    Cuba's role in illegal drug smuggling raises more 
questions, as I said, than have been answered in the past. 
Compounding the difficulty is the fact that Cuba is a closed 
society that has made no effort to assist the United States 
anti-drug operations.
    Castro's government and his policies have isolated this 
island nation from the rest of its neighbors in the western 
hemisphere. These same policies have also shrouded the 
cooperation or lack of cooperation with international law 
enforcement. Castro's Cuba does not publish statistics on anti-
drug enforcement and they do not share information on known 
drug trafficking enterprises, which are in fact moving drugs 
through Cuba. In short, they are not part of the solution, 
helping the United States solve this serious drug trafficking 
problem, but in fact and unfortunately, they may be a large 
part of the problem.
    Recent United States and Colombian law enforcement 
operations have found that Colombian drug traffickers have used 
Cuba as a meeting place for their criminal business 
enterprises. This fact was clearly illustrated in the 1997 case 
of Miami cocaine kingpin Jorge Cabrera, whose attorney 
described these very such meetings on Cuban soil in his October 
7, 1996 letter to Attorney General Janet Reno. This is the same 
Jorge Cabrera who contributed large political donations to the 
Clinton-Gore campaign and danced some 5 years ago at a 
Christmas party at the White House.
    Today, there is little doubt that Cuba remains a meeting 
place for drug operations as we continue to examine the 7.3 
metric tons of cocaine seized in Colombia in December 1998. We 
also know from the result of our hearing, that massive amount 
of cocaine was destined for a Cuban Government-owned and 
operated company. That, in fact, the company was 51 percent 
owned by the Cuban Government.
    In October 1999, Operation Millennium netted more than over 
31 major Colombian drug traffickers and a wealth of information 
on well-established drug trafficking routes. The Miami DEA 
office confirmed that Colombian and Mexican drug trafficking 
organizations met in Cuba. In the past, we have explored the 
drug smuggling activity over Cuban air space as well as in 
Cuban waters.
    In a letter from President Clinton's drug czar, General 
Barry McCaffrey, in May of last year, the General stated, ``The 
intelligence and law enforcement communities report that 
detected drug overflights over Cuba, although still not as 
numerous as in other parts of the Caribbean, increased by 
almost 50 percent last year.'' That was in 1998--he spoke in 
1999. And yet, for reasons unknown, Cuba was not placed on the 
major's list, and the major's list again is for transit and 
drug trafficking nations, which is designated by the 
administration each year.
    The Castro government can shoot innocent aircraft out of 
the sky, as they demonstrated with the two Brothers to the 
Rescue planes in 1994, but they cannot seem to interdict 
aircraft carrying illegal drugs in their airspace. Common 
sense, coupled with these facts, demand both questions and 
answers. These facts are stubborn and they will not go away 
because of any diplomatic whitewash or creative explanations 
offered by the State Department or this administration, which 
we know is both eager and active in trying to normalize 
relations with the Castro government.
    But first, these questions must be answered. I continue to 
be baffled by this administration's seeming unwillingness to 
thoroughly explore many of the leads that indicate Cuba's 
involvement in illegal drug smuggling activities. Why did this 
administration refuse to add Cuba to the list of major drug 
transit countries? Doing so would only have served to leverage 
the annual certification process in order to ensure that Cuba 
is not facilitating illegal drug smuggling, either through 
complicity or through direct involvement.
    We are here today because the American people deserve to 
know the full truth regarding Cuba's links to international 
drug trafficking. And I am pleased that we are here today also, 
for the first time, give the Cuban people an opportunity to 
hear what is going on with their government and their country.
    I thank the two members of the Miami congressional 
delegation, for calling this hearing and applaud them both 
their leadership on this and other issues in Congress and 
before my subcommittee and the full committee. Thank you, Mr. 
Chairman.
    Mr. Burton. Thank you, Congressman Mica. Now we will hear 
from the two panelists who are up here on the dias with us. One 
is a member of the committee and the other is a member of the 
very powerful Rules Committee, Mr. Diaz-Balart. We will start 
with Ileana Ros-Lehtinen, who has been doing yeoman's service 
for the people of south Florida for a long time.

STATEMENT OF ILEANA ROS-LEHTINEN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Ms. Ros-Lehtinen. Thank you so much, Chairman Burton. It is 
a pleasure to have you in our south Florida community, and 
Chairman Gilman as well. I have the unique pleasure of serving 
both as a member of the Government Reform Committee under the 
able leadership of Dan Burton, as well as in the International 
Relations Committee under the wise and talented Ben Gilman. So 
it is an honor to be with my leaders here today. And thank you, 
Mr. Ose and Mr. Mica for joining Congressman Diaz-Balart and me 
and the south Florida community. Thank you so much, Jose Pepe 
Diaz, the mayor of Sweetwater, a beautiful municipality that I 
had the pleasure of representing for many years and now is very 
well represented by our colleague, Lincoln Diaz-Balart. Thank 
you to you, Pepe, and your very able Council members and staff 
and the police officers and everyone involved.
    And as the chairman and Mr. Mica and Mr. Gilman have all 
pointed out, we are very pleased that our words today are being 
broadcast live through Radio Marti, because this is an 
important message and a message of hope that we bring to the 
enslaved people of Cuba. Very often we are asked how many 
political prisoners there are in our native homeland and our 
answer is always 11 million. So we hope that 1 day they will be 
free and that they will be able to enjoy the fruits of liberty 
and freedom as we have here in the United States.
    As all of the previous speakers have pointed out, the 
December 1998 seizure by the Colombian police of 7 tons of 
cocaine bound for Havana was the catalyst which prompted a 
renewed focus on Castro's involvement in the narcotics trade. 
This could have been the epitaph of the Castro regime's drug 
connection, but unfortunately the reaction of the Clinton 
administration to this case and to other information has been 
to issue statements of a rhetorical nature claiming the lack of 
concrete evidence.
    Castro, who is clearly concerned by this committee's 
investigation into his regime's participation in the drug 
trafficking trade, has used his well-oiled propaganda machine 
most recently to try to once again divert the world's attention 
from his numerous crimes.
    And I refer to the front page of the December 29 edition of 
Granma, the Cuban daily that is controlled by the communist 
party, and it stated just a few days ago,
    ``Ros-Lehtinen has participated in the direction of the 
most vile crusades against our country, particularly in 
Congress. ``What level of credibility could possibly be given 
to these attempts to damage what has been built and to 
stimulate anything that will complicate bilateral relations? 
``The example of this,'' the editorial continues, ``is in the 
ongoing investigation about the alleged connection between Cuba 
and the international drug trafficking which has been the 
subject of Congressional hearings held by Ros-Lehtinen and her 
gang, even though high level officials of the U.S. Government 
deny such connection.''
    So there you go, guys, now you know you are part of a gang.
    In the last few weeks, Castro has also referred to me as a 
``ferocious wolf disguised as a woman.'' I am extremely proud 
to be the subject of his attacks and I assure him that I will 
continue to work against his oppressive dictatorship until 
freedom and democracy reign in the island.
    While the White House does its best to avoid the subject, 
some law enforcement officials have a different story to tell. 
DEA agents, who have spoken to me or to my staff on condition 
of anonymity, have stated that the documentation does exist 
detailing the activities of drug runners who go from the 
Bahamas and other neighboring Caribbean nations to Cuba for 
loading and unloading of drug shipments. They also refer to the 
sightings and the logs of air traffic into Cuba, suspected to 
be related to the drug trade.
    This is but a recent example of what David Perez and Johnny 
Crump, both former narcotics traffickers, as well as Mario 
Estevez Gonzalez, former member of the Cuban Intelligence 
Service, referred to in their Senate testimony in April 1983.
    Perez testified that traffickers would leave from Miami 
into Bimini, then to Williams Key and then to Guincho Key and 
then to Paredon Grande in Cuba.
    Estevez testified that from the period of 1981 to 1982, he 
was approximately responsible for $7 million from drugs 
returning to the Cuban Government by trafficking back and forth 
from the United States. He added, ``It doesn't matter what 
moves in Cuba or takes place in Cuba, nothing gets done in Cuba 
unless it has the blessings and the price set by Fidel Castro 
himself . . .''
    If this was the operation 17 or 18 years ago, how much more 
profit does the Castro regime reap today? How much more 
pervasive and elaborate must the Cuban trafficking network be 
today?
    Yet, there are those, including some administration 
officials, who would turn a blind eye to this reality. They 
would question the value of these statements for evaluating the 
current scenario and they persist in their recanting of the 
regime's assurances that it is not involved. Any such 
assumption flies in the face of logic and is negated by 
information which has surfaced in recent years.
    In February 1999, Cuban defector and former spy for 
Castro's Intelligence Service, the DGI, Major Juan Antonio 
Rodriguez Menier testified in Paris that the Castro Regime was 
involved in money laundering and drug trafficking and further 
stated that it had supported the terrorist acts of Carlos ``the 
Jackal.''
    In January 1999, a complaint filed in France by lawyer 
Serge Lewisch on behalf of Ileana de la Guardia, the exiled 
daughter of Cuban Colonel Antonio de la Guardia, who was 
accused of drug trafficking and sentenced to death by a Castro 
court, charged that Cuba had become a major conduit for drugs. 
In the complaint and related interviews, Ileana de la Guardia 
stated that Cuban drug trafficking was a matter of state, 
organized by the highest echelons of power in the country. It 
is impossible that Fidel Castro was unaware of this.
    In the fall of 1996, the prosecution of Jorge Cabrera, 
referred to in previous statements by these panelists, 
convicted of transporting almost 6,000 pounds of cocaine into 
the United States, gave specific information highlighting 
cooperation between Castro officials and the Colombian cartels. 
However, the United States Justice Department declined to 
appoint a special prosecutor to investigate the allegations of 
Cuban Government complicity in the drug traffic to the United 
States.
    In April 1993, it was reported that the United States 
Attorney for the southern district of Florida had drafted an 
indictment charging the Castro regime as a racketeering 
enterprise and Cuban Defense Minister Raul Castro as the chief 
of a 10-year conspiracy to send tons of Colombian cocaine 
through Cuba into the United States.
    It is difficult to establish a precise date for Cuba's 
entry into the hemisphere's trafficking network. Some 
knowledgeable on the issue, such as Cuban defector and former 
senior intelligence office, Major Juan Antonio Rodriguez 
Menier, known as Coqui, claim that the regime's involvement 
dates back to the 1970's.
    While insufficient data exists documenting a precise 1970's 
inception, it can be ascertained from information obtained 
during Senate and House congressional hearings held in 1982; 
also from the indictment of four senior government officials in 
November 1982 by the U.S. Attorney for the southern district of 
Florida as a result of the Jaime Guillot-Lara case; and from 
numerous reports by the Department of State, Department of 
Justice and our intelligence agencies, that the Castro 
connection to narcotics trafficking was in place by the early 
to mid-1980's.
    Former Cuban intelligence officers who defected to Spain 
have stated that Fabio Vazquez Castano, a Colombian connected 
to insurgent groups in his country, contacted Manuel Pinero 
Losada, director of the Americas Department, a specialized 
intelligence section of the Castro regime, and proposed an 
arrangement whereby Cuba would supply arms and would receive 
payment in cocaine.
    The Castro leadership endorsed the proposal based on:
    (1) the destabilizing effect narcotics trafficking would 
have on the United States;
    (2) that cocaine is the equivalent of foreign exchange that 
Cuba desperately needs; and
    (3) the ability to assist the guerrillas in Colombia.
    Some of this information surfaced again during the 
investigation of Jaime Guillot-Lara.
    Interviews of former Castro officials conducted in 1993 for 
a study sponsored by the Department of Defense's International 
Security Affairs Bureau to address, among other things, 
Colombian trafficking, narco-terrorism, and insurgency, 
revealed similar data. The information retrieved focused on 
Fernando Ravelo-Renedo, a former Cuban ambassador to Colombia, 
and Gonzalo Bassols-Suarez, a former minister-counsel of the 
Cuban Embassy in Bogota, as the individuals chosen by the 
Castro brothers to orchestrate the elaborate and enduring Cuba-
Colombia drug connection.
    Despite the data dealing with the Castro regime's 
involvement in narcotics trafficking, there are those who 
question whether the Castro regime is aware of such activities 
and whether it has the capability to patrol its waters and 
airspace to prevent them.
    Statements of former spies and high-level Castro officials 
indicate that drug trafficking activities are a directive from 
the Castro brothers, executed by their senior leadership. Thus, 
it would seem that the burden of proof can be met by referring 
to this testimonial evidence.
    However, other factors such as Cuba's intelligence 
gathering capabilities should be taken into consideration. Just 
last year, the FBI arrested Cuban spies here in south Florida 
after they had successfully penetrated or had attempted to 
penetrate various United States military installations. Senior 
FBI counter-intelligence officers classified the Cuban 
espionage ring as ``one of the most sophisticated and 
efficient'' they had witnessed.
    The presence of Russia's Lourdes espionage facility and 
China's listening station in Cuba raise the question of 
intelligence sharing and how these significantly augment the 
Castro regime's own capacity to monitor activities not just 
around Cuba, but indeed throughout the hemisphere.
    The Castro regime demonstrated its capacity to interdict 
clearly on February 24, 1996. It deployed Cuban MiGs and shot 
down two Brothers to the Rescue planes, killing four innocent 
civilians, three of them United States citizens.
    The dictatorship's capacity to monitor is shown by its 
surveillance of attempts by the Cuban people to escape their 
island prison in search of freedom in the United States. The 
regime was willing and able to attack and sink the 13 de Marzo 
tugboat, killing innocent men, women and children who gasped 
for air and struggled to stay afloat. They quickly drowned as 
the Cuban Coast Guard boats repeatedly rammed them and turned 
the water cannons on them. The Castro regime is then obviously 
more than capable of preventing the use of its waters for the 
drug trade into the United States.
    As a Member of Congress who represents a south Florida 
district which is directly impacted by the scourge of illicit 
drugs and as a member of this committee, I would like to 
commend Chairman Burton for holding this hearing. There is much 
information detailing that will come out that high-level 
government officials have been involved and continue to be 
involved in smuggling drugs into the United States by allowing 
waters and airspace to become critical ports of call for the 
hemisphere's trafficking network.
    Our goal should be that which was articulated by former 
President Ronald Reagan in May 1983. He said, ``I want the 
American people to know what they are faced with, the most 
sinister and despicable actions.''
    It is up to the Congress to exert our oversight and 
investigative capabilities to uncover the truth and take all 
necessary steps to ensure that this threat against our national 
security is effectively addressed.
    And for that, we thank Chairman Burton and Chairman Gilman 
for their leadership. Thank you.
    Mr. Burton. Thank you very much for that very well thought 
out statement, Congresswoman Ros-Lehtinen. Obviously you have 
been doing your homework, as you always do.
    We will now hear from a very important member of the Rules 
Committee and a great leader from southern Florida, Lincoln 
Diaz-Balart.
    [The prepared statement of Hon. Ileana Ros-Lehtinen 
follows:]

[GRAPHIC] [TIFF OMITTED] T9521.001

[GRAPHIC] [TIFF OMITTED] T9521.002

[GRAPHIC] [TIFF OMITTED] T9521.003

[GRAPHIC] [TIFF OMITTED] T9521.004

STATEMENT OF LINCOLN DIAZ-BALART, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Diaz-Balart. Thank you, Mr. Chairman, thank you very 
much. It is my honor to be able to welcome you, Chairman 
Burton, and Chairman Gilman, Mr. Mica, Mr. Ose, along with our 
distinguished colleague and friend, Ms. Ros-Lehtinen, to the 
district that I am honored to be able to represent in south 
Florida. I want to thank Mayor Diaz and the entire city for 
their hospitality.
    I especially would like to send a message of hope, as well 
as solidarity, to the people of Cuba who are listening to us 
today. They too will soon be able to hold meetings on issues of 
their choice and they, more than anyone else, know that nothing 
of magnitude, especially activities for profit, can take place 
in Cuba without the acquiescence and the complicity of the 
totalitarian tyrant.
    Mr. Chairman, I would ask unanimous consent to include my 
entire statement in the record.
    Mr. Burton. Without objection.
    Mr. Diaz-Balart. I will not read it all. It begins 
delineating the substantial evidence in the public domain that 
has mounted, showing that the Castro dictatorship is 
aggressively involved in narco-trafficking, at least since the 
early 1980's; goes into detail with regard to the indictment 
that was issued in 1982 here; continues with specific cases, 
for example, with direct logistical assistance by the Cuban 
armed forces of drug trafficking into the United States; and it 
goes on giving specific examples.
    Prior members of the committee, their statements have 
talked about the April 1993 Miami Herald leak from the U.S. 
Attorney's Office. After that investigation was shelved by the 
Clinton administration, it was leaked. The grand jury's draft 
indictment was leaked to the Miami Herald, and I think it is of 
extraordinary importance that we actually read a few parts of 
what the Miami Herald was able to make public.
    The draft indictment states, ``The Cuban government 
facilitated the transportation and distribution of large 
quantities of cocaine destined for the United States, including 
south Florida.''
    The indictment, the Miami Herald stated, is historically 
significant because it names the entire Government of Cuba, 
including its armed forces and its Interior Ministry, as 
criminal organizations. The indictment of the Cuban Government 
was the result of months of secret testimony before a Federal 
grand jury in Miami.
    Now one of the witnesses who testified before that grand 
jury spoke to me later and talked to me about another witness' 
testimony. And they personally connected Raul Castro and the 
other high ranking members of the dictatorship to narco-
trafficking of cocaine into the United States. The indictment 
reads, ``In return for substantial sums of money, Raul Castro 
exploited his official position by offering narcotic 
traffickers the safe use of Cuba, including Cuban airspace, as 
a location for the transshipment of multi-hundred kilogram 
loads of cocaine destined for the United States.''
    Among the other allegations in the indictment, in exchange 
for millions of dollars, Raul Castro assured Colombian cartel 
leaders that the Cubans would protect their shipments. Special 
radio frequencies were provided to make Cuban airspace friendly 
to drug pilots, who were also allowed to land on Cuban soil 
with their loads of cocaine. With this special frequency, 
traffickers could enter and exit Cuban airspace without 
molestation.
    The draft indictment states Cuban officers used their radio 
facilities to warn smugglers of approaching United States Coast 
Guard cutters. Drug planes were allowed to drop their cocaine 
loads to smuggler vessels waiting in Cuban waters. Colombian 
cartel leaders were allowed to live in Cuba, provided with 
housing, cars, security, entertainment. That is in the 
indictment.
    Mention was also made, Mr. Chairman, distinguished members, 
of the Cabrera bust in 1996. I think it is important to read 
also what was leaked to the Miami Herald when that 
investigation was quashed, because Cabrera was arrested--he was 
busted in January 1996. He started offering at that time 
substantial assistance to the DEA to the United States Attorney 
here, to Customs, personally tying Fidel Castro to drug 
trafficking and offering to go back into Cuba, arrange another 
deal with Fidel Castro and cocaine traffickers in Colombia, and 
that that deal could be under surveillance--he offered that.
    Now it would be my suggestion to the committee that has 
done an extraordinary job on this subject, Mr. Chairman, Mr. 
Gilman and members, with regard to the bust by the heroic 
Colombian police in December just a year ago of over 7 tons, 
that you focus upon the Cabrera bust as well, because the 
lawyers for Cabrera and the other drug traffickers, when one 
speaks to them, it is very interesting. They were obviously--
they talk about the fact that DEA and Customs and the U.S. 
Attorney's Office down here, they were amazed obviously when 
this case broke and they started to receive the direct evidence 
of Castro's direct participation in drug deals. As a matter of 
fact, the substantial assistance was treated obviously in the 
highest, most confidential manner, and the investigation 
continued. And all of a sudden in July of that year, after 6 
months investigation, the investigation was leaked to the Miami 
Herald, Mr. Jeff Lein wrote it, front page of the Miami Herald, 
``Traffickers tie Castro to Drug Run.'' And at that time then, 
the U.S. Attorney's Office told Cabrera's lawyer, sorry, the 
investigation is over, your client lied to us. The lawyer said 
well, how? Well, we will deal with that at the hearing.
    The lawyer was waiting for the hearing so that the evidence 
would be put forth as to how Cabrera lied in the substantial 
assistance that he was giving the authorities. But the U.S. 
Attorney's Office, the day of the hearing, dropped the lying 
charge and Cabrera was sent away pursuant to the sentencing 
guidelines for 19 years for his plea for smuggling, and was 
fined.
    Cabrera's lawyer, as I said before, says that his client 
had offered to help set up a cocaine shipment from Colombia to 
Miami that American authorities could monitor and, quote, that 
shipment would come through Cuba in full view, it would go 
unnoticed, it would go unseized, Colombian drug traffickers 
would be embraced in Cuba. Cabrera's lawyer says, also told 
agents and prosecutors that they would be in a position to 
catch Miami-based ``mules'' who would collect the cocaine once 
it arrived, and the money launderers, who would wash the 
profits. The government, however, was not interested.
    What we have seen from the government, Mr. Chairman, is 
quite interesting. Chairman Gilman and you and others have 
pointed out that despite your committee's investigation with 
regard to the seizure of over 7 tons of cocaine in December 
1998 by the Colombian police in northern Colombia, not only was 
the Cuban Government not placed on the major's list, as has 
been stated before, but you, Mr. Chairman, received a letter, 
along with Ms. Ros-Lehtinen and I, from Mr. McCaffrey, after 
the Colombian bust. This letter was dated January 28, 1999, and 
it states there is no conclusive evidence to indicate that the 
Cuban leadership is involved in criminal activity. This is the 
letter. Cuban officials cite lack of resources for the 
government's inability to patrol its territorial waters.
    Not only, as it has been mentioned, was the Cuban 
dictatorship able to shoot down unarmed planes in February 
1996, but just this last weekend, again in a small private 
airplane leased by a pilot who used to be in the South 
Vietnamese Air Force, the Cuban Government immediately 
intercepted that pilot as soon as he went over Cuban space and 
followed him, the Cuban MiGs followed him until he left Cuban 
airspace.
    So not only were the Brothers to the Rescue able to be 
intercepted in February 1996, but if there is a lack of 
resources for the government's inability to patrol its 
territorial waters, they sure were able to patrol them a few 
days ago when the former South Vietnamese pilot decided to fly 
an unarmed civilian plane, and he was immediately intercepted.
    So with all due respect, in my opinion, there are two 
possible causes or explanations for the Clinton 
administration's drug policy as it relates to Castro's Cuba. 
The first possibility is that it is a policy of naivete to the 
point of ridiculousness. The second possibility is that it is 
one of purposeful cover-up. I really cannot believe that those 
in leadership positions on this critical issue in the 
administration could be so inept as to be responsible for a 
policy rooted in the first possible cause. I believe that the 
Clinton administration covers up the Castro regime's role in 
narco-trafficking because the Clinton administration's policy 
of appeasement of Castro at all costs could not be maintained 
if the American people learned the truth.
    That is why it is so important for Congress to continue 
investigating and not simply give up based on the fact that 
there is only 1 year left of this administration. It is the 
duty of Congress to continue investigating. That is why I 
commend you, Mr. Chairman, members of this committee, as the 
committee charged with oversight of the Executive under the 
law, to proceed, so the American people can realize what the 
truth is with regard to Cuba and specifically Castro's regime 
in narco-trafficking and the American people can make up their 
minds as to how their democratically elected government should 
proceed to protect the security of the American people.
    Thank you very much.
    Mr. Burton. Thank you very much, Mr. Diaz-Balart, for that 
very insightful and eloquent statement.
    Before we go any further, I would like to show some 
posters. Ms. Ros-Lehtinen referred to the March 13 tugboat 
incident and I think it is extremely important that once again 
we emphasize that tragedy and how Fidel Castro was able to 
drown those innocent women, children and men and yet he cannot 
intercept, he says, drug traffickers. We will get into that a 
little bit later.
    Do any of the members of the committee have any questions 
of Ileana or Lincoln?
    Mr. Gilman. Mr. Chairman, I just want to commend both 
Lincoln and Ileana for making such a forthright and extensive 
statement that focuses attention on the illegal trafficking 
that transits Cuba for an extensive period of time.
    Thank you.
    Mr. Burton. Thank you. And I would just like to say real 
quickly--I will yield to my colleague in just a second--that 
Ileana and Lincoln represent a large amount of Cuban-American 
citizens who have relatives in Havana and in Cuba and they have 
to deal with these problems on a regular basis and they know 
first-hand of the problems that they are talking about. So even 
though we have some knowledge of it and we have been 
researching this, what they have said today is very factual and 
I really appreciate the research they have done.
    Mr. Ose.
    Mr. Ose. Mr. Chairman, thank you.
    One of the things that I have been trying to glean from the 
reading that was given me for this hearing was in 1989 with the 
fall of the Iron Curtain and what-have-you, the substantial 
amount of support that had been going to Cuba ceased, either 
from the Soviet Union or others. Have we ever quantified--is it 
on the nature of $200 million----
    Mr. Diaz-Balart. $100 billion.
    Mr. Ose. $100 billion annually?
    Mr. Diaz-Balart. No, over the 30-year period the Soviets 
subsidized.
    Mr. Ose. So about $3 billion a year.
    Mr. Diaz-Balart. Yes.
    Mr. Ose. Thank you.
    Mr. Burton. $3 billion a year. And that is why they are 
trying every avenue to get hard currency, and that is why they 
are trying to break the Helms-Burton embargo.
    I would like to now have our next panel--Mr. Masetti and 
Ms. de la Guardia. Could you come forward and take your place 
at the microphone? Is the sound quality all right on the 
microphones now?
    I would like to have our translator sit between them. Are 
you going to be the translator?
    Ms. Emedan-Lauten. Yes.
    Mr. Burton. Thank you very much for your help.
    I would like to have Ms. de la Guardia and Mr. Masetti 
stand up to have you sworn in, please.
    [Witnesses sworn.]
    Mr. Burton. Have a seat.
    Because we always show deference to the ladies, we will 
allow Ms. de la Guardia to make her opening statement.

 STATEMENTS OF ILEANA DE LA GUARDIA, DAUGHTER OF CUBAN COLONEL 
TONY DE LA GUARDIA; AND JORGE MASETTI, FORMER CUBAN MINISTRY OF 
                       INTERIOR OFFICIAL

    Ms. de la Guardia [through interpreter]. Members of the 
committee, today is a most important day for me, for you have 
granted me the opportunity of bringing my testimony to you. A 
testimony that, as a matter of fact, the regime of Fidel Castro 
has tried to silence, but they will not be able to hide the 
truth in spite of the many efforts at doing this, efforts that 
they undertook in 1989 when they killed my father Antonio de la 
Guardia, together with the Cuban General Arnaldo Ochoa and his 
respective aides Amado Padron and Jorge Martinez.
    Mr. Gilman. May I interrupt a moment? Would the translator 
bring the microphone closer to her? Thank you.
    Ms. de la Guardia [through interpreter]. The process that 
found them guilty, known as the Ochoa case or Cause No. 1 of 
the year 1989, dictated that 14 officials of the Ministry of 
the Interior accused of drug trafficking, amongst which my 
uncle Patricio de la Guardia, general of the brigade, was 
included.
    Mr. Burton. To the translator, if you could pull that mic--
I do not think they are picking up and I want to make sure that 
everybody hears everything.
    Ms. Emedan-Lauten. Can you hear me now?
    Mr. Burton. Just get as close as you can.
    Ms. de la Guardia [through interpreter]. As the daughter of 
one of the accused, I was present during the process, which I 
may add, did not include the minimum legal warranties. And now 
I will enumerate some of the most flagrant violations.
    The accused did not have the right to choose their defense 
attorneys. The attorneys representing the accused were just 
attorneys and also officials of the Ministry of the Interior. I 
was able to visit with my father, 24 hours before the trial. 
Until then, neither my father nor I nor anyone close to the 
family members knew that this process would take place and we 
found out very late that night through an order not to find an 
attorney.
    The power of oral summation used by the President of the 
court, only applied in times of war, according to the Cuban law 
itself in its Article 475 of the law of Penal Military 
Procedures, and Cuba at that time had already signed the peace 
accords with Angola. And that is why they would have had to 
have been tried by the Military Chamber of the Supreme Popular 
Court, according to Article 14 of the law of Military Court, 
and not as it was by a Special Military Court.
    Therefore, the judges should have been elected by the 
National Assembly of Popular Power, according to Article 73 of 
the Constitution. Instead, the members of the court were 
elected by an anonymous power. And in fact, this power was 
Fidel Castro himself, which I later learned by a witness, 
Gabriel Garcia Marquez, who said that he, Fidel, had remained 
during the entire process in a room during the hearing behind a 
glass window, from where he was able to direct the attorneys 
and the judges.
    The accused were condemned and found guilty of drug 
trafficking, for which Cuban law sets forth a maximum penalty 
of 20 years, according to Article 30.1 of the Penal Code at the 
time, and not the death penalty as actually happened.
    You may ask yourselves what were the real causes that led 
to such amount of irregularity legally, and so many efforts to 
bar the defense of these individuals. And last, what reason 
made Fidel Castro eliminate them physically and morally, these 
people who were already condemned to death. Well, I will tell 
you that at that time, many people and myself included, we knew 
that the causes were political, as some people that I am not 
allowed to mention by name because they have brought this 
information out of jail, thus I am unable to mention this 
source, believed and still believe that the causes were 
political.
    This letter which was smuggled out of prison states, and I 
quote, with Ochoa and Tony, what happened was that there had 
emerged antagonic opinions that were irreconcilable, divergence 
of opinions regarding state policies, government rule, the rule 
of law, the status of the only--of the sole party, and the 
economy. These were criteria regarding the need for a 
democratic liberalization, which is to say changes in the 
different spheres of the economy, of politics and the rule of 
the state and government, which was widely known by everyone 
because neither one of them made any efforts to hide them.
    I can assure you that what the letter stated is the truth, 
because in my house, in my father's house, there was an 
atmosphere where things were discussed, where people could talk 
about the changes in Eastern Europe with Perestroika and where 
the government was criticized. My father mentioned more than 
once that he had had enough, that people in Cuba were not able 
to freely choose to travel, to set up their own business, to 
choose who was going to rule the country. In my house, there 
were magazines such as Time, Newsweek, Paris-Match and 
literature considered subversive by the regime as well.
    Regarding Ochoa himself, he said in my presence that he was 
not in agreement with Fidel Castro, and he also typified him as 
someone who is crazy. My father's family before the revolution 
was considered one of the most aristocratic families in Havana 
and they had gone to school here in the United States. My uncle 
Patricio de la Guardia and my father Antonio de la Guardia then 
became linked to Fidel Castro in the 1960's and supported the 
regime in very important military positions.
    When they stopped believing in the regime, they made this 
known to Fidel Castro and Castro, instead of undertaking a 
political process as he had done on several occasions with 
other dissidents, he preferred not to recognize that political 
dissident within the core of the Army, and imagined that by 
accusing these officers of drug trafficking, he would be able 
to cleanse his responsibility in a drug traffic that Cuban 
authorities were involved in and which the services of the 
United States had apparently proof of.
    So, with Cause No. 1 of the year 1989, Fidel Castro does 
away with two problems in one legal indictment--the emerging 
dissidency within the core of the Army, on the one hand, and 
his responsibility with drug trafficking on the other.
    To conclude, while all the rules of international law were 
violated with the Ochoa process, according to the conclusions 
of the United Nations in its Decision No. 47 of the year 1994, 
Fidel Castro will no longer be able to hide the truth in spite 
of the many efforts that he is still undertaking to try to hide 
and change the facts. I know that he will not be able to, 
thanks to a free world, a free press and free men such as--and 
democratic men such as you, that have allowed me to be here 
before you to listen to the truth of the killing of my father 
in the most obscure Ochoa case.
    Thank you very much.
    Mr. Burton. Thank you, Ms. de la Guardia. I know it has 
been a very difficult time for you.
    We will now hear from Mr. Masetti. Can you make sure the 
microphones are close to you, so that we can hear both, please.
    [The prepared statement of Ms. de la Guardia follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.005
    
    [GRAPHIC] [TIFF OMITTED] T9521.006
    
    [GRAPHIC] [TIFF OMITTED] T9521.007
    
    Mr. Masetti [through interpreter]. Dear members of the 
committee, I come before you here today to bring my testimony 
of being convinced that at the beginning of the year 2000, it 
is high time that Cuban citizens are allowed to live in freedom 
without the weight of an ideology that represents hate and in 
the name of which horrible atrocities are being and have been 
committed. This is not a cop-out, but I am convinced that if 
the ideology of Castro had not emerged in the Latin American 
continent, many of us that were its armed right hand, that grew 
up in an ideology of hate, unfortunately only learning to 
destroy, would have been very different. We would not have had 
so much bloodshed from young people and the true meeting 
between our people and our cultures today would not be a dream, 
but a reality. Castrism with its load of hate has only served 
to bring us apart.
    Unfortunately, we cannot speak of this in the past because 
it still exists and it is still there, and Cubans are still 
suffering from it. Colombians are still being shot down by the 
bullets of those trained in Cuba. In Argentina, my country of 
origin, there are still mothers dressed in black in mourning 
and we could enumerate one by one the countries within the 
continent that knew and are still suffering as a result of this 
devastating ideology.
    And the United States has not been able to escape this 
scourge. As a matter of fact, it is the No. 1 goal. And some 
are still asking themselves whether Castrism is still a threat 
for the interests of this country. I can assure you, according 
to my own experience, that while Fidel Castro is still in 
power, Cuba will be a constant threat for North Americans.
    I remember that once in Havana, I was approached in order 
to explore different guerilla organizations to carry out a 
kidnapping with strictly financial, not political, goals. In 
Panama, I met with a commander of the Colombian organization, 
M-19, because according to them, they were far advanced in the 
research of a potential target in Barranquilla in that country. 
I went back to Havana to relay the information to Manuel 
Pineiro, the Director of the Americas Department of the Central 
Committee of the Communist Party in Cuba. He raised every 
possible objection he could think of--the country, the 
organization--he did not like any of it, but as soon as he 
found out that the target was a North American executive of 
Texaco, his fears disappeared immediately and he authorized the 
operation and he gave it all his resources, because if the 
target was a North American, in his own words, ``Fidel will 
like it.'' Fortunately for me, this operation was finally not 
able to be undertaken, but the will of the Cuban officials was 
evident.
    Regarding also the United States, I can assure you that 
during the years 1974 and 1975, tens of dozens of militants of 
the Popular Socialist Party of Mari Bras in Puerto Rico 
received military instruction in Cuba at the secret unit Punot 
Cero.
    Likewise, I also witnessed when I was working with the 
Department of the Americas in the Cuban Embassy in Mexico, the 
support afforded the Puerto Rican organization, Macheteros, for 
undertaking the Wells Fargo truck in September 1983, where $7.2 
million were stolen and were sent through Mexico--out of which 
$4 million were sent through Mexico to Havana. Also, the person 
delivering the truck was brought out of the United States with 
the support of documents and being masked as personnel of the 
Cuban Embassy in Mexico. He was then sent to Cuba. The support 
brought to this operation was directly supervised by Jose 
Antonio Arbesu, who was then the chief of the United States 
Section of the Department of the Americas of the Central 
Committee of the Communist Party.
    I was also able to witness the efforts undertaken in Mexico 
by Cuban officials to try to free the Colombian drug trafficker 
Jaime Guillot Lara, held in that country and who was then sent 
to Cuba where he died of a heart attack in 1990.
    I can even remember--I cannot remember whether it was in 
1986 or 1987, but it would be enough to just do research in the 
press regarding the exact date that the M-19 of Colombia, in 
order to pay back for favors received from the Libyans, 
detonated a bomb in the North American school in San Jose, 
Costa Rica where a teacher was wounded. The explosive used was 
delivered in Managua by an official who was linked to special 
troops in Cuba and who operated in that country with the 
pseudonym Lucio, and that was in charge of relations with that 
organization.
    I do not want to go on further for fear of boring you, but 
I am at your service for replying to any questions you may 
have.
    My only goal has been to provide evidence of the will of 
the Castro regime toward the United States and toward Latin 
America. I also have as a goal, and I find it timely, to let 
you all know that I hope my testimony will help bring support 
to those who are still fighting inside of Cuba for their 
freedom and for democracy, and for making relations with that 
country in the future, those framed within brotherly love and 
not hate and resentment. Please continue to support them and 
help them because they, in spite of all repression and danger, 
they are helping you with their struggle and all the countries 
of this continent.
    Thank you.
    [The prepared statement of Mr. Masetti follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.008
    
    [GRAPHIC] [TIFF OMITTED] T9521.009
    
    Mr. Burton. Thank you very much, Mr. Masetti and Ms. de la 
Guardia. I want to tell you both how much I appreciate you 
coming all the way from Spain to testify, and I think the whole 
committee is impressed with your candor and your bravery.
    We will now go to questioning and each member will have 5 
minutes and we will go as long as members have questions of 
this panel. I will start off.
    Mr. Masetti, when you were a senior member of Fidel 
Castro's Ministry of the Interior, did you have any knowledge 
of the Interior Ministry's involvement with drug trafficking?
    Mr. Masetti [through interpreter]. Let me just make clear 
that I was not a member of the Ministry of the Interior, but of 
the Americas Department within the Communist Party, an 
organization created for broadening subversive activities 
throughout the entire continent.
    But in reply to your question; yes, I did have knowledge of 
the involvement of the Castro regime in drug trafficking.
    Mr. Burton. You know, rather than me asking you a whole 
series of questions about the drug trafficking, can you tell us 
when you became aware of the drug trafficking coming in from 
Latin America, from Colombia, and was it frequent and was it 
coming in by the shipload and could Castro have known about 
it--or could this have happened without Castro's knowledge? And 
also, what happened to the money that was paid?
    Mr. Masetti [through interpreter]. Well, let me begin with 
what I can say, I can say that at the beginning of the 1980's, 
I do not remember if it was in mid-1980's or toward the end of 
the 1980's, I got information regarding the fact that Jaime 
Guillot Lara was detained at the airport in Mexico for the use 
of false documents. I do not know for a fact that Mexican 
officials knew at all the type of character they had 
apprehended.
    And I can also say that I know this because I saw it, that 
Cuban officials in the embassy as well as the ex-Ambassador 
himself, Mr. Fernando Ravelo, were there at the embassy in 
Colombia.
    All those efforts reaped good results and Guillot Lara was 
freed in Mexico. From there, he went to Spain and then on to 
Cuba where he died of a heart attack in 1990.
    I further learned that the links with Guillot Lara had 
begun after a relationship that existed between him and the 
organization M-19, because of weapons that were sent to be 
taken at a point called El Choco. That is to say that Cuba used 
the drug trafficking routes to send weapons to Colombia and in 
exchange they paid them with favors, for example, letting them 
bring the drugs through Cuba. Of course, they immediately 
discovered that drug trafficking was very profitable and they 
quickly went into business with Guillot Lara and they let him 
come to live in Cuba.
    Likewise, I met Carlos Alonzo Lucio, the representative of 
the M-19 in Cuba. I even went with him, and I do not remember 
if this happened in 1987 or in 1988, but I went with him to 
Colombia to meet in El Calco with Desaro, who was the commander 
of the M-19 forces.
    Mr. Burton. I think you meant 1988 or 1989, did you not?
    Mr. Masetti [through interpreter]. No, rather December 
1987.
    Mr. Burton. OK.
    Mr. Masetti [through interpreter]. In December 1987, he was 
already asking me if I knew of any Latin American organization 
that would be able to provide pilots for him to transport 
cocaine paste from Colombia. Since that was not something that 
I did as part of my work, I did not keep any contacts with him.
    This person, this character I met once again in Havana 
shortly before the killing of Antonio de la Guardia. He went 
there trying to set up the following business: Cuba would 
falsely purchase a certain paint to justify the wholesale 
purchasing of ether that his sister-in-law would need for a 
company called Arcos Lucs. This company was so well known in 
Colombia that it was called Narco Loose.
    This factory was later blown up by the narcos because the 
arrangement they had with the Lucio family was that they would 
allow them the use of the factory but that they would not go 
into distribution or sale, and the minute they started 
attempting this, they blew up their factory.
    Later, this character dared to become a political advisor 
and his political platform was let us try to moralize Bogota. 
And he is currently sought by the Colombian authorities for 
illicit profits or drug trafficking. And he currently lives in 
Cuba at a house that is frequently visited by the pianist Frank 
Fernandez and many foreigners have spotted him there as I very 
well know.
    This is regarding what I personally know. There are other 
facts, which are the last days that I was in Cuba, I worked 
with my wife's father in the MC Department, Mr. Antonio de la 
Guardia. And I was able to see bags, diplomatic pouches, filled 
with dollars in low denominations.
    Mr. Gilman. Where was that you saw these diplomatic bags?
    Mr. Masetti [through interpreter]. In the offices of the 
Department.
    Mr. Gilman. In Cuba?
    Mr. Masetti [through interpreter]. In Cuba, in the Siboney 
development. These valises were then delivered, half of them to 
the Minister of the Interior, Jose Abrantes, and half of them 
to Mr. Naranjo, an aide to Fidel.
    Mr. Gilman. And these valises contained currency?
    Mr. Masetti [through interpreter]. Money, dollars, in cash.
    The other question I asked myself, knowing from the inside 
the repressive interworkings of Castro's regime, when the legal 
proceedings were undertaken against General Ochoa and against 
my father-in-law, they made a very detailed description of all 
the drug trafficking activities. So the small Colombian planes 
would come very close to Cuban shores, they would drop the 
drugs and then fast boats from Cuba would go pick up the drugs 
and bring them to shore. So that then boat owners from Miami 
would go to Cuba to pick them up, where they sometimes went to 
pick them up and they stayed for a few days. This was described 
in public throughout the hearings or the proceedings.
    So the questions that I asked myself are the following: 
There is a participation or involvement of the following 
forces--the Coast Guard that sent the quick boats to pick up 
the drugs; the forces--the armed forces that have to give the 
authorization to do these pickups from the planes; the 
immigration forces, so that these traffickers could go through 
Cuba freely, they had to have false documents.
    And Fidel Castro, who in his own words, knew even how many 
cookies were sent to the soldiers in Angola, how could it be 
possible that he not know about this? This is all regarding 
drug trafficking.
    Ms. de la Guardia [through interpreter]. What I wanted to 
say was that his rank as a Colonel did not allow him or did not 
grant him authority to open up the air corridors for these 
planes to be able to come through Cuban space. In other words, 
this authorization had to come from a higher level of authority 
and only Raul Castro, in other words.
    Mr. Gilman. And all of this information was part of the 
court proceedings in the trial of your father?
    Ms. de la Guardia [through interpreter]. This that we are 
discussing right now were all the operations for the drug 
trafficking that came up during the trial, but of course, the 
responsibility as far as the higher ups could not be mentioned 
during the proceedings, nor the final destination of the money, 
the amount of money from all these operations.
    Mr. Gilman. And what was the date of that trial?
    Ms. de la Guardia [through interpreter]. They were detained 
June 13 and the trial began June 30.
    Mr. Gilman. Of what year?
    Ms. de la Guardia [through interpreter]. By July 7, 1989--
this is the year. OK, by July 7, 1989, the attorneys found 
these four people guilty and condemned them to death. But in 
the time period of 15 to 20 days, this all took place. The 
other 10 accused were sentenced to 20 or 30 year terms in 
prison and shortly thereafter my father was shot. So the whole 
time period we are discussing was about a month.
    Mr. Gilman. Jorge, you hadn't finished your testimony, 
would you want to complete your testimony?
    Mr. Masetti [through interpreter]. Yes, but regarding drug 
trafficking, that is the information that I possess regarding 
Cuba's involvement.
    Mr. Burton. Before I yield to my colleagues--I think we 
will go to Mr. Mica next--there are two things that I wish you 
would elaborate on for the members to help them with further 
questions. Is it possible for shiploads of drugs to come into 
Cuba without Fidel Castro knowing about it? And do you have any 
knowledge of moneys being given to Fidel Castro or his 
subordinates from drug trafficking?
    Mr. Masetti [through interpreter]. The second question, I 
have no information regarding that subordinates handed money 
over to Fidel Castro; but, of course, the moneys resulting from 
drug traffic from the department directed by Manuel Pineiro, 
that money had to go to Fidel Castro.
    Regarding your first question, I think that this is obvious 
to anyone who has ever been in Cuba. The level of control and 
repression makes it impossible for any type of higher level 
drug trafficking activity to take place without the knowledge 
of Fidel Castro. For example, in December 1998, in Cartagena, a 
7-ton container full of drugs was found.
    And Fidel Castro did then the same thing he did in the 
Ochoa case; knowing full well that the Colombian authorities 
had the information, he took steps before anything else 
happened, accusing two Spaniards of the drug trafficking in 
that case. It is truly impossible, unthinkable, for two 
foreigners to ever be in Cuba bringing in that load of drugs 
illegally, to then send to Europe or to the United States.
    And supposing that these two foreigners were truly drug 
traffickers, it is impossible for Castro not to have known 
about this because he does in-depth research of any foreign 
businessman investing in Cuba. The two Spaniards have even said 
that they had nothing to do with the drug part of the 
operation, but that they did know that the Cuban Government 
used them to create fronts or ghost type companies that would 
get credit then from the United States, thus allowing them to 
launder the money.
    So Fidel Castro is not looking for businessmen, but rather 
laundry--people in charge of laundering.
    Mr. Burton. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman.
    Ileana de la Guardia, did you meet with your father Colonel 
de la Guardia in jail just before his death? And where did that 
take place?
    Ms. de la Guardia [through interpreter]. Yes, I was able to 
visit him three times. The first time, the process was already 
underway and as a family member during this time, I was able to 
realize that he was trying to assume responsibility for 
everything and not defending himself any more. So due to the 
fact that the night before, Fidel Castro visited him in prison 
and asked him please to assume all responsibility, that in the 
end, everything will be handled internally.
    During the last visit just before he was executed and 
having realized that Fidel Castro was not going to make good on 
his promise, he asked me to please not let any of my brothers 
go into the military. And he also then made some comments on 
politics and the route he thought the government would be 
taking and he makes reference to the China Wall. My 
interpretation of what he said is that he once had believed 
that Cuba would open itself up, that changes would ensue, and 
that with this he was saying that to the country, it would 
become more isolated.
    Mr. Gilman. What did you learn from your father about the 
complicity of the Cuban Government in the narcotics 
trafficking?
    Ms. de la Guardia [through interpreter]. What I was able to 
learn, of course, was indirectly learned, because my father, 
being the professional that he was, never spoke to his children 
about the operations that were undertaken in his department. 
The indirect knowledge, for example, would be the result of 
conversations that he would have with other people and that I 
may at times overhear, or through phone calls that he would 
have through which, for example, I learned of Mr. Vesco's visit 
to Cuba.
    Also, I know from this that Mr. Vesco received protection 
from Fidel Castro during the 1980's, that is at the beginning 
of the 1980's, because Fidel Castro asked my father to take 
care of him, to take care of Vesco. In other words, Vesco would 
be able to broaden his illegal activities through a house that 
was built in Cara Lago Leceur and that he would be able to do 
this because of the house that would have all the sophisticated 
means of communication available at that time.
    And then just 3 years before 1989, that is when my father 
started cutting any type of link he would have with Robert 
Vesco, because it was his understanding that Mr. Vesco was a 
lowly illegal person, that he wanted nothing else to do with 
him, and he would pass whatever activities regarding Vesco 
needed to be done to somebody else.
    Mr. Gilman. Ileana, were you jailed after your father's 
death?
    Ms. de la Guardia [through interpreter]. Well, they did not 
hold a trial against me, they were not able to do that. But the 
entire year during which we were going about receiving a permit 
to leave Cuba, we encountered a very difficult situation with 
the regime because they tried to accuse us of disorderly 
conduct in a public place and an attempt to disarm the police.
    This is something that I believe they set up by themselves 
in an attempt to frame us. They set this up in the street and 
so they detained us and had us at the police overnight. They 
had some policemen beat us up.
    Mr. Gilman. One last question, Ileana. Where you have been 
living, did you file a lawsuit against the Castro regime for 
the illegal prosecution and the irregularities in the judicial 
proceeding against your father?
    Ms. de la Guardia [through interpreter]. Yes, by 1989, I 
had already done this, by January. I brought a complaint in 
France versus Fidel Castro for killing, torturing, kidnapping 
and drug trafficking. The complaint has gone through several 
stages and is currently going through the stage known as 
casaseone in Spanish.
    Mr. Gilman. And that complaint is still pending, is that 
right?
    Ms. de la Guardia [through interpreter]. It is still open 
and it is still pending.
    Mr. Gilman. One last question of Mr. Masetti. What is the 
role of Cuban Government officials in those Cuban-owned 
companies that are used as a front for drug trafficking? Is it 
business or an intelligence function, or both?
    Mr. Masetti [through interpreter]. I am convinced that 
these new Cuban businessmen have a more Mafia-related culture 
than business culture. It is very hard to come to understand 
that these new businessmen turn out to be ex-intelligence 
officials dedicated to illegal activities abroad, that they 
have only changed their dress and their GMT Rolex watches for 
true gold Rolex watches, but their activities are and remain 
the same.
    But the question is an interesting one, and that is just 
where I believe that the North American Government, the 
American Government, is responsible.
    And perhaps I am diverting a bit from the main topic, but I 
think it is important. If the United States Government should 
lift the embargo against Cuba, what Cuba seeks is not 
consumables. That, they can seek anywhere and they do. But 
rather, lines of credit and money that is used for these 
businesses that only people authorized by Fidel Castro can own, 
because in Cuba, Cubans cannot have their own business. So 
lifting the embargo on Cuba would serve only to consolidate 
Mafia that we already know exists in other latitudes, to carry 
out this type of activity in Cuba and that could perpetuate 
themselves in power and be in control even after the death of 
Fidel Castro.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Masetti, you described in your testimony the beginning 
of some of your involvement. I believe that you said that 
weapons were going from Cuba to Colombia, is that correct?
    Mr. Masetti [through interpreter]. Correct.
    Mr. Mica. And were these given by the Castro regime in the 
beginning or was there money coming back for the weapons?
    Mr. Masetti [through interpreter]. No, there was no 
exchange of money for these weapons, no money paid for these 
weapons. And a lot of those weapons were not only sent to 
Colombia, they were delivered to many other countries in Latin 
America. Generally speaking, they were not Soviet weapons, 
because this could burn out the Cuban cover, this could make it 
known that Cuba had been involved. A lot of the weapons came, 
for example, from Vietnam. The Vietnamese Government would give 
it to Cuba and then Cuba would send it to guerilla movements 
throughout Latin America.
    Mr. Diaz-Balart. American weapons.
    Mr. Masetti [through interpreter]. American weapons. And a 
lot of the weapons sent to Colombia were weapons that were 
already in Cuba before Cuba was armed by the Soviets. For 
example, a lot of FAL weapons, F-A-L.
    Mr. Mica. Right. You also went on to describe very briefly 
the evolution of drug trafficking and the beginning of some 
relationships between Cuban officials or Cuban individuals and 
Colombians. Could you elaborate for the committee how drug 
trafficking evolved from these contacts?
    Mr. Masetti [through interpreter]. I really do not have the 
details of that evolution, but what I have stated is what I 
know first-hand, and I would rather not talk about things that 
I may have learned through other ways, because it could be not 
totally reliable information.
    Mr. Mica. I am interested in your description--and I would 
have to go back and get your exact testimony--of a situation 
where there were some legitimate exchanges or activities 
between Cuba and Colombia, whereby they saw some profits and 
then that evolved into drug trafficking. It appears that this 
case with the 7.3 metric tons patterned some of what you 
described before. It would appear also, given the fact that in 
Cuba, I guess the government owns 51 percent of any business 
enterprise, that someone in government would be involved in the 
business and if that business turns into drug trafficking, then 
you have got the government as a majority partner.
    Mr. Masetti [through interpreter]. The first type of 
activity that you are referring to was not a legal type of 
activity that later became illegal. But rather that the 
Department of the Americas was forced to arm the M-19 that 
was----
    Mr. Mica. Right. Well, there are two parts to this. First, 
I was asking if any of the arms trafficking turned into drug 
trafficking, if he had knowledge of that.
    Mr. Masetti [through interpreter]. Yes, that is exactly 
what I was coming to.
    Mr. Mica. OK. And then the second part, there are some 
legitimate activities of business between Colombia and Cuba, 
even though in Cuba, 51 percent of any business must be owned 
by the government, I believe. I am trying to find out if, in 
the first part, was there drug activity evolved from the arms 
shipment? The second part would be legitimate commercial 
activity that is transformed into drug activity.
    Mr. Masetti [through interpreter]. I would not be in the 
least surprised, but I have no information.
    Mr. Mica. Direct knowledge?
    Mr. Masetti [through interpreter]. No.
    Mr. Burton. If the gentleman would yield real briefly.
    Mr. Mica. Yes.
    Mr. Burton. You said that initially the M-19 were getting 
guns from Cuba and they were giving drugs to Castro in exchange 
for those and Castro saw profit in those and that is how he got 
into the drug trafficking.
    Mr. Masetti [through interpreter]. Exactly, then they kept 
on.
    Mr. Burton. And then they kept on because they could make 
money.
    Mr. Masetti [through interpreter]. They--in other words, 
the Cuban Government takes those weapons routes directly and in 
this specific case, the link with the drug traffickers 
directly. In the case of Jaime Guillot Lara, he even then came 
later to live in Cuba.
    Mr. Burton. OK.
    Mr. Mica. This is a part of the question I was trying to 
get back to. Does he have direct knowledge of that or is this 
something he heard?
    Mr. Masetti [through interpreter]. No.
    Mr. Mica. It is something you heard?
    Mr. Masetti [through interpreter]. No. Of this I do have 
direct knowledge. I am talking about the things that I am not 
replying to. But of this, I do have direct knowledge because I 
did have contact with a lot of the people from M-19 and I know 
them. And the presence of Guillot Lara in Cuba is something 
that I personally know, as I personally know of the efforts of 
Cuban diplomats in Mexico and of Ravelo himself. And that is 
why I would rather not talk about things that somebody else may 
have told me because we may be indulging in speculation.
    Mr. Mica. Right.
    Mr. Masetti [through interpreter]. That is why I prefer to 
give witness of the things that I lived through or I went 
through myself.
    Mr. Mica. Well, do you have any knowledge of that going on 
today through your contacts, continuing today?
    Mr. Masetti [through interpreter]. I think the presence of 
Carlos Lucio in Havana is very illuminating. I do not think 
Fidel Castro is providing humanitarian protection to this 
character in Havana.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Burton. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    I think we have heard powerful testimony today from people 
who have inside knowledge about how the regime worked and they 
have testified that they do not think that a shipment that all 
of us have alluded to, the 7 tons of cocaine that were headed 
from Colombia to Havana and then ultimately to the United 
States could have gone on without the participation and the 
involvement, directly or indirectly, of Fidel Castro. We have 
heard today that these witnesses believe that more and more 
Cuba is becoming a money laundering bank, that it is becoming a 
refuge for international lawbreakers. They mentioned the 
presence of Mr. Vesco and many others who have been involved in 
money laundering and others who have been involved in 
international drug transactions, and that Cuba is being used as 
a transit point for the shipment of drugs and they find many 
ways of trying to disguise this involvement. And I think this 
is something that is meritorious for the Department of Justice 
of our U.S. Government to look into and to get eye-witness 
accounts and to followup with testimony of people who know how 
this system has worked and how it has manipulated the drug 
problem in our hemisphere.
    And I wanted to ask Ileana, if I could, to tell us more 
about the trial of her father, the procedures that were used, 
the rights that were abused, the questions asked, the 
atmosphere related to the trial, and about her father's role 
and if he did confess his culpability, why or why not. Why do 
you think that Castro tried her father and what was Castro 
ultimately afraid would come out.
    Ms. de la Guardia [through interpreter]. Well, I think that 
the real goal of the Ochoa case, a process with so many 
irregularities where, for example, the person orchestrating or 
directing the process is not the justice department or those in 
charge of justice, but rather one man, Fidel Castro, who is 
trying also to cover up his responsibility in drug trafficking.
    I believe that he was trying to cover up his responsibility 
by making the accused responsible for these activities, but 
there is a second goal, a goal that I have repeated over and 
over again, which seems to me quite obvious. It was a political 
goal. Why? Because Arnaldo Ochoa, accused of drug trafficking, 
was at the time in Angola and he had nothing to do with the 
operations of the MC, the department that my father directed.
    There is also a process which we see where the accused seem 
to be implicating themselves. We see no offering of proof of 
evidence, there is no material evidence during the entire 
process. The attorneys were attorneys that were brought to the 
trial and they were also officers of the Ministry of the 
Interior at the same time, members of military intelligence 
gathering institutions and military counter-intelligence 
institutions.
    They are judged by a special military tribunal or court, 
which is only used in times of war. But Cuba was not at war on 
any military front at the time. The peace agreements had 
already been signed in Angola. So they would have had to have 
been judged by a supreme popular court.
    Ms. Ros-Lehtinen. And Ileana, your father did admit 
culpability in the drug trade. If you could tell us why he did 
that in the trial.
    Ms. de la Guardia [through interpreter]. My dad not only 
admitted his blame, but he also, from the onset, said that 
there was no other higher authority responsible for these acts. 
And I knew for a fact that this was not true, because he 
depended--or the intelligence department of the Ministry of the 
Interior gave him reports on things that happened. He could 
delegate on them as well as Pepe Naranjo, who was Fidel 
Castro's aide.
    He did this as a staged show, because the night before, 
Fidel Castro went to visit him in jail and told him to assume 
all responsibility and that later on, nothing would happen. But 
above all, that he would not be executed. This I found out 
through my father himself. And I believe that the reason why he 
told me that last time that I was able to visit him not to let 
my brothers go into the military was because he knew that he 
had been betrayed, that the promise would not be fulfilled and 
that he was going to be executed.
    I believe that the process is a mixture of two things and 
is a result of two causes: No. 1, the political opinions my 
father was beginning to espouse, which were counter to the 
mainstream government opinion; and No. 2, these illicit 
operations involving the Cuban Government. I believe that 
Castro uses one to do away with the other. In other words, he 
uses the drug trafficking of the MC, that department, in order 
to eliminate my father and these officials physically as well 
as morally in front of the Cuban people.
    And last, I think that he thought that having served the 
government for such a long time, my father believed that Castro 
would then forgive him and spare him finally for this sort of 
dissidence, quote-unquote, that he was beginning to have. So he 
would spare his life in the end.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Mr. Chairman, thank you very much. I want 
to thank Mr. Masetti and Ms. de la Guardia for their very 
important testimony today and for having spent so much careful 
and deliberate time with us.
    The questions that I had have been asked. I have one more 
that has come to mind as a consequence of the last answer and 
that is, do you have any knowledge of whether or not a similar 
situation developed with General Ochoa that may have prompted 
him in his case to also assume responsibility for the charges 
that Castro brought against him? In other words, do you have 
any contact with his family, for example, have you had any 
conversations with his survivors or is that not the case?
    Ms. de la Guardia [through interpreter]. I believe, 
regarding General Ochoa, that after 1989 when I left Cuba, I no 
longer had any contact with his family since then. But before 
he was detained; that is, in January 1989, Arnaldo Ochoa at my 
uncle's own house openly said quite naturally that he was 
opposed to Castro's policies. It is my believe that Arnaldo 
Ochoa believed that the fact that he was a hero in his country 
and because of his political relations with generals, 
officials, military as well as political personalities in the 
former Soviet Union, that all of this would afford him 
protection; that is, that he I believe met with Gorbachev 
himself, he was somehow involved in discussing Perestroika, and 
he believed that he would be protected.
    Mr. Diaz-Balart. Yes, because you talked about your opinion 
of why your father accepted the responsibility for the charges 
that Castro brought publicly against him. So I was wondering if 
you had any knowledge or opinion with regard to the same 
subject of why General Ochoa would have accepted public 
responsibility for what, without any doubt, contained 
falsehoods publicly charged against him by Castro.
    Ms. de la Guardia [through interpreter]. Regarding Ochoa 
himself, regarding his specific case, I do have some 
information regarding an argument he had with Raul Castro 1 
weekend before he was detained, as a result of which, Raul 
Castro I believe was going to have him arrested. And his 
attitude throughout the entire process was an attitude of 
someone that believed that to a point, regardless of whatever 
attitude he may have during the process, he also will be spared 
because of his connections. Though at the same time, his 
attitude during the process was the attitude of someone who 
knows that the die had been cast and nothing can be done any 
more about the situation.
    Mr. Masetti [through interpreter]. I would also like to add 
something that we have missed here. The French press described 
the Ochoa trial as the last trial of Moscow, the last process 
of Moscow, referring to the set of trials or proceedings during 
the 1950's in Moscow. And this symbol was not just used as what 
it may seem, a symbol of something that reminds us of those 
proceedings in the 1950's, but also to remind us that the same 
methods were used legally and the same types of tortures were 
used as in the 1950's. These means were described in Soviet 
manuals, they were accepted by Cuban officials and they were 
used by Cuban officials.
    The type of torture, summarizing in a very few words, 
entails changing the rhythm of human beings in 24 hour periods. 
That is, denying them sleep, providing them with a light that 
is never turned off, with extreme cold, taking them breakfast 
at 10 at night, then 15 minutes later lunch, and dinner 15 
hours later. That makes the pineal glands stop secreting 
melatonin. And in 3 days, this makes the person tortured in 
this fashion become a total idiot. This type of torture does 
not seek to obtain any information from the individual but 
rather to provide an extra or added assurance for perpetrating 
the lie or perpetuating the lie; that is, the individual 
becomes convinced of what he is being told to confess and he 
will confess.
    And that, added to the fact that they are now being accused 
by their brothers in arms, who were their brothers in arms 
until 24 hours before. We have seen these spontaneous 
confessions in the Soviet Union before and we did see them in 
the Ochoa case. I believe that is the case of the same type.
    Mr. Diaz-Balart. Thank you, Mr. Chairman.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Ms. de la Guardia, my questions really devolve to trying to 
establish what was the typical standard of living in Cuba as 
compared say with the standard of living that your family 
enjoyed. And then I want to go through a number of questions 
that arise from the information I have.
    As it relates to your upbringing, did you live a normal 
Cuban life?
    Ms. de la Guardia [through interpreter]. I can say 
regarding my own case that it was a question of having two 
different lives paralleling--one outside the house, one inside 
the house. I classify it as a type of schizophrenia.
    I would say that it was very contradictory, because for 
example, outside the house, my life would be characterized as 
the typical life that any student would have and that I had for 
most of the 24 years that I was there. Most students, quote-
unquote, would have to join the discipline that most students 
go through in education, they would have to go to political 
activities, they would have to undertake voluntary work, which 
they say is voluntary, but it is actually compulsory or 
obligatory. And you know, I oftentimes would repeat slogans 
that were slogans that were given to us by the government, and 
that sort of thing.
    Then I say that it is a contradictory life because inside 
the house, we would enter a totally different world, a world 
where my grandparents on my father's side were bringing me up 
and I was raised under their influence, in an atmosphere where 
politics were not discussed, where the regime was not 
discussed; an entirely other life, the life that my family had 
known before the 1960's, and where you had to fulfill certain 
roles, the roles within a family that, how can I say, was not 
the typical family currently in Cuba where everybody is 
separated. This other type of life where most importantly we 
had a lot of information from abroad, from France, from the 
United States and, as I have already mentioned before, 
magazines like Newsweek, Time, Paris-Match and also literature, 
literature that was disallowed elsewhere in Cuba that nobody 
else would be allowed to read and that you could not find. We 
even could find movies there. This created a lot of 
difficulties for me because I was not able to bring home other 
people, other students lest they accuse me of being bourgeois 
or other such accusations.
    Mr. Ose. Mr. Chairman, if I may ask two more questions.
    Your house was in a rather well-to-do neighborhood that was 
normally reserved for diplomatic corps?
    Ms. de la Guardia [through interpreter]. The house where I 
was brought up was the house that my grandfather had had built. 
And it was one of the well-to-do select neighborhoods in 
Havana.
    For example, my family already had a house and they had, 
for example, cars, cars that were no longer seen circulating in 
Cuba. To give you an example, when I finished my studies at the 
University, my father had saved, stored away, an MG, a sports 
car, and of course, his dad had given him this car and he 
wanted to give it to me as a present. And this was the topic of 
many family arguments because I could not be seen with that car 
outside, I could not circulate with the car in the streets of 
Cuba.
    And what I can say is that my family, before the 
revolution, had a social standing that was, how can I say, 
well-to-do, and that with the revolution, they lost many of 
these material things. So the things that they kept because 
they, well, wanted to keep them somehow, they later could not 
have and could not use because they would be the target of 
other people who were ever vigilant of people who could be 
influenced by society before the revolution.
    Mr. Ose. Was the ability of your family to retain these 
privileges a function of your father's closeness to Fidel 
Castro?
    Ms. de la Guardia [through interpreter]. I believe that in 
part, yes. I think that with the regime they lost some things, 
but at the same time, the power that they acquired with the 
revolution, and I can say that this was like political or 
military power, allowed them to preserve some of the things 
that they had as a family before the revolution.
    But at the same time, he was not able to pass on to me a 
lot of these material things, even though sometimes they could 
be sentimental presents, because of the risk they could pose to 
me politically, as far as me being integrated into Cuban 
society at that time.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Masetti [through interpreter]. May I be allowed to say 
something?
    Mr. Burton. Sure, go ahead.
    Mr. Masetti [through interpreter]. Perhaps Ileana, because 
she experienced this at a very early age and because she lived 
within it, cannot appreciate these things in themselves, but we 
are also democratic as a couple. Undoubtedly there was a 
bourgeois that remained in Cuba that did not become integrated 
politically. There were even people who decided to stay but not 
participate politically in the government.
    Let us not lose sight of the fact that that group lost 
absolutely everything and they were forced by the regime to 
leave Cuba. Perhaps the type of privilege that Ileana's family 
was able to preserve was ridiculous as compared to the type of 
privilege they would have had before the revolution. But it was 
just the same ridiculous situation that other people then were 
able to enjoy, other people coming in and being able to live in 
the houses of those bourgeois who had not become politically 
integrated and had been forced to flee the country.
    I just wanted to make that clear.
    Mr. Burton. Very good. I am going to yield to Mr. Diaz-
Balart, but I want to nail down a couple of things because the 
purpose of the hearing is to talk about drug trafficking.
    So Mr. Masetti, I would like to ask you some questions and 
if you could keep your answers brief so we could get through 
this, I would really appreciate it.
    Do you recognize the name Carlos Lage Davila?
    Mr. Masetti [through interpreter]. No.
    Mr. Burton. You do not recognize that?
    Mr. Masetti [through interpreter]. No. Can you repeat the 
name, please?
    Mr. Burton. Carlos Lage Davila, D-a-v-i-l-a.
    Mr. Diaz-Balart. Carlos Lage.
    Mr. Masetti [through interpreter]. Yes.
    Mr. Burton. Do you know him?
    Mr. Masetti [through interpreter]. Yes, Vice President.
    Mr. Burton. Yes, he is one of the Council of Ministers. He 
was the one responsible for this company that got the 7.2 
metric tons of cocaine. Would it be possible for him to be in 
charge of that company and have the Ministry of the Interior 
have two people there without them knowing about the 7.2 metric 
tons of cocaine coming in?
    Mr. Masetti [through interpreter]. It is possible that 
Carlos Lage may not have had information regarding that, but it 
is certain that the person in charge of operations, in charge 
of coordinating all those transactions for any business in Cuba 
had to have known. And when I say that he may not have been 
aware, I mean that he may not have been aware of the specific 
details, but he, like many others, must know that there are 
people within his company in charge of operations that are not 
fully legal.
    Mr. Burton. The Minister of the Interior had two people 
there all the time that were watching what was going on in the 
company. Now that's the intelligence service in Cuba.
    Mr. Masetti [through interpreter]. I would say that what 
those two people were doing was taking care of the cocaine.
    Mr. Burton. OK.
    Mr. Masetti [through interpreter]. Overseeing that nothing 
happened to it.
    Mr. Burton. And so the Minister of the Interior knew about 
the cocaine, it was impossible for the government not to know 
that 7.2 metric tons came in.
    Mr. Masetti [through interpreter]. Impossible.
    Mr. Burton. So I guess the point I wanted to get from you, 
Mr. Masetti, as a former official of the government and your 
wife, her father, it would have been impossible for this 
cocaine to be coming into Cuba without Castro knowing about it 
and cocaine had been coming into Cuba for a long time with the 
administration's support.
    Ms. de la Guardia [through interpreter]. Of course, it is 
impossible for that amount of cocaine to come into Cuba 
systematically without the government knowing of it.
    Mr. Burton. And that kind of transactions have been going 
on for a long time.
    Mr. Masetti [through interpreter]. The Colombian Police at 
the time the 7.2 tons were discovered, they made public that 
that year 10 other such shipments had already been sent.
    Mr. Burton. Ten other shipments.
    Mr. Masetti [through interpreter]. They confirmed exactly 
7, but they say there may have been 10.
    Mr. Burton. But in addition to that year, to your knowledge 
when you were there, were there cocaine shipments coming into 
Cuba even back then?
    Mr. Masetti [through interpreter]. I could not know that 
personally, because I had left Cuba 10 years before.
    Mr. Burton. But you said that the M-19, in exchange for 
weapons, were sending drugs through Cuba.
    Mr. Masetti [through interpreter]. In the year 1979 and 
1980.
    Mr. Burton. But I want to nail this down. But you said that 
they learned that they could make a lot of money from drugs and 
that became a mode of operation.
    Mr. Masetti [through interpreter]. Yes, exactly, and I can 
say that first-hand in the 1980's, but I am not in Cuba 
presently to be able to say. But I am surprised at Mr. Carlos 
Lage and also Lucio's presence currently in Cuba.
    Mr. Burton. OK. Do you have a comment?
    Mr. Diaz-Balart. I think your testimony has been very 
helpful.
    Even though the limit of time, the statute of limitations, 
even though it has not passed, has not run with regard to drug 
trafficking by the Castro regime, the Clinton administration is 
getting by publicly with the attitude of well, things have 
changed. To your knowledge, based on your experience and your 
contacts, have things changed? What would you say to people in 
the U.S. administration who have that attitude of we need not 
be worried about Castro because things have changed with regard 
to drug trafficking.
    Mr. Masetti [through interpreter]. Things have not changed, 
not only with regard to drug trafficking but also Fidel Castro 
is still the same. He is still the same military strongman, 
only that his situation is more adverse because his main ally, 
the socialist world, has crumbled. But to think that Fidel 
Castro would not use any means at his disposal to attack 
democracy anywhere in the world at any time is not to know him. 
How could we otherwise understand that a government such as 
Fidel Castro, that is a subsidized government, may have been 
involved in kidnapping for money of businessmen for up to $2 or 
$3 million. Undoubtedly he likes money just like any other 
member of the Mafia. But that amount of money does not mean 
anything to a country in particular, the main goal is to 
destabilize a situation. And that is why I said in the words I 
brought here today that I had prepared, as long as Fidel Castro 
is in Cuba, the threat to democracy in the United States and 
elsewhere will always exist.
    And for a man who is so obsessed with the role he will play 
in history, I would not be surprised at all if before he dies, 
because of course physically death is nearing, that he would be 
capable of anything crazy, to attack the United States or to 
attack any other democracy in the world.
    Mr. Diaz-Balart. Would there not be, in your opinion, more 
of a need for hard currency by Castro after the collapse of the 
Soviet bloc than before? A need that would be filled in part by 
drug trafficking?
    Mr. Masetti [through interpreter]. Of course. I would not 
be surprised at all, and though I have no hard proof, no hard 
evidence, I am convinced and I would not be surprised that he 
would continue in drug trafficking operations.
    I would propose that an investigation be brought of those 
businessmen in Cuba and I am sure that we would be surprised as 
to the results of that investigation.
    Ms. de la Guardia [through interpreter]. I have evidence--
now regarding this, I can say that yes, as a result of no 
longer having subsidies from the Soviet Union, Fidel Castro has 
stepped up his involvement in this type of operation, to seek 
money and from my dad, I have personal knowledge that he has 
personal accounts and that a lot of transactions that walked a 
fine line between what is legal and what is not, were 
undertaken.
    And we all know that in Cuba there is no type of 
organization or institution of control that is not linked to 
Fidel Castro, that is independent of Fidel Castro's power.
    Mr. Diaz-Balart. Ileana, did your father ever mention to 
you any of the countries where Castro has personal accounts?
    Ms. de la Guardia [through interpreter]. He directly did 
not tell me of this, but I learned of this through others that 
traveled with my dad. For example, that in Switzerland, Castro 
had accounts where he had money deposited for different 
amounts, and that in Europe there was a certain amount of arms 
traffic and other monetary transactions that took place.
    Mr. Burton. Mr. Mica, you said you had another question?
    Mr. Mica. Just a quick question about the money. You said 
you saw bags of money in the Ministry. Usually if you follow 
the money, you can find out who is really involved. Where was 
the money going that you saw in the Ministry?
    Mr. Masetti [through interpreter]. In the offices of the MC 
Department, which was a part of the Department of the Interior 
and it was a special section of Cuban intelligence within the 
Department of the Interior.
    Mr. Mica. And where was that money being deposited? You 
said you thought that money was in dollars?
    Mr. Masetti [through interpreter]. As I said before, that 
money was split 50/50, 50 would go to Pepe Naranjo, who was 
Castro's aide, and 50 percent would go Jose Abrantes himself. 
For example, part of that money was used to build a luxury type 
of clinic in the Siboney development that was officially and 
exclusively for the use of the members of the Department of the 
Interior and others. It is a clinic that is still in existence, 
but aside from sharing it with members of the Central Committee 
of the Communist Party, it is also a clinic where people come 
from abroad to undertake different procedures, medical 
procedures, they call it medical tourism.
    Mr. Mica. Did you see this happen just once or was this----
    Mr. Masetti [through interpreter]. The handling of the 
money? No, that was constant. The coming in and going out of 
moneys and the handling of contrabands of all types. We have to 
understand that this was a department that was created for the 
sole purpose of getting foreign exchange illicitly, illegally.
    Mr. Burton. Would the gentleman yield?
    When you say contraband, you are talking about drugs and 
other things?
    Mr. Masetti [through interpreter]. All types of 
merchandise, including weapons.
    Mr. Burton. And was this in the millions of dollars?
    Mr. Masetti [through interpreter]. I suppose so. I only saw 
the bags, I did not count it personally, but I suppose so. It 
is important to mention that this office was not clandestine or 
something hidden away from the rest of the upper echelons of 
government. Since this was a department that was in charge of 
violating the embargo from the United States, that is through 
the use of speed boats bringing in contraband, they sometimes 
brought merchandise that was used for technological purposes. 
But they also brought consumables coming from Miami and other 
parts of the United States to supply the houses of the higher 
ups. And there was a constant parade of government officials 
and staff from Raul's office daily at that office.
    Mr. Burton. If the gentleman would yield for one more 
question. The money that was split, half went to Fidel Castro's 
chief aide; do you know where that money went?
    Mr. Masetti [through interpreter]. It is impossible for 
Castro's chief aide to keep that money for himself.
    Mr. Burton. It went to Castro. Any more questions?
    Mr. Mica. One more question. You described a scenario of 
drugs being dropped off the Cuban coast, being picked up by 
boats and brought to Cuba, and then being transshipped to the 
United States. You said some people came and stayed, some for 
several days on vacation and then picked the drugs up and took 
them back to the United States. Who approved that transiting 
and how high up was it known?
    Mr. Masetti [through interpreter]. That type of operation 
could not, as I said before, have been authorized by Antonio de 
la Guardia, who did not have the rank to authorize such things. 
He only had the authority to handle operations within the MC. 
He had the possibility of having a coordinating capability with 
other services, but for this type of permission, the Minister, 
this would have to come from the Minister himself, and of 
course the Minister would never act alone in the case of 
something as serious as this, so he would have to have 
authority from even higher up than the Minister.
    Mr. Mica. A final question, Mr. Chairman. To your 
knowledge, does the department or agency that you were a part 
of still exist and is it active?
    Mr. Masetti [through interpreter]. Well, I do not have 
exact proof of that, but I am sure that presently under another 
name, with another acronym, well, you know, they are doing that 
currently with the businessmen. The officials are living even 
better off than before, so where are they getting the 
merchandise, it comes directly from Miami.
    Mr. Mica. Thank you, Mr. Chairman.
    Mr. Burton. Thank you. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. If I may followup on 
other questions, because I do want to get to the money that my 
colleagues brought up earlier.
    I want to make sure I understand the degree of trust that 
was placed in Colonel de la Guardia in one case and General 
Ochoa in another, by the Cuban regime. In the first instance, 
Colonel de la Guardia had served with Castro since 1961; had 
been sent to New York in 1962 for some reason; 1971, had gone 
to Chile to work with the new administration of President 
Allende; in 1973, had been sent to Spain and a possible 
kidnapping attempt of former Cuban dictator Batista; in 1975, 
Colonel de la Guardia was in Switzerland laundering money from 
Argentina's Montonero guerrillas; in 1976, he was in Jamaica as 
head of the Cuban special troops contingent helping Prime 
Minister Michael Manley; in 1978, he was in Nicaragua; in 1979, 
he was made in charge of relations with Cuba's exile community; 
in 1986, he was asked by the Cuban Government to set up a 
special import/export business, which is the MC Department. 
This was a gentleman who enjoyed substantial trust within the 
government and access to Fidel Castro himself.
    General Ochoa, on the other hand, a member of the military, 
was asked by Castro in the late 1970's I believe, to go to 
Angola to clean up the mess that the Soviets had created in the 
combat going on with Joseph Savimbi as it related to the 
freedom that would subsequently come to the southern portion of 
Angola with its war with South Africa.
    Ochoa had been awarded--Ochoa was so respected by the Cuban 
regime that in 1984, he had been given honorary--the highest 
honorary titles the Cuban military had ever granted, those 
being the Orders of the Hero of the Cuban Republic and the 
Maximo Gomez Order, First Degree.
    General Ochoa lived a very spartan life, he did not live in 
a special area. From the information I have, he was very well 
respected amongst the military. He in fact had the liberty when 
he was in Angola to engage in commercial transactions, the 
purpose of which were to make up the shortfall in funding that 
his troops needed to survive in Angola, that was not 
forthcoming from the Cuban military.
    There are any number of situations of that nature that lead 
me to believe that these gentlemen enjoyed the trust and 
respect of Fidel Castro personally. In fact, Ochoa was one of 
the few people who could use the familiar ``tu'', t-u, in 
referring in the first person to Fidel Castro himself. And that 
was a privilege extended to virtually no other individuals in 
the country.
    To suggest that individuals in Colonel de la Guardia's 
case, 26 year relationship with Fidel Castro, much as Lincoln 
and I are sitting here next to each other; or in General 
Ochoa's case, with a long history of serving the Cuban military 
in foreign posts--to suggest that they operated unilaterally 
challenges my--even my naivete, if you will, about this kind of 
thing.
    Now as far as the money itself, in the late 1980's, General 
Ochoa had returned from Angola, he had been given these various 
awards. Colonel de la Guardia, who worked for Jose Abrantes in 
the Ministry of Interior, had done, from the Cuban perspective, 
excellent work in acquiring hard currency to ameliorate Cuba's 
deficiencies otherwise. My question of, in particular, Mr. 
Masetti, would be whether there was a significant political 
competition perceived by Raul Castro, originating in the 
Ministry of Interior, that threatened the Castro regime. That 
is a long question and I apologize.
    Mr. Masetti [through interpreter]. The last part, could you 
repeat it?
    Mr. Ose. Was there a political competition perceived by 
Raul Castro between the Ministry of Interior, as run by Jose 
Abrantes, and the regime itself?
    Mr. Masetti [through interpreter]. The wars, quote-unquote, 
and that is how we could describe them, between the armed 
forces and the Ministry of Interior date as far back as the 
1960's. We have to understand that an officer of the Ministry 
of the Interior has a different level of life, of traveling, 
that causes or makes for a lot of jealousy.
    Fidel would always act as a referee between both of 
consolidating his power in the Ministry of the Interior, 
leaving--he does not allow anybody to sort of emerge with any 
amount of power, he always creates a balance, and even his 
brother, he leaves the armed forces to him to direct and 
consolidates his power in the Ministry of the Interior.
    But we must keep in mind what was happening during the mid-
1980's in the east and in the former Soviet Union. The 
officials from the Ministry of the Interior had information 
then that the armed forces would not have. If we look at all 
the desertions that occurred during the 1980's, we can see that 
most of them came from the Ministry of the Interior and not 
from the armed forces.
    Mr. Ose. Desertions or defections?
    Mr. Masetti [through interpreter]. Defections. In the 
publication Monquero from the Ministry of the Interior, 
Abrantes has a discussion which was made public where he openly 
describes himself in favor of Perestroika. So that is why I 
think that what you mentioned is true, within the Ministry of 
the Interior, Fidel Castro was able to see the germ of 
Perestroika and it was actually there.
    The Ministry of the Interior was occupied by the armed 
forces after the Ochoa case. And they had to pay a price for 
this type of operation.
    Mr. Ose. Mr. Chairman, if I may, prior to the trials that 
Colonel de la Guardia and General Ochoa were involved in, as 
Chief Minister Abrantes, if I recall correctly, half of the 
money from the proceeds of these sales were going to the 
Ministry of the Interior and half were going to Castro. After 
the trials, Castro's people worked at the Ministry of the 
Interior and they were still getting the first half, so instead 
of only getting half, they were now getting it all.
    So following up on Mr. Mica's comment about following the 
money, Castro now had all the money as a result of these trials 
that we are talking about.
    Mr. Burton. Do you have a comment?
    Ms. de la Guardia [through interpreter]. Yes, it is 
possible that he now, before 1989, he tried to control both, 
but above all, the Ministry of the Interior through Abrantes, 
but now after this, it is possible that he had total control.
    Mr. Masetti [through interpreter]. But we must keep in mind 
that he has always had full control of everything. The Ministry 
of the Interior special troops were his main toys. You know, we 
have to keep in mind that even the uniforms were purchased in 
the United States. They dressed like American troops, Ray Bans 
and, you know, this is how they were. But then he discovered 
that there are men there that he must destroy when he learns 
that they have begun to think with their own heads.
    We must not lose sight of the fact and at the risk of 
sounding cynical, although a very high cost was paid for the 
proceeding and for the trial, he compared to the profits 
derived from it, paid very little because he was able to occupy 
the Ministry of the Interior, he was able to do away with these 
officials and then he was also able to consolidate all the 
power and keep all the situation under control.
    Mr. Burton. Let me--we are about to end now and Chairman 
Gilman has some closing comments and we will make some comments 
about--excuse me 1 second.
    [Pause.]
    Mr. Burton. We have just a few more questions that we would 
like to ask about the FALN in Puerto Rico and if you can keep 
your answers concise, we can adjourn relatively soon.
    You had a relationship with Juan Segare Palma and I would 
like to ask you a few questions about where and how you met 
him. His code name was Junior.
    You were told to meet him, correct?
    Mr. Masetti [through interpreter]. I know Junior, I had to 
make contact with him in Mexico by the end of 1983. Orlando 
Gomez was the resident of the department and they received a 
directive indicating--he repeat the directive and tells me that 
I have to meet with Junior. He does not tell me that his name 
is Junior but he tells me that he is the leader of the 
Macheteros. To place him in a secure department in Mexico. And 
that he was going to teach him a course on how to make a small 
box to interfere with TV broadcasting. And that further, he was 
to remain in Mexico for a few days because they were going to 
be sending $50,000 over to him from Havana and so we had to 
create a situation where he would be able to transport the 
money back to Puerto Rico.
    Mr. Burton. Let me interrupt here.
    Mr. Masetti [through interpreter]. Provide a way for him to 
hide the money and bring it back to Puerto Rico.
    Mr. Burton. He asked you questions about armored cars?
    Mr. Masetti [through interpreter]. More than a meeting, we 
were at a dinner, and at this dinner, Mr. Komas was present and 
also the person who brought the money, who was the chief of the 
Department of the Americas, who used a code name. Also was 
Antonio Arbesu, the section chief, was present.
    They said that they had had previous success with armored 
trucks but they said that they had a new operation now because 
someone was going to hand over the truck. I do not know who, I 
was not exactly clear on whether it would be the chauffeur or 
somebody else. They did not specify which city but he did ask 
if we knew of any substance we could put in his coffee to sort 
of drug him a little bit.
    Mr. Burton. So he was asking about narcotics to 
incapacitate people. Did you help him out?
    Mr. Masetti [through interpreter]. I have no evidence of 
that. At that time, we gave him no reply.
    Mr. Burton. There came a time when he did get the money, 
the $40,000.
    Mr. Masetti [through interpreter]. $50,000.
    Mr. Burton. $50,000. Who gave it to him?
    Mr. Masetti [through interpreter]. Well, I prepared the bag 
with the $50,000. The exchange was made at the airport in 
Mexico. Once he went through immigration, it was done in a 
quick way, exchanging identical suitcases and the suitcase was 
given to him by Mr. Agajes, who was a diplomat, and that is why 
his suitcase was not searched.
    Mr. Burton. Now this money was for what purpose?
    Mr. Masetti [through interpreter]. What they made known to 
us through Junior was that they had run out of money, that they 
had this new operation ongoing with this truck, they did not 
say where, but that they had to support themselves with this 
money until they were able to successfully make the operation.
    Mr. Burton. Now the robbery that took place after the 
$50,000 was given to Segare Palma, was there any other contact 
between Cuba and those people planning the robbery?
    Mr. Masetti [through interpreter]. Junior was in Mexico. 
They sent me to pick up a person whom they said to be the main 
leader of the Macheteros. I was not given his name, I simply 
had to pick him up at a certain place and take him to another 
place where he was to meet with an official from the Cuban 
Embassy. But due to the importance and priority of this person, 
we had to guarantee that he would not be followed and that was 
my mission.
    Mr. Burton. OK.
    Mr. Masetti [through interpreter]. When I showed surprise 
as to the entire interworkings of everything that was being 
done for this person, they mentioned that he was a very high 
leader and that Cuba owed him very many favors for previous 
operations.
    Mr. Burton. Did he know that the robbery was going to take 
place?
    Mr. Masetti [through interpreter]. Yes, because when I was 
taking him to meet with the other contact from the Cuban 
Embassy, I asked him on the way if they had solved the little 
problem they had with the coffee and he showed himself to be a 
little bit upset and said that Junior should not have been so 
outspoken regarding that, showing thusly that he knew what I 
was talking about. And I am sure--I cannot say for sure because 
I was not there, but I am sure that that meeting after Junior's 
meeting was a meeting whose goal was to make the exchange with 
the money.
    Mr. Burton. Now the Wells Fargo robbery happened on 
September 12, 1983. Afterwards, the man who took the $7.2 
million from Wells Fargo was smuggled out of the United States 
into Mexico. He then ended up in Havana, is that right?
    Mr. Masetti [through interpreter]. This person, this 
leader?
    Mr. Burton. No, the man who took the $7.2 million.
    Mr. Masetti [through interpreter]. The person who delivered 
the truck was swept from the United States, was taken quickly, 
swiftly to Mexico where, with the help of Cuban Embassy 
officials, he was given a change, dyed his hair, given a 
mustache, et cetera. He was given a fake Argentine passport. 
The stamps for entering Mexico, Arbesu himself took there 
personally. And then he went to Havana and was living there.
    Mr. Burton. Victor Jerena?
    Mr. Masetti [through interpreter]. I found out the name 
much later, but right there at that time, I did not know it. So 
if Victor Jerena was the person who delivered the truck, then 
yes. Undoubtedly it must be him, but at that time I did not 
know that.
    Mr. Burton. How much money, of the Wells Fargo robbery 
ended up in Cuba? $4 million.
    Now Alberto Ojito Rejos--I hope I am pronouncing his name 
correctly--was convicted in 1992 in Connecticut for his part in 
the Wells Fargo robbery and sentenced to 55 years. Did you ever 
meet Mr. Rejos?
    Mr. Masetti [through interpreter]. I later found out that 
this leader of the Macheteros that I had encountered in Mexico 
was this Mr. Rejos, but right then, I did not know.
    Mr. Burton. Do you know what ties he had to Castro and 
Cuba?
    Mr. Masetti [through interpreter]. They explained to me 
later when I found out who he was that it was someone that Cuba 
owed a lot of favors to for previous operations. And they told 
me that he was a man of a lot of experience and that he had 
undertaken a lot of clandestine operations in the United States 
before.
    Mr. Burton. So they owed him.
    Mr. Masetti [through interpreter]. Exactly.
    Mr. Burton. OK. Now let me change to another subject and I 
apologize to my colleagues but we did not get through all this, 
so it is very important. I would like to talk to you about--I 
think that is it, I was in error.
    I will now ask Mr. Gilman to make his closing statement and 
then we will wrap this up. I appreciate very much your help.
    Mr. Gilman. Thank you, Chairman Burton. I want to commend 
you for bringing this very significant hearing to Florida and 
bringing our witnesses all the way from Spain to appear before 
us. It was very enlightening and I think we have established 
some very substantial and significant information for our 
committees in the Congress.
    Before closing, I want to commend Jorge Masetti and Ileana 
de la Guardia for your courageous willingness to testify 
extensively for our committee.
    Mr. Chairman, I ask unanimous consent that the results in 
brief, the recent excellent December 21, 1999 GAO report to 
Congress entitled, ``Assets DOD contributes to reducing illegal 
drug supply have declined.'' I ask that that statement be 
included in the full record of these proceedings.
    Mr. Burton. Without objection.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.010
    
    [GRAPHIC] [TIFF OMITTED] T9521.011
    
    [GRAPHIC] [TIFF OMITTED] T9521.012
    
    Mr. Gilman. As we examine the problems, Mr. Chairman, of 
fighting drugs transiting the Caribbean, this GAO report at 
page 4 informs us why we have problems and so very little 
knowledge of what is actually transacting in this area. The GAO 
notes that for the years 1992 through 1999, that the number of 
Department of Defense flight hours dedicated to detecting and 
monitoring drug shipments have declined from 46,000 to 15,000 
hours, a 68 percent decrease. Moreover, the GAO report says 
that the number of ship days declined from 4,800 to 1,800, a 62 
percent decline over that same period of time.
    The Department of Defense admits that coverage of the high 
threat drug trafficking areas in the Caribbean and in the 
cocaine producing countries is limited, so it is clear that 
part of the problem here is a lack of commitment by the 
administration to prevent drugs from ever reaching our 
shoreline. And the American people are the ultimate losers from 
this gross neglect and I hope these hearings can help turn 
around that sad neglect. And I thank you again, Mr. Chairman, 
for conducting these hearings.
    Mr. Burton. Thank you, Mr. Gilman, Chairman Gilman.
    And Ileana, did you have a closing comment?
    Ms. Ros-Lehtinen. Thank you, Mr. Burton. I wanted to 
congratulate you, Dan, and Chairman Gilman as well for your 
leadership that you have shown on this important issue of 
examining the role of Fidel Castro to international drug 
trafficking, the use of Cuba as a transit point for the 
shipment and the movement of drugs, the use of Cuba as a refuge 
for international criminals and the use of Cuba as a bank for 
money laundering.
    I think that what we need to do is to capture the attention 
of the Clinton administration Justice Department that has been 
reluctant to pursue these serious allegations and testimony 
such as the ones presented today, because they are so hell-bent 
on normalizing relations between the countries, that they are 
willing to overlook and indeed hide much of the evidence that 
exists. So I hope that sooner or later, we can get an 
administration that pays attention to these unfolding facts and 
will act in a deliberative manner and overlook the political 
consequences in making sure that we can eliminate the scourge 
of drugs in our community.
    We have to understand the implicit role and complicit role 
of Fidel Castro in the shipment of drugs in our hemisphere.
    So I thank you, Mr. Burton and Mr. Gilman as well.
    Mr. Burton. Well, thank you, Ileana.
    Ms. de la Guardia and Mr. Masetti, you are very courageous 
people. Thank you very much for coming all the way from Spain 
to be with us. What you have said today and what you have given 
us today will be very, very helpful in letting the American 
people and the world know what Fidel Castro is all about.
    We stand in recess until tomorrow morning at 9:30.
    [Whereupon, at 5:16 p.m., the committee was recessed.]


 DRUG TRAFFICKING IN THE CARIBBEAN: DO TRAFFICKERS USE CUBA AND PUERTO 
   RICO AS MAJOR TRANSIT LOCATIONS FOR UNITED STATES-BOUND NARCOTICS?

                              ----------                              


                        TUESDAY, JANUARY 4, 2000

                          House of Representatives,
                            Committee on Government Reform,
                                                         Miami, FL.
    The committee met, pursuant to notice, at 9:31 a.m., in the 
Commission Chambers, Sweetwater City Hall, 500 S.W. 109th 
Avenue, Miami, FL, Hon. Dan Burton (chairman of the committee) 
presiding.
    Present: Representatives Burton, Mica, Barr, Ose, and Ros-
Lehtinen.
    Also present: Representative Romero-Barcelo.
    Staff present: James C. Wilson, chief counsel; Kevin Long 
and Gil Macklin, professional staff members; Kristi Remington, 
senior counsel; Lisa Smith Arafune, chief clerk; Maria 
Tamburri, staff assistant; and Michael Yeager, minority 
counsel.
    Mr. Burton. I want to welcome everybody back to our second 
day of this Miami field hearing. Today we are going to be 
continuing our discussion of the drug trafficking in the 
Caribbean.
    Today we are going to hear from four witnesses. The first 
is my good friend, Jose Fuentes Agostini, the former Attorney 
General of Puerto Rico. He is going to give us his perspective 
on the problems that they faced in Puerto Rico and first-hand 
information about the Government of Puerto Rico's efforts to 
combat drug trafficking. He also is going to let us know how he 
feels about the Federal Government's assistance or lack 
thereof. Mr. Agostini recently left the position to return to 
private practice, but he feels so strongly about the drug 
problem he is here with us today.
    Our second panel of witnesses will be from the 
administration. We will hear from Bill Ledwith, the Chief of 
Foreign Operations for the United States Drug Enforcement 
Administration about United States drug cooperation--United 
States-Cuba cooperation on the drug trafficking through Cuba. 
Mr. Ledwith recently testified before Mr. Mica's subcommittee 
on November 17th in Washington. His testimony there left many 
of us with a large number of unanswered questions and we look 
forward to hearing from him today and asking more questions. 
Hopefully he will have more answers than he did last November.
    And then we will hear from the U.S. Customs Service. I want 
to say just a couple of things about the Customs Service. They 
did yeoman's service for the country recently--just before 
Christmas--when they intercepted a terrorist bringing 
explosives across the border from Canada. He had enough 
explosives, I understand, to blow up four or five city blocks, 
and he was targeting, they think, either Seattle or Las Vegas. 
A few days later they made another arrest at a remote Vermont 
border. So, I would just like to say to all of those with the 
Customs Service that is a job well done and we all appreciate 
that very much.
    We will have Mr. Varrone from the Customs Service testify 
later. I guess he has with him Mr. Quinn and Ms. Cody and other 
Customs officers to help him out. Thank you all for the good 
job you are doing.
    Our final witness will be Special Agent in Charge Mike 
Vigil of the U.S. Drug Enforcement Administration. Mr. Vigil is 
in charge of the Caribbean Division and is based out of Puerto 
Rico, and we look forward to his insights on drug trafficking 
as well, and what can be done to strengthen our efforts in the 
Caribbean and in Puerto Rico.
    With that, we will start off with our good friend, the 
former Attorney General of Puerto Rico for his testimony.

STATEMENT OF JOSE FUENTES AGOSTINI, FORMER ATTORNEY GENERAL OF 
                 THE GOVERNMENT OF PUERTO RICO

    Mr. Agostini. Good morning, Mr. Chairman. Thank you very 
much for inviting me today. I would like to thank also Resident 
Commissioner Carlos Romero Barcelo and the other members of 
this Committee on Government Reform.
    For the record, my name is Jose Fuentes Agostini, and I 
have spent the last 3 years of my life as Attorney General of 
Puerto Rico and chairman of the Puerto Rico-United States-
Virgin Islands High Intensity Drug Trafficking Area [HIDTA].
    I come here today to represent the 3.8 million Puerto 
Rican-American citizens who reside in the island of Puerto 
Rico. Mr. Chairman, we profoundly appreciate your personal 
help, just as we profoundly appreciate the shoulder-to-shoulder 
collaboration of dedicated public servants like other witnesses 
on today's personal agenda.
    I would like to take this opportunity to thank the Federal 
Government for all the help it gives us in Puerto Rico in 
fighting this tremendous problem with drug trafficking that we 
have in the Caribbean. The truth of the matter is, the 
relationship between the State law enforcement agencies and the 
Federal law enforcement agencies in Puerto Rico is second to 
none. I have not seen anywhere else in the United States such a 
level of joint effort as I see in Puerto Rico because of the 
way that the law enforcement agencies--the Federal law 
enforcement agencies interact with each other. There is always 
frictions created amongst them, but in Puerto Rico because of 
the limited resources we have, probably, we see how they are 
able to work not only together but very closely with the Puerto 
Rico Government, and we have seen some very impressive results.
    I filed a statement for the record which I request be 
incorporated into the Congressional Record.
    Mr. Burton. Without objection.
    Mr. Agostini. I have had the opportunity to work with a lot 
of the staff that the Members of Congress have. I know they are 
very competent. So I am sure that my statement and the 
information that is in there will get to you. So instead of 
wasting your time with that, I would like to go into some other 
areas that are not in my statement which specifically go into 
what it is we need to continue the change that we are seeing in 
the northern Caribbean and actually in the southeast border.
    We are seeing a lot of changes--a lot of resources going to 
the southwest border. None of those resources are going to the 
southeast border. What happens is, when you squeeze a balloon 
at one end the balloon is not going to pop, it is just going to 
grow bigger at the other end, and that is what we are seeing, 
at least in the northern Caribbean and probably in Florida, 
also.
    My statement covers what the local law enforcement agencies 
are doing to fight drugs and crime and the impressive results 
we are obtaining, one of which is a 50 percent reduction in 
violent crimes in the last 7 years in Puerto Rico. We have 
provided a breakdown of the crimes reported for your use, and 
you can see how across the board in the last 7 years we have 
been able to cut in half violent crime on the island of Puerto 
Rico. This has come at great sacrifice and great expense from 
the people of Puerto Rico. A huge amount of our budget goes 
into this war because it is directly related to drug use and 
drug interdiction. Some 8 or 10 years ago 8 out of every--
sorry, 3 out of every 10 murders in Puerto Rico were drug 
related, nowadays, we know for a fact that even though we have 
a 35 percent reduction in murders in Puerto Rico, 8 out of 
every 10 is directly related to drugs. So actually we have had 
a huge success in this area. If it were not for the drug 
problem, we would probably have the murder rate in Puerto Rico 
down 80 percent.
    My report, which was filed today, also covers the joint 
operations which the Puerto Rico and Federal law enforcement 
agencies are conducting under the auspices of our HIDTA 
Program, which I personally chaired for a year and a half, and 
the equally impressive results that we have achieved having 
cocaine seizures to the tune of 30,000 pounds during the first 
11 months of 1999. But today, like I said, I would like to 
concentrate on what we need to improve on this impressive 
record.
    First of all, I would like to bring to your attention the 
situation of our Federal court system. Puerto Rico has seven 
Federal judges, but for the last 7 years only six of those 
seven positions have been filled. President Clinton has failed 
to submit an adequate nominee for that position in 7 years. The 
result of that is a huge backlog in Federal cases. The civil 
docket in Puerto Rico has been paralyzed for the last 5 years. 
No civil cases can be tried in Puerto Rico because criminal 
cases have precedence over civil cases creating tremendous 
problems. But we now are confronted with a situation that we 
have a huge backlog in criminal cases, mostly drug-related 
criminal cases.
    Why is this happening? Well unfortunately, the Puerto Rico 
Constitution prohibits the use of the single most effective 
investigative tool that exists nowadays, wire taps. So we use 
the resources of Federal law to use this tool, very effectively 
I might add, but all those cases need to be filed in Federal 
court. So what we are finding is that all the large criminal 
drug-related cases, basically 30,000 pounds worth of cocaine 
cases go to Federal court, and with the resources that the 
Federal court has in the District of Puerto Rico, it is simply 
impossible to attend that backlog. So I am going to petition 
this committee today for at least two more Federal judges and 
at least two more Federal magistrates so that we can attend all 
criminal cases and start attending the backlog in civil 
litigation that we have in Puerto Rico. And if at all possible, 
to fill that vacant position on the court.
    Additionally, I think there are various areas in which 
resources need to be considered for Puerto Rico. And when I 
mention Puerto Rico, I need to be clear on something. Sending 
resources to Puerto Rico alone is not enough, because we need 
to be out there gathering information in the rest of the 
Caribbean if we are to be effective in Puerto Rico. I will give 
you an example. DEA--for example, DEA does not cover Puerto 
Rico. The Puerto Rico DEA has to cover all the way down to 
Guyana. We are talking 20 different nations out there that we 
need to gather intelligence from if we are going to be 
effective in Puerto Rico in closing down our United States 
border to avoid drugs from coming in.
    So we need to continue to build on a mobile response 
capability that is effective. What I mean by this is, we need 
helicopters. We need Blackhawk helicopters, to be specific. Why 
Blackhawk helicopters? Because these helicopters have to be 
over the ocean for extended periods of time and the Blackhawk 
is the only helicopter that has two engines. They can stay out 
there for hours surveiling and watching these go-fast boats and 
aircraft that are getting all these drugs into our shores.
    We also need money to keep them in the air. Keeping a 
Blackhawk in the air is an expensive proposition to the tune of 
$2,200 an hour. We need money to maintain them. The truth of 
the matter is, there's eight of them in Puerto Rico right now. 
There are eight Blackhawks in Puerto Rico that the United 
States National Guard has, and these eight Blackhawks cannot be 
used for drug interdiction because the money is not there to 
keep them in the air and they are used only for training. So it 
behooves me to understand why if we have the equipment down 
there, we cannot find the money to keep them in the air to help 
us with this war. I personally met with powers to be at the 
Pentagon, I have met with Anna Maria Salazar on no less than 
four occasions personally. She has tried--I must say she has 
tried very hard to help us find the money but the money is not 
there to be found. So here we are sending Blackhawks to Costa 
Rica to pull marijuana plants and sending Blackhawks to 
Colombia, that the Colombian Government cannot keep in the air, 
and we have got them setting on the ground in Puerto Rico and 
we cannot use them either. There's something wrong there that 
we need to fix real quick.
    We need more go-fast boats for Customs and the U.S. Coast 
Guard. United States Customs does have a lot of equipment in 
Puerto Rico. They are now in the process of reorganizing their 
air and marine assets. The Coast Guard does have equipment. Let 
me give you an example. When the Coast Guard has a cutter out 
in the middle of the Caribbean Ocean--Caribbean Sea and they 
spot a go-fast boat moving, they cannot really do anything 
because a cutter cannot do 50 or 60 miles an hour to stay with 
that go-fast boat. There is the technology now where inflatable 
go-fast boats can be put on the Coast Guard carriers and they 
could then follow those go-fast boats. Then we need at night 
helicopters to spot them and follow them. That is what I mean 
by mobile response capabilities. We need to be able--because we 
are spotting them, we just cannot do much about it once we spot 
them.
    There needs to be a continued development of our regional 
strategy. We need more agents for that. We need to have more 
manpower and all these islands, Central and South America 
feeding us information. Puerto Rico's HIDTA--Puerto Rico-United 
States-Virgin Islands HIDTA just won a prize from ONDCP for 
having the best intelligence center in the nation. We have the 
best intelligence center in the whole U.S.A. in Puerto Rico, so 
we can manage that information, and we can put it to good use, 
but we need the capabilities to get out there hands on and make 
it happen.
    DEA, FBI and Customs, plus INS, all need more agents--it is 
that simple. They need more manpower because, believe me, it 
is, by any stretch of the imagination, a duck shoot down there. 
It is incredible how much more we could do if we had the 
resources. And as far as DEA, FBI and Customs, they do an 
excellent job with what they have. I sometimes am so impressed 
with how much they can do with the amount of resources they 
have. It is really incredible. I mean, these are dedicated 
public servants that are really making a change. INS is a 
different story, and I will get to INS in detail in a little 
while.
    Our HIDTA budget, we get $9 million a year. We have gotten 
$9 million every year for 4 years now. It is great. It has 
helped us put together this super program that is very 
effective, but for some reason the budget is the same every 
year, and we now have three times more HIDTAs than we had 4 
years ago.
    Mr. Burton. HIDTAs, what is that?
    Mr. Agostini. High intensity drug trafficking area. It is 
the ONDCP program----
    Mr. Burton. OK.
    Mr. Agostini [continuing]. That brings together all the 
Federal and local law enforcement agencies under one roof. It 
gives them money to attack drugs.
    The U.S. Congress keeps getting petitioned for more money 
for prevention, more money for treatment, more money for the 
Federal Bureau of Prisons, all these are drug-related issues. 
Huge amounts, billions of dollars, are being spent in these 
areas, but in the last 4 years no more money is going to 
interdiction.
    We need to strengthen the counter drug efforts by INS on 
our southeast border. The Caribbean corridor is the name of the 
area where one-third of the drugs that come to the United 
States mainland come through. That includes Jamaica, Cuba. It 
includes Haiti, the Dominican Republic, Puerto Rico and the 
rest of the Caribbean. We now have less INS Border Patrol 
agents and investigative agents--we have less than what we had 
8 years ago. We have something like 40 for what is one of the 
largest entry points into the United States, Puerto Rico. 
Puerto Rico is a United States border. The west end of Puerto 
Rico is only 90 miles away from the eastern end of the 
Dominican Republic, 90 miles. What is happening is, because of 
the pressure that is being put by law enforcement agencies in 
Puerto Rico, they have adapted, and they adapt to Haiti in this 
instance where there is very little law enforcement, if any at 
all.
    Once they are in Haiti where I would say about 18 percent 
of the drugs are going nowadays, a huge stash house. Some of it 
goes through Cuba--a very small percentage I would say. The 
largest amount of it is going over land--which is very easy--to 
the Dominican Republic. When it hits the eastern end of the 
Dominican Republic it is only 90 miles away from the United 
States coast. So they are using illegal alien runners to run 
drugs from the Dominican Republic to Puerto Rico every night 
and INS catches one boat load and they are tied up for 3 or 4 
days processing this boat load, so it is open season. We need 
to change this. You cannot send 1,000 new Border Patrol agents 
to the southwest border and not expect that to have an impact 
in Puerto Rico and Florida because it is going to have an 
impact. They are going to readapt and they are going to start 
bringing in their drugs through Puerto Rico and Florida. That 
is what is going to happen. You do not have to be a brain 
surgeon to figure that one out. We just need more resources in 
Florida and Puerto Rico to counter this problem.
    INS simply does not understand the issue, and I have 
personally met with Doris Meissner to try to explain this to 
them, but they insist that the drug problem and the illegal 
alien problem are two separate problems and they are to be 
treated separately. Well let me tell you something, 95 percent 
of all the drugs coming through Puerto Rico are being brought 
in by illegal aliens, Colombians and Dominicans. And Dominicans 
are using Puerto Rico as the entry point to get into the 
eastern border of the United States to run the drug laundering 
operations of the Colombian cartels. If we do not wake up that 
reality and start closing down that border they will continue 
to operate on the mainland of the United States because the 
effect of not sending resources down to Puerto Rico--besides 
the tremendous social problems it creates in Puerto Rico--is 
that all the drugs wind up in our mainland continental States. 
And that is the effect of not giving Puerto Rico the Federal 
resources it needs to fight this war.
    I feel that the armed forces need to play a bigger role in 
this war. I mean, when during 1999 alone, we were able to seize 
1,200 pounds of cocaine within the territorial area of the 
largest naval base outside the continental United States, there 
is something wrong. 1,200 pounds of cocaine we seized in 1999 
alone in Roosevelt Roads. Not inside the base, but inside their 
buffer zone, inside the area that protects their base. That to 
me is a clear sign that we need to talk to the armed forces 
about how they are going to help us in this specific war.
    ONDCP is going to report to you next month that they have 
been extremely successful--and they have--in reducing coca 
plantations in Peru and Bolivia by 50 percent--very important. 
That is very impacting, a 50 percent drop in coca cultivation 
in Bolivia and Peru--very impressive. What they may not tell 
you is that they are now growing it in Colombia, simply moving 
to Colombia. By the end of March 2000, we will have the ROTHR 
radar, Relocatable Over-the-Horizon Radar, on line from Puerto 
Rico. That radar is going to give us the ability to know 
exactly where in Colombia the cartels are performing their 
operations, their cultivations, their cooking as it is better 
known. What are we going to do with that information? We do not 
have the resources to do anything with it. It seems the 
Colombian Government, which is trying very hard to help, does 
not have the resources. We need to start thinking about what we 
are going to do with that information. It is going to be very 
valuable information. We are going to be able to know every 
aircraft that takes off from the jungle in Colombia to make a 
drop off outside Puerto Rico or any Caribbean island. How are 
we going to address that information? How are we going to get 
down there and respond to that information? The capabilities 
are not there right now.
    Like I said, if we get these resources, we will turn this 
thing around--we will, for the good of the people of Puerto 
Rico, for the good of the people in Florida, for the good of 
the continental United States where these drugs are winding up 
and killing our youth. We continue to spend a huge amount of 
our State budget in this war. Our next step, this month we are 
going to put out a request for proposal for $20 million worth 
of x-ray machines to be able to close down the use of our 
marine cargo container facilities, which is a huge gap that we 
have in closing down that border. The Government of Puerto Rico 
is going to put up the money to have the equipment to x ray 
those containers. I need to say that the help of the U.S. 
Customs Service has been invaluable in helping us put together 
the technical aspects of what we need in equipment to close 
this problem down. We are going to put up the money, we are 
going to do it. We are going to start x raying containers and 
you are going to see what a huge difference that is going to 
make, because the amount of cocaine that fits in a container--
every time we catch one it is thousands of kilos of cocaine. So 
we need to close that down. We are going to put up the money 
and with the help of U.S. Customs we are going to get it done. 
If we are going to be at war, then by God, give us the 
equipment, give us the resources and we will make you proud 
like we have done in so many other conflicts that we have 
participated. Just give us what we need and we will close it 
down.
    Thank you.
    [The prepared statement of Mr. Agostini follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.013
    
    [GRAPHIC] [TIFF OMITTED] T9521.014
    
    [GRAPHIC] [TIFF OMITTED] T9521.015
    
    [GRAPHIC] [TIFF OMITTED] T9521.016
    
    [GRAPHIC] [TIFF OMITTED] T9521.017
    
    [GRAPHIC] [TIFF OMITTED] T9521.018
    
    [GRAPHIC] [TIFF OMITTED] T9521.019
    
    [GRAPHIC] [TIFF OMITTED] T9521.020
    
    Mr. Burton. Thank you very much, Mr. Attorney General, for 
that very thorough analysis of the problem.
    I would like to introduce all the members of the committee 
who are here. Ms. Ros-Lehtinen just came in a minute ago. Mr. 
Mica is here. He chairs a subcommittee that deals with this 
problem on a regular basis. Mr. Barr who has been very active 
in this area. Mr. Barcelo who represents Puerto Rico, and Mr. 
Ose, and, of course, our counsel is here as well, Jim Wilson.
    Let me start off the questioning. Jim, we need to start the 
machine. You said that you have seven Federal courts down there 
and only six judges, and you said there is a huge backlog and 
the administration for 7 years has not filled that seventh 
court. You also said you need two more Federal judges and two 
more magistrates. Now those two more Federal judges, are those 
in addition to the seven?
    Mr. Agostini. Yes.
    Mr. Burton. So you would need nine. So there should be 
three more--three vacancies still, if we give you--if we get 
two more?
    Mr. Agostini. We have one Federal court and in that Federal 
court----
    Mr. Burton. But you have seven----
    Mr. Agostini. We have seven positions----
    Mr. Burton. Right.
    Mr. Agostini [continuing]. Of which six have been filled, 
but one has not been filled.
    Mr. Burton. But you need two more?
    Mr. Agostini. We need two more in addition. We would like 
to have nine. If we had nine, we could manage the criminal and 
the civil docket.
    Mr. Burton. OK. Now you said that they have eight 
Blackhawks down there in the National Guard. If those were 
activated for drug interdiction and the resources were there to 
keep them flying over the borders of Puerto Rico and the sea 
around Puerto Rico, would that be a sufficient number?
    Mr. Agostini. Yes, that would be. We would need to get at 
least four FLIR equipment. To properly use them----
    Mr. Burton. For looking down, heat sensitive?
    Mr. Agostini. Right. But eight would be more than enough. 
But we would need the capability also for those helicopters to 
be able to be stationed in other countries where we'll be 
gathering intelligence if we really want to be effective in 
shutting down the borders.
    Mr. Burton. So you're talking about taking some of the 
helicopters and placing them in strategic points around the 
Caribbean besides in Puerto Rico?
    Mr. Agostini. Yes.
    Mr. Burton. OK. You said you needed more go-fast boats. Are 
those--I don't know much about those inflatable boats. Do you 
know the cost of those? Do you have any idea? Maybe the DEA can 
tell us.
    Mr. Agostini. A go-fast inflatable boat is about $150,000 
to $175,000.
    Mr. Burton. And how many of those would you need?
    Mr. Agostini. I believe the Coast Guard now has nine active 
cutters in the Caribbean. They need one for each.
    Mr. Burton. So they need about nine of those?
    Mr. Agostini. Yes.
    Mr. Burton. OK. And you said that you need more INS agents. 
You said there's 40 down there now. How many do you need?
    Mr. Agostini. About 160 I would say.
    Mr. Burton. About four times that many?
    Mr. Agostini. At least.
    Mr. Burton. That figure that you gave that 95 percent of 
the drugs coming into Puerto Rico is through illegal aliens, 
that seems like an extraordinarily high number, but you are 
certain that is the case?
    Mr. Agostini. Yes, because when you find United States 
citizens being caught bringing in drugs they are normally very 
small amounts, and normally it is from the mainland United 
States bringing marijuana into Puerto Rico.
    Mr. Burton. So it is coming from the United States back 
into Puerto Rico?
    Mr. Agostini. That is why it is such a small amount. The 
large amount, where the money is, is the huge loads of cocaine 
and heroin coming into Puerto Rico and then making it to the 
mainland United States, and that is being done by aliens.
    Mr. Burton. Once an illegal alien gets into Puerto Rico and 
gets a ticket on an airplane, there is no way to catch them 
really, is there?
    Mr. Agostini. There is not.
    Mr. Burton. I mean, our Customs people do not pay any 
attention to the airports----
    Mr. Agostini. They do not really have any jurisdiction. But 
what we are doing is, there is an agent now right after you go 
through the metal detector machines, and if a person fits a 
profile they ask a couple of questions. And through that, the 
Circuit Court of Appeals for the First Circuit has said that we 
are able to--if they fit a certain profile--ask questions and 
if they do not answer the right questions, then investigate 
whether they are in the country legally. So we are having some 
success there, but that is not close enough because a lot of 
them get through.
    Mr. Burton. OK. Could you explain for the committee the 
pattern of smuggling that is used by the cartels through Puerto 
Rico and the Caribbean corridor.
    Mr. Agostini. Yes, I can. There are probably people here 
that are better qualified than I am to do that, but I will try 
that. There are basically four routes of the Caribbean 
corridor. There is the Jamaica-Cuba-Bahamas corridor; there is 
the Haiti-Dominican Republic; there is the Puerto Rico-United 
States-Virgin Islands and then there is the eastern Caribbean 
corridor. That makes up, up until 1997, one-third of the drugs 
coming to the mainland United States. The largest one being 
Haiti-Dominican Republic. That was 15 percent. I suspect that 
is up now tremendously. The problem is that when the numbers 
are analyzed, only 6 percent is really going directly from 
Colombia to Puerto Rico-United States-Virgin Islands. But the 
truth of the matter is, a very large amount of the drugs being 
brought into Haiti and the Dominican Republic are also making 
it into the United States through Puerto Rico, and that's where 
the numbers may be a little deceiving. We need to take a hard 
look at that. That is why we need to close down harder on the 
Puerto Rican border.
    Mr. Burton. I will have some more questions later.
    Mr. Mica.
    Mr. Mica. I was interested in the pattern of drug movements 
and also those involved. You said you had many illegals, 
accounting, I guess, for 95 percent of the drug trafficking. 
How are they getting in? You said at night they are coming in? 
They are not coming into your ports and airports, they are 
coming into other locations, is that correct?
    Mr. Agostini. Yes. There is a very large illegal alien 
trade from the Dominican Republic to Puerto Rico. They use 
these 30-foot wooden boats, which do not reflect on our radars, 
with a large outboard engine. They are very difficult to 
detect. They run at night without lights, and a stretch of 90 
miles, they can do in 5 or 6 hours, even less if the ocean is 
not rough. So they will run from the eastern end of the 
Dominican Republic to the western end of Puerto Rico, that 90-
mile stretch. Or there are a few islands--uninhabited islands 
off the coast of Puerto Rico where they will drop off aliens. 
Now what the illegal alien runners discovered was that it was 
more profitable to run drugs. So on these small vessels, 
besides putting people to bring them over, they put in drugs, 
and they are using the same mechanism to bring them in.
    Mr. Mica. Well, I participated with Mr. Hastert when he 
chaired the subcommittee that dealt with drug policy. We held 
hearings--in fact, one was on a Coast Guard cutter, I think, in 
the bay in----
    Mr. Agostini. In San Juan Bay, yes.
    Mr. Mica [continuing]. San Juan. Trying to put back the war 
on drugs, most people do not realize it was basically closed 
down by the Clinton administration. In 1993 they cut the Coast 
Guard by, I think, about 50 percent of their funding and 
staffing in your area. Most people do not realize the Coast 
Guard is also responsible for the area around Puerto Rico. We 
are basically approaching 1992 levels if you translate dollars 
from 1992 to 1999.
    You talked about the military. They took the military out 
of most of the interdiction. You also described the Colombian 
situation. Mr. Hastert--in fact, some of us trounced through 
the jungle with him in trying to start with a few small bucks, 
the eradication campaign which is now somewhat successful. But 
as you said, the traffic did move to Colombia. Again, we have a 
failed policy there where we never allowed the resources to get 
through, even the most recent $300 million that Congress 
appropriated. I understand your frustration. You have to 
understand some of our frustration, because we have tried to 
put Humpty Dumpty back together again and it is very difficult 
once it has been knocked off the wall.
    With INS you said you may need as many as three times the 
resources. Mr. Barr asked us to hold a hearing in his district 
and he had 40,000 illegal aliens in the Dalton-Atlanta area, 
just north of Atlanta, I believe it is. And we found that we 
have almost doubled the budget for INS from about $1.8 million 
to--I think it is about $3.2 billion--$1.8 billion to $3.2--and 
we have gone from about 18,000 to I think over 30,000 some 
employees in INS. We heard the same statistics in Atlanta that 
there were, I think, the same number or a couple fewer in the 
Atlanta area in INS.
    Mr. Agostini. INS has the largest budget of the four law 
enforcement agencies that are dealing with this problem, by far 
the largest budget. Do not get me wrong, the people from INS 
that are in Puerto Rico work very closely with us and they are 
very committed. It is just that they are not getting the 
resources from their central office. It is a problem of 
resources not going down there.
    Mr. Mica. I think maybe our subcommittee will do a hearing 
just on where the allocation of the personnel are, because it 
is astounding. We have appropriated vast sums of money, we have 
almost a 50 percent increase in personnel and I cannot find 
them.
    Mr. Barr. They are not in Georgia.
    Mr. Mica. They are not in Georgia. They are not in Florida 
either. I just met with our HIDTA folks in central Florida and 
they had exactly the same complaint. So we will pursue that. I 
appreciate you bringing that to our attention.
    And of course, bringing the military back into the effort I 
think is also very important. Our military are on patrol and 
active in any event protecting the country, but they did play 
an important part under the Reagan-Bush administration and we 
need to get them back. The latest statistics just handed me 
from the December 1999 GAO report, says the DOD's level of 
support to international drug control efforts has declined 
significantly since 1992. The number of flight hours has 
declined from 46,000 to 15,000 or down 68 percent from 1992 to 
1998. So this confirms what you are saying. We have additional 
information the number of ship days declined from 4,800 to 
1,800, a 62 percent decline over the same period.
    Our committee and subcommittee are committed to getting the 
military back in and we think they can play an important role 
as they have done in the past. We appreciate you calling that 
to our attention.
    Mr. Burton. Mr. Mica, before I yield to Mr. Barr, let me 
just say that perhaps we could get members of the committee to 
send a letter and publicize it to the administration, pointing 
out these deficiencies and maybe force the issue a little bit.
    Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman. I appreciate your 
leadership and that of Mr. Mica on these issues and I 
appreciate you calling this hearing and allowing me to 
participate.
    Mr. Attorney General, while you were giving us your oral 
testimony, I was cheating a little bit and reading your written 
testimony, which is every bit as eloquent, if not more so, than 
your oral testimony. I was particularly impressed with some of 
the steps that Puerto Rico took under your leadership, and your 
colleagues in the government, to do what you could to really 
seriously address the drug problem, as you have indicated 
today. It strikes me that it is very similar to what some other 
public officials have done, such as Mayor Guiliani in New York; 
he starts with the basics and concentrates on the basic, sort 
of grassroots policing. You focused on education and local 
policing and manpower and training.
    Is there anything that you could, just very quickly tell 
us, based on your experience and some of the procedures and 
policies you implemented in Puerto Rico that helped turn--that 
have helped start turning the problem around, that could 
perhaps be applied federally in terms of looking at resource 
allocation? I know you have indicated a couple of them and you 
have also indicated--I think you alluded to this and you 
address it very specifically in your written testimony, that 
the enemy out there, whether it is Fidel Castro, whether it is 
the Colombian cartel, they watch what is going on, the same as 
criminals here in the mainland watch what is going on with 
local police and DEA. They see where they are putting their 
resources and they react to it.
    Are there any lessons that we could perhaps apply at the 
Federal level that have been successful under your leadership 
in Puerto Rico?
    Mr. Agostini. Well, I am very impressed with the level of 
training that the Federal Government provides to its agents and 
law enforcement people at the Federal level. I think that makes 
a huge difference and we have taken that at the local level and 
really capitalized on it. Puerto Rico now has the only law 
enforcement college accredited by the middle states. So when a 
policeman graduates from that academy in Puerto Rico, he has a 
college associate degree. So we are professionalizing the 
police force. And that is something that under the HIDTA 
program happens a lot. Every week we get lists of training 
capabilities available, not only for the Federal law 
enforcement agencies, but for the State law enforcement 
agencies. And if the Federal Government could take the lead in 
providing these training resources to the State police, and 
paying for them, because right now it comes out of our HIDTA 
budget so we are limited in the amount of training that we can 
give, and then again only to the people involved in HIDTA, in 
our HIDTA operation. If you could expand that to all the police 
force, all law enforcement at the State level, that would make 
a huge difference, I think, in the capabilities of allocating 
the limited resources we have.
    Now the drug dealers have a very big advantage over us. 
They get on the Internet and they know every penny that we are 
going to spend fighting them and where we are going to spend 
it. We have limited budgets, they have unlimited budgets, they 
have all our information. So it is really hard allocating 
resources, especially when you do not have all the resources 
you need.
    Mr. Barr. As we have touched on here, it is particularly 
troubling under the current administration in a couple of 
areas. One such area is the INS, even though we in Congress 
have appropriated--authorized and appropriated huge increases 
in INS moneys, they are not getting out to where they are 
needed, and that was the subject, as Mr. Mica said, of some 
field hearings we had in my district in Georgia.
    I am also concerned, as is Mr. Mica and as was reflected in 
a December 1999 GAO study entitled ``Assets DOD Contributes to 
Reducing the Illegal Drug Supply Have Declined Since 1992.'' It 
is not just a small decline in several areas that they 
indicate. In one case, in terms of the number of flight hours, 
it declined 68 percent, the number of ship days 62 percent. So 
these are not just minor blips or adjustments, these are major 
decreases.
    If I could, Mr. Chairman, just ask one question. You 
mentioned, and I was particularly interested in the fact that 
under Puerto Rico law electronic surveillance is not lawful, 
contrary to Federal law, that within the bounds of, for 
example, Title 3 intercepts and court supervision and so forth, 
electronic surveillance is a tool that is available to Federal 
law enforcement. Therefore, what you are saying, I think, is 
those cases that rely to any extent whatsoever on evidence 
gathered through electronic surveillance have to be 
investigated, prosecuted by the U.S. Attorney and the Assistant 
U.S. Attorneys. Has that, in light of a Federal law that I 
opposed, yet not withstanding that it went into effect in 1998, 
that seems to make Federal prosecutors possibly liable for 
involving themselves in legitimate Federal cases involving 
electronic surveillance if that electronic surveillance would 
be unlawful under State law--has that presented any problems 
that you are aware of?
    Mr. Agostini. No, it has not so far in Puerto Rico that I 
am aware of. The truth of the matter is that in the 
investigative side, the State law enforcement agencies are very 
active and what we do is we get PIN registers and Title 3s 
through the Federal prosecutors and we help investigate and 
monitor, put the case together and then it needs to be 
prosecuted by the U.S. Attorney's Office. The U.S. Attorney's 
Office in Puerto Rico has grown tremendously in the last 5 
years, but the Federal judges remain the same. So there is just 
no way they can keep up with the amount of cases. Now it is 
not--if it were a law in Puerto Rico that prohibited electronic 
monitoring, we would have changed it a long time ago, but it is 
the Constitution. It is the Constitution that in 1952 was 
approved by this U.S. Congress that prohibits that kind of 
surveillance.
    Mr. Barr. Thank you very much. If you do notice any 
problems in that area, let us know, as a result of this 1998 
law.
    Mr. Agostini. Absolutely, sure.
    Mr. Burton. Ms. Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman, and I 
thank the committee again for coming down to south Florida.
    I was interested in the explanation you gave of the 
different drug patterns, the flow, and I know you have been 
discussing that in the questions as well. You had mentioned 
several different access or several different patterns of drug 
flow. Were there four that you had mentioned, or how many?
    Mr. Agostini. Yes, four.
    Ms. Ros-Lehtinen. If you could go through those again, and 
I am interested in the one that also mentions Cuba as one of 
the--I do not know if that was in relation to Jamaica.
    Mr. Agostini. Yes, the Jamaica-Cuba-Bahamas is one 
corridor.
    Ms. Ros-Lehtinen. How do those flow from those islands to 
Puerto Rico?
    Mr. Agostini. I believe the representatives from Customs 
and DEA that are here today are probably better positioned to 
answer those questions as I am only directly involved with the 
Puerto Rico and eastern Caribbean.
    Ms. Ros-Lehtinen. What are the other corridors that you had 
quickly gone over?
    Mr. Agostini. The Haiti-Dominican Republic corridor; the 
Puerto Rico-United States-Virgin Island corridor and the 
eastern Caribbean corridor.
    Ms. Ros-Lehtinen. And do you suppose that 10 years ago, 
Puerto Rico would not have been listed as one of the corridors? 
Has this been a problem that has really become a crisis in the 
last 10 years? If so, when do you think that change took place? 
Also, what factors do you think have contributed to the role 
that Puerto Rico unfortunately enjoys now of being one of the 
transit points of these corridors that you mentioned? Is it 
that our enforcement has increased elsewhere and then they know 
that they have this open border that they can exploit? Is it 
that you lack the financial resources and the drug traffickers 
know that? What factors do you think have gone into putting 
Puerto Rico in the prominent place that it is now?
    Mr. Agostini. I think we need to go into a little 
historical fact finding to properly answer your question. 
Initially, drug trafficking was a trade conducted through a 
southwest border with Mexico. That is the way drug trafficking 
was conducted in the late 1950's, 1960's, early 1970's. And 
then resources--this Congress started sending resources to the 
southwest border and they started closing down that border. So 
they started using water equipment to get into the Texas, New 
Orleans area and little by little moving to the Florida 
peninsula.
    Using the Florida peninsula developed the Caribbean 
corridor, the Bahamas, Florida, Cuba. And then resources 
started late 1970's and 1980's into Florida and the Bahamas, 
huge amounts of resources. That started closing down that 
corridor. So they adapted again and they moved to the 
Caribbean. That was in the late--that was actually early 
1980's, mid-1980's.
    What they discovered in Puerto Rico was that Puerto Rico 
was better than they ever thought because Puerto Rico had no 
representation in Congress, none to say that would be seeking 
funds to fight this problem. And then again, even if they were, 
there was no vote, there was just a voice. Once they were 
inside Puerto Rico, they were inside the Customs territory of 
the United States, so they could use commercial means to 
transport their drugs into the mainland United States. And 
third, the Government of Puerto Rico back then was totally 
unprepared to confront this problem and did not do much to 
attack it. It was not until 1993 when the tide turned, when 
Governor Rossello and Carlos Romero Barcelo were able to call 
the Federal Government's attention to this problem. Resources 
commenced to flow, HIDTA, Puerto Rico was named to HIDTA. The 
Governor induced huge amounts of money into our local law 
enforcement agencies, he doubled the police force, doubled 
their salaries, gave them resources, established the Police 
Academy which is now a college, professionalized the police 
force. All these things came together in about 1995 and then we 
saw this turnaround. I mean 30,000 pounds of cocaine in 1 year 
by our HIDTA only is quite impressive.
    So we are seeing the change. And we are on the road to 
change, but if we keep sending resources to the southwest 
border alone and we do not help Puerto Rico and Florida, they 
are just going to re-adapt and come our way again. I mean not 
that they are gone by any stretch of the imagination, it is 
very active. But that is what we need to do.
    These people adapt very, very easily and very quickly and 
we need to stay with them.
    Ms. Ros-Lehtinen. And just one more question. You would say 
then that the problem became worse 10 years ago, you had 
mentioned the 1980's, mid-1980's?
    Mr. Agostini. Fifteen years ago.
    Ms. Ros-Lehtinen. Fifteen years ago. And if you could say 
three things that you would most desperately need--you 
mentioned Blackhawk helicopters, you mentioned more agents, 
more judges. What three items, if you had to prioritize?
    Mr. Agostini. Agents, air and marine assets and Federal 
judges.
    Ms. Ros-Lehtinen. Thank you very much, it is a pleasure to 
have you here.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    Mr. Attorney General, I want to make sure I understand 
something. When you talk about these corridors, the four which 
you identified; one of them just kind of peaks my interest and 
that is the Haiti-Dominican Republic corridor that at the east 
end of the Dominican Republic puts the drugs 90 miles from 
Puerto Rico.
    Now my recollection serves that we spent over the past 5 
years somewhere on the order of $3 or $4 billion in Haiti in 
this nation-building exercise and yet, I do not see a--you 
would think that given that kind of investment in Haiti on the 
part of the United States, you would see a correlative or 
corroborative connection to some reduction over that period of 
time in the drug flow from west to east, ultimately into Puerto 
Rico and yet you told me that is not happening.
    Mr. Agostini. It is not happening.
    Mr. Ose. Why?
    Mr. Agostini. My impression is that it has actually grown 
and there are people here that are going to be testifying 
before you who are probably better qualified than I am to 
answer that question. But my impression is that the development 
of a civil Government in Haiti has not addressed the law 
enforcement problems that exist there, that the Colombians have 
the ability of spending huge amounts of money also in Haiti, 
buying their way into huge stash houses down there where they 
then redistribute their drugs. And that problem is not being 
addressed the way it should.
    Now you are talking--addressing that problem in Haiti is a 
very expensive, very labor-intensive proposition. I suspect 
that doing it ourselves is probably getting in over our heads.
    Mr. Ose. You are suggesting that the policy of our 
involvement in Haiti has been a failure as to the drug problem.
    Mr. Agostini. Absolutely.
    Mr. Ose. Has there actually been any focus within our 
policy on Haiti as put forth by the administration and State 
Department on the drug problem?
    Mr. Agostini. I would imagine that there is, but then 
again, U.S. Customs and DEA are probably better qualified to 
answer than question than I am.
    Mr. Ose. Well, then we may well go over this subject again. 
Mr. Chairman, I yield back. Thank you.
    Mr. Burton. The gentleman yields back his time. Mr. 
Barcelo, welcome.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman, I appreciate 
and thank you for the invitation to allow me to participate 
with the panel. And I just want to congratulate you for holding 
this hearing, I think it is very, very important and definitely 
the most important issue in Puerto Rico is the crime issue. 
Although we have accomplished many things, we are still not 
happy with what we have and we want to improve it a lot more.
    I want to congratulate the Attorney General for his 
extraordinary presentation today. I think it was very, very 
eloquent and very informative. We are sorry to see that you are 
not going to be with us any more, we really are.
    I wanted to touch base on a couple of things and I wanted 
to just briefly go through history to make sure that people 
also know how long we have been dealing with this. I was 
elected mayor back in 1968 and in 1969 and 1970 I became aware 
of the drug problem that we had in Puerto Rico. Since then, I 
started coming to the FBI in Washington, to the United States 
Attorney's Office, the Attorney General, trying to get a task 
force put together in Puerto Rico. I was not able to do that 
for my 8 years in office, and I visited both the FBI and the 
Department of Justice many, many times.
    Then finally, when we had the Pan American Games in Puerto 
Rico, we did such a good job on the security of those games, 
that then the President sent--Ambassador Carter was his name--
and he said what would you like, the President wants me to 
offer you something that we can do for you, you were so 
successful with the security. I said let us have a task force 
in Puerto Rico for the drug interdiction and for organized 
crime and for terrorism.
    Finally, a task force was put together but it was not 
adequately funded. Then after--at that time, I was already 
Governor. Then when I lost the elections, the communication 
between the local Puerto Rican agencies and the Federal 
agencies was disrupted. They were not trusting each other any 
more, particularly the Federal agencies were not trusting the 
people in the Justice Department in Puerto Rico, nor the Police 
Department because leaks were coming out. So the whole task 
force fell apart. After 1993, the High Intensity Drug 
Trafficking Area efforts have come about and they have done a 
tremendous job. I have been asking for something like this for 
many, many, many years and people were overlooking the 
situation in Puerto Rico. It was starting to get more and more 
serious all the time.
    So I am happy that a lot is being done, but as you say, a 
lot still needs to be done.
    I have some figures that were given to me by your office 
that says that in the Mexican corridor last year, 1998, 44 
percent of the cocaine that was transported was seized, whereas 
in the Caribbean corridor, only 11 percent of the cocaine that 
was transported was seized. I think those are very, very 
telling data. Am I correct on that information?
    Mr. Agostini. Yes, you are, and these, I need to make 
clear, are estimates, our best estimates that we can come up 
with, but those numbers are correct, yes.
    Mr. Romero-Barcelo. And then the other thing that you 
mentioned was that now, there used to be--3 out of 10 murders 
used to be drug-related and now even though we have reduced 
murders substantially, but now 8 out of 10 murders are drug-
related.
    Mr. Agostini. That is a very precise statistic, yes.
    Mr. Romero-Barcelo. Since a lot of the drugs are coming in, 
and as you mentioned there is the Dominican cartel and the 
Colombian cartels are controlling the drug traffic, how many of 
those murders do you know, what percentage of those murders 
were committed by illegal or undocumented aliens?
    Mr. Agostini. It is a significant percentage but the truth 
of the matter is that the largest percentage is by Puerto Rican 
organizations. Because of our effectiveness in taking out 
complete organizations, drug organizations, and creating 
vacuums, that vacuum will try to be filled by various other 
organizations, so what happens is that they start shooting each 
other out to fill that vacuum. And that is what is happening, 
that is why it is drug-related murders that we are seeing, 80 
percent of the murders.
    Mr. Romero-Barcelo. Another problem that we have, we have 
strict gun control laws in Puerto Rico, but there are a lot of 
illegal guns. I have not heard you discussing that and 
obviously the illegal gun traffic also affects--the drug 
groups, the cartels and the gangs are heavily armed and we see 
them when the police go in to do something, sometimes they have 
superior arms to the police.
    Mr. Agostini. Yes, that is a huge problem. We are finding--
and this is an ATF statistic--that 80 percent of the illegal 
weapons that are being brought to Puerto Rico are being brought 
from Florida.
    Mr. Romero-Barcelo. So there is a two-way connection.
    Mr. Agostini. It is so easy to purchase weapons in some of 
the States that anybody--they buy 20-30 weapons in different 
places and then they put them altogether and bring them to 
Puerto Rico and sell them off.
    Mr. Romero-Barcelo. They probably send them through 
containers.
    Mr. Agostini. Containers or they are using Federal Express 
to get them down here or they are using other commercial means 
to get them to Puerto Rico.
    Mr. Romero-Barcelo. So as you leave us now as the Secretary 
of Justice in Puerto Rico, what would be your recommendations 
as to what should be emphasized on in the next years?
    Mr. Agostini. Well, I think I have expressed already the 
three areas that I think are the most important. We need to 
have response capabilities. If we put all these resources out 
there to gather the intelligence and we cannot respond to that, 
it is as good as not having it. And we are spending huge 
amounts of money in radar and I am asking for the armed forces 
to give us more intel and we are asking for helicopters to 
gather more intel and if we cannot respond after we have all 
that intelligence, then we are not doing anything. And another 
thing is we need to be able to prosecute all these cases.
    Mr. Mica asked a question a little while ago and I 
expressed to him one of the things I think the Federal 
Government should be doing. There is a second thing that comes 
to mind. One of the successes we have seen in Puerto Rico in 
having the Federal law enforcement agencies work together is 
because of the limited resources and because we can maximize 
that through the funds of the HIDTA. And what I have become 
perceptively inclined to think is that the way in which the 
Federal law enforcement agencies are measured every year to 
provide them with their budgets creates a situation where they 
try to not share information with one another. Customs does not 
want to give information to DEA, DEA does not want to give it 
to FBI because then what happens is that FBI claims that they 
broke this case and that is the way they are measured.
    So what is happening is that because they are fighting each 
other to get their fair share of the budget, they are trying to 
keep their information so that they can be measured through 
that information. And I think it is a very unfair system, 
because I think they are all being very effective, they are all 
working very hard and until they start sharing all their 
information, they are not going to be all as effective as they 
can be. That sharing of information is occurring in Puerto 
Rico, that is why we have the best intelligence center in the 
whole nation and that needs to be exported somehow to the rest 
of the nation.
    Mr. Romero-Barcelo. Thank you very much.
    Mr. Burton. Thank you, Mr. Barcelo.
    Mr. Attorney General, I want to thank you very much for 
coming up here. We will take the information that you have 
given us and we will try to draft a letter to the parties that 
ought to be addressed, the President and the Secretary of State 
and the head of DEA and others, and ask them why there has been 
cuts in the funding for these various areas and why there is 
not more appropriations being made for the things that you have 
mentioned. And we will go through those and enumerate those and 
I will send you a copy of that letter.
    I really appreciate you being here, we appreciate the fine 
job you have done as Attorney General, we are going to miss you 
down there, but I am sure we will see you again in the future.
    Mr. Agostini. I am sure you will.
    Mr. Burton. Thank you very much.
    We will now go to our second panel of Mr. Ledwith, the 
Chief of Foreign Operations for DEA; Mr. Vigil, Special Agent 
in Charge of the Caribbean Division of DEA; Mr. Varrone, who is 
the Executive Director of Customs.
    That is all the panelists we have, the three? OK, very 
good.
    Because we want to get your sworn testimony, would you all 
rise and raise your right hands, please?
    [Witnesses sworn.]
    Mr. Burton. Thank you very much, be seated.
    I presume you each have an opening statement. If not, we 
will go to questions, but we will start with Mr. Ledwith and we 
will go right down the line.

STATEMENTS OF WILLIAM E. LEDWITH, CHIEF OF FOREIGN OPERATIONS, 
DRUG ENFORCEMENT ADMINISTRATION; MICHAEL S. VIGIL, CHIEF AGENT 
     IN CHARGE, CARIBBEAN FIELD DIVISION, DRUG ENFORCEMENT 
   ADMINISTRATION; AND JOHN C. VARRONE, EXECUTIVE DIRECTOR, 
             OPERATIONS, EAST, U.S. CUSTOMS SERVICE

    Mr. Ledwith. Mr. Chairman and members of the full 
committee, thank you for this opportunity to speak on behalf of 
the Drug Enforcement Administration concerning drug trafficking 
in the Caribbean.
    I will provide a general overview, with particular focus on 
Cuba. Special Agent in Charge of our San Juan office, Michael 
Vigil, who follows me, will concentrate on Puerto Rico.
    I have a written statement and with your permission, I wish 
to submit it for the record, sir.
    Mr. Burton. Without objection.
    Mr. Ledwith. The Caribbean has long been an important zone 
for drugs entering the United States and Europe from South 
America. The drugs are transported through the region of both 
the United States and Europe via a wide variety of routes and 
methods. Maritime vessels are the primary means used by 
traffickers to smuggle large quantities of cocaine through the 
Caribbean to the United States. Small launches with powerful 
motors, known as go-fast boats, bulk cargo freighters and 
containerized cargo vessels are the most common conveyances for 
moving large quantities of cocaine through the region. Drug 
traffickers also routinely transport smaller quantities of 
cocaine from Colombia to clandestine landing strips in the 
Caribbean via single or twin engine aircraft and air drop 
cocaine loads to waiting land vehicles and/or maritime vessels.
    Compared to cocaine, heroin movement through the Caribbean 
is limited. Almost all of the heroin transitting the Caribbean 
originates in Colombia. Couriers generally transport kilogram 
quantities of Colombian heroin on commercial flights from South 
American to Puerto Rico or the continental United States. They 
sometimes make one or two stops at various Caribbean islands in 
an effort to mask their original point of departure from law 
enforcement.
    The Interagency Assessment of Cocaine Movement [IACM], in 
which the DEA participates, provides estimates on the cocaine 
tonnage transitting through various countries including 
Jamaica, Haiti, the Dominican Republic, the Bahamas and Cuba. 
From July 1998 through June 1999, the IACM estimated that 
approximately 110 metric tons transitted through these 
countries. Of this amount, approximately 54 metric tons or 49 
percent of the total that is estimated, transitted Haiti and 32 
metric tons or 29 percent of the total transitted the Bahamas. 
During this period the IACM estimated that 1.85 metric tons or 
1.7 of the total transitted Cuba.
    The Caribbean region continues to play an important role in 
the transportation of cocaine from South America to Europe 
also. Cocaine is transported to Europe through the Caribbean 
primarily in commercial container cargo or concealed in medium 
to large merchant vessels. Spain is the primary original 
destination of this cocaine. Colombian drug traffickers prefer 
forming alliances with drug traffickers in Spain, where there 
is no language barrier and Colombian drug traffickers can move 
about with more anonymity than in other European countries. The 
Netherlands and Belgium are other focal points currently used 
by Colombian drug trafficking organizations to distribute 
cocaine in Europe.
    Containers are loaded with cocaine in South American ports. 
The cocaine is sometimes concealed in the merchandise itself 
but, more often, in false compartments constructed within the 
containers. The containers are often transshipped through 
various ports in South America, Central America and the 
Caribbean while en route to these European ports. While Spain 
has remained the primary initial destination of the cocaine, 
recent seizures indicate large cocaine shipments were destined 
for ports in the Mediterranean and northern Europe as well.
    Large quantities of cocaine also are clandestinely loaded 
aboard medium to large merchant vessels in the Caribbean.
    Countries in Europe are experiencing an increase in drug 
above and a concomitant increase in the flow of cocaine from 
South America. Over the past 10 years, cocaine seizures in 
Europe have increased dramatically, indicating an increase in 
demand. In 1988, a total of 5.7 metric tons of cocaine 
hydrochloride was seized in Europe. By 1997, the total had 
risen to over 40 metric tons. Demand has driven the price of 
cocaine in Europe to levels even above those found in the 
United States today. In 1998 the price range for 1 kilogram of 
cocaine sold in the United States was between $10,000 and 
$36,000. During 1998, the average price of a kilogram of 
cocaine in Spain was $41,000. The price disparity between 
Europe and the United States has provided a significant 
incentive for Colombian drug traffickers to expand their 
marketing efforts to Europe as well as the United States.
    The island of Cuba lies in a direct air and maritime path 
from South America to Florida. While the Government of Cuba's 
performance in interdicting narcotics has been mixed, the Cuban 
Government has recently strengthened agreements with several 
other governments. Cuban authorities occasionally have arrested 
individual drug traffickers. Historically, however, the Cuban 
Government has not responded aggressively to incursions by 
these traffickers in the Cuban territorial waters or air space. 
Cuba has argued that it lacks ``the naval means'' and other 
resources to patrol all of its air space and territorial 
waters. At the same time, it does not routinely permit U.S. 
interdiction assets to enter its territory.
    Drug traffickers continue to use Cuban waters and air space 
to evade United States interdiction assets. Go-fast boats from 
Jamaica routinely travel just inside Cuban waters to avoid 
contact with United States enforcement vessels. Traffickers 
also use small aircraft to transport cocaine from clandestine 
airfields in the Guajira Peninsula in Colombia through Cuban 
air space. Cocaine may then be air dropped and later retrieved 
by go-fasts that take the drugs to the Bahamas for further 
transshipment to the United States. It should be noted that in 
1999, the number of these suspected drug flights over Cuban 
territory has declined, compared to the increase that was noted 
in 1998.
    According to Cuban police reporting provided to the 
Colombian Government, Cuban law enforcement has made occasional 
arrests of drug couriers. The majority of these couriers were 
transporting kilogram quantities of cocaine to European 
countries, although occasional deliveries were made to 
traffickers operating in Cuba. Cuban authorities have reported 
to the Colombian authorities only limited instances of heroin 
couriers traveling through Cuba.
    Commercial vessels, which transport cocaine from South 
America to Europe also may load legitimate cargo in Cuban 
ports. These vessels transit other Caribbean, Central American 
or South American ports.
    In addressing the role of Cuba in the international drug 
trade, DEA must rely on international media sources, as well as 
other foreign law enforcement agencies, for much of our 
information regarding drug arrests and seizures by Cuban 
authorities. Since DEA does not have a presence in Cuba, we 
cannot independently corroborate much of the reporting on 
alleged Cuban involvement in drug trafficking.
    The December 1998 seizure of 7.254 metric tons of cocaine 
in the Colombian port of Cartagena is one example of drugs 
apparently destined to transit Cuba which has received a great 
deal of attention. The Colombian National Police found the 
cocaine sophisticatedly concealed in compartments within 
maritime shipping containers. The containers were manifested 
for shipment to Cuba. DEA and other U.S. counterdrug agencies 
have been aggressively and meticulously pursuing the 
investigation of this cocaine shipment. At this point in our 
investigation, we have no information that suggests that this 
particular shipment was destined for the United States. The 
information we do have, which we are attempting to 
independently corroborate, indicates that this shipment was 
destined for Spain.
    Investigations by the Colombian National Police, the DEA 
Bogota Country Office, the DEA Madrid Country Office, the 
Spanish National Police and the Cuban Federal Police to date 
have not developed direct evidence of the ultimate destination 
of the cocaine.
    Drug trafficking organizations generally do not ship multi-
ton cocaine shipments by a specific route or method without 
first testing the pipeline. Information provided by the Cuban 
Police to the Colombian National Police indicated that the same 
companies involved with the shipment seized in Cartagena made 
at least four previous shipments of containers with hidden 
compartments. In each of these four shipments, containers that 
originated in Cartagena were shipped from Cuba to Spain.
    Information also provided by the Cuban Police to the 
Colombian National Police indicated the Cuban Police searched 
the premises in Havana of businesses associated with the 
Cartagena seizure. Cuban Police reports to the Colombian Police 
the discovery of four containers that appeared to have been 
outfitted with false compartments. The four containers bore the 
serial numbers of containers previously shipped from Cartagena 
through Cuba to Spain. None of the agencies investigating the 
seizure have been able to obtain direct evidence that any of 
the containers in the four shipments contained cocaine.
    DEA is vigorously engaged in a comprehensive investigation 
of all aspects of this seizure. We are cooperating extensively 
with authorities in Colombia and Spain. Special agents from DEA 
headquarters are assigned to the Cartagena seizure 
investigation. A senior supervisory special agent is assigned 
the oversight of the investigation and is coordinating the 
compilation of all information involving Cuba.
    My office is also working closely with our offices in 
Colombia and Spain to review all existing documents, assist in 
ensuring all previous leads are followed, and in developing any 
new leads. I want to thank the committee for the information 
you provided, including audio tapes and transcripts. I assure 
the committee that all information derived from these sources 
will be factored into our investigation.
    A priority of DEA is to obtain independent corroboration of 
all information and evidence acquired in this investigation. 
This will include working to corroborate all foreign police 
reports to the greatest extent possible. All of the reports are 
being reviewed by the headquarters intelligence research 
specialists assigned to this investigation.
    Last month, DEA coordinated a visit to Colombia and Spanish 
authorities. Spanish authorities, Colombian authorities and 
special agents from DEA met to review evidence and to discuss 
sources and methods for developing new information and evidence 
regarding the alleged drug trafficking between Colombia and 
Spain.
    In any investigation, the DEA does not rule out any 
possibility until the investigation is concluded. As new 
information is developed, the investigative direction is always 
subject to change.
    The primary focus, after the information is obtained, is to 
develop evidence that can be used in criminal prosecutions and 
corroborate evidence of meet evidentiary standards.
    While I cannot comment on the details of an ongoing 
investigation in a public forum, I assure you that DEA 
continues to expend every effort on the investigation of the 
Cartagena shipment.
    I will gladly answer any questions you may have.
    Mr. Burton. Mr. Vigil.
    [The prepared statement of Mr. Ledwith and Mr. Vigil 
follows:]

[GRAPHIC] [TIFF OMITTED] T9521.021

[GRAPHIC] [TIFF OMITTED] T9521.022

[GRAPHIC] [TIFF OMITTED] T9521.023

[GRAPHIC] [TIFF OMITTED] T9521.024

[GRAPHIC] [TIFF OMITTED] T9521.025

[GRAPHIC] [TIFF OMITTED] T9521.026

[GRAPHIC] [TIFF OMITTED] T9521.027

[GRAPHIC] [TIFF OMITTED] T9521.028

[GRAPHIC] [TIFF OMITTED] T9521.029

[GRAPHIC] [TIFF OMITTED] T9521.030

[GRAPHIC] [TIFF OMITTED] T9521.031

[GRAPHIC] [TIFF OMITTED] T9521.032

[GRAPHIC] [TIFF OMITTED] T9521.033

    Mr. Vigil. Mr. Chairman and distinguished members of the 
full committee, thank you for this opportunity to speak on 
behalf of the Drug Enforcement Administration regarding Puerto 
Rico. With your permission, I wish to submit my written 
statement for the record.
    Mr. Burton. Without objection.
    Mr. Vigil. As you have heard from Mr. Ledwith, the 
Caribbean ia a major transit zone for drugs entering the United 
States from South America. Within that area, Puerto Rico 
provides a particularly significant link between South America 
and the continental United States. The island is singular in 
the opportunities it provides for traffickers as well as the 
challenges it creates for law enforcement.
    More than ever, international drug trafficking 
organizations utilize Puerto Rico as a major point of entry for 
the transshipment of multi-tons of cocaine being smuggled into 
the United States. Puerto Rico has become known as a gateway 
for drugs destined for cities on the east coast of the United 
States. Puerto Rico's 300 mile coastline, the vast number of 
isolated cays, and 6 million square miles of open water between 
the United States and Colombia, make the region difficult to 
patrol and ideal for a variety of smuggling methods.
    Puerto Rico is an active Caribbean sea and air 
transportation thoroughfare. The island boasts the third 
busiest seaport in North America and 14th busiest in the world, 
as well as approximately 75 daily commercial airline flights to 
the continental United States. This presents an attractive 
logistical opportunity for drug trafficking organizations. The 
sheer volume of commercial activity is the traffickers' 
greatest asset. Criminal organizations have utilized their 
financial capabilities to corrupt mechanics, longshoremen, 
airline employees, ticket counter agents as well as government 
officials and others whose corrupt practices broaden the scope 
of the trafficking.
    Only 360 miles from Colombia's north coast and 80 miles 
from the east coast of the Dominican Republic, Puerto Rico is 
easily reachable by twin engine aircraft hauling payloads of 
500 to 700 kilograms of cocaine. The go-fast boats make their 
round trip cocaine runs to the southern coast of Puerto Rico in 
less than a day. Today, cocaine and heroin traffickers from 
Colombia have transformed Puerto Rico into the largest staging 
area in the Caribbean for illicit drugs destined for the United 
States market.
    The open use of the Caribbean as a narcotics transshipment 
center has created a public safety crisis in Puerto Rico and 
DEA must assign resources to the island to address this threat. 
Although this is necessary, we have had continuing difficulties 
retaining Federal law enforcement personnel in the Commonwealth 
of Puerto Rico. Few personnel from the continental United 
States are willing to accept a transfer to Puerto Rico, and 
those who do often want to leave soon after arrival. Such 
quality of life problems as the high cost of living, limited 
availability of appropriate schools for dependent children and 
the high incidence of crime have contributed to early turnover 
and family separations.
    As a result, DEA has in place a variety of incentive 
packages for special agents, diversion investigators and 
intelligence analysts relocating to Puerto Rico.
    While these have proven to be a partial solution, DEA has 
developed the following proposal to address the retention 
issue:
    No. 1, a tax exempt educational allowance to assist DEA 
employees in sending dependent children to DOD or private 
schools.
    No. 2, a housing allowance or significant stipend for both 
special agents and support personnel to allow for the purchase 
of housing in safe areas or guarded, enclosed communities.
    No. 3, an extended assignment bonus for remaining in place 
after completion of the initial period of service.
    No. 4, home leave of 5 days annually, not tied to tour 
renewal.
    The next one is salary tax relief with taxes to be based 
upon the home of record rather than the current requirement 
that they pay both Federal and Puerto Rico hacienda taxes.
    And finally, an amendment to the Soldier and Sailor's 
Relief Act to allow voting via absentee ballot.
    Since fiscal year 1997, DEA has increased the special agent 
resources to the Caribbean. In that timeframe, a total of 48 
agents have been added to the Caribbean field division, 43 of 
which are currently assigned to Puerto Rico. The remaining 
agents have been assigned to regional offices within the 
Caribbean field division, including Jamaica, Haiti, Trinidad 
and also Santo Domingo in the Dominican Republic. In our fiscal 
year 2000 appropriations, DEA received an additional 17 
positions, which includes 11 special agents and $2.4 million 
for drug enforcement operations in Puerto Rico as well as funds 
to enhance quality of life issues as noted above.
    With that, Mr. Chairman, I would thank you very much for 
your effort in obtaining those resources for Puerto Rico, 
because they are sorely needed and we can use those in 
expanding our operational parameters.
    Mr. Burton. Thank you, Mr. Vigil, we understand that there 
have been some real problems with the agents in Puerto Rico 
because of safety as well as the other issues that you 
mentioned.
    Mr. Vigil. That is correct.
    Mr. Burton. We will try to see if we cannot have the 
subcommittee correspond with the appropriate agencies to see if 
we can solve some of those problems for you because we do need 
to keep good agents down there.
    Mr. Vigil. Thank you.
    There are----
    Mr. Burton. Oh, go ahead, do you have more of your 
statement?
    Mr. Vigil. Yes, I have a couple more pages.
    Mr. Burton. Oh, I am sorry, I thought you were finished.
    Mr. Vigil. There are presently 94 special agents 
constituting six enforcement groups assigned to the Caribbean 
Field Division. Five groups are earmarked for specialized 
enforcement initiatives. They are as follows: one high 
intensity drug tafficking area task force; two additional task 
forces; a money laundering group and an airport group. Each 
group possesses expertise in a specific domain and fully 
exploits it to thwart the traffickers. This combination results 
in highly effective drug enforcement investigations and 
prosecutions. These investigations have led to the initiation 
of several enforcement operations, such as Operation Columbus 
and Genesis which have culminated in numerous arrests and 
significant seizures which resulted in the dismantling of 
several drug trafficking organizations operating in the 
Caribbean.
    The transit of illegal drugs through Puerto Rico creates 
unique challenges to law enforcement. DEA is aggressively 
pursuing the drug trafficking threat to Puerto Rico and working 
to improve the ability of DEA personnel assigned to the island 
in confronting this threat.
    Mr. Chairman, thank you for the opportunity to appear 
before this committee. I appreciate the interest you and the 
subcommittee have shown in DEA's drug enforcement efforts in 
Puerto Rico. At this time, I would be happy to answer any 
questions you or the subcommittee members may have.
    Mr. Mica. Thank you for your testimony. We are going to 
withhold questions until we have heard from everyone. I will 
now recognize John C. Varrone who is Executive Director of 
Operations at Eastern U.S. Customs Service. Welcome, sir, and 
you are recognized.
    Mr. Varrone. Good morning, Mr. Mica.
    I would first like to start by thanking the chairman, Mr. 
Burton, for his kind comments.
    Mr. Ose. Would you move that closer, please?
    Mr. Mica. As close as you can get it.
    Mr. Ose. Eat that thing. [Laughter.]
    Mr. Mica. They do not want to miss a word. [Laughter.]
    Mr. Varrone. Good morning, Mr. Mica.
    I would first like to thank Mr. Burton, the chairman, for 
his kind comments about the men and women of the Customs 
Service in their anti-terrorist activities up in Port Angeles, 
Washington and in Vermont. The recognition on behalf of the 
committee is important and I will carry that back to Washington 
and pass it on to the commissioner that you did recognize those 
individuals.
    Mr. Chairman and other members of the committee, it is my 
pleasure to have the opportunity to be with you here today to 
talk to you about the important issue of drug smuggling, and in 
particular smuggling in the Caribbean, and the overall 
enforcement mission of the Customs Service.
    I currently serve as the Executive Director of Operations, 
East, within the U.S. Customs Service's Office of 
Investigations. In this capacity I am responsible for the 
investigative operations of seven Special Agent in Charge 
offices on the East Coast of the United States, including our 
operations in the Caribbean.
    The Customs Service is the primary law enforcement agency 
with responsibility for the interdiction of drugs in the 
arrival zone. In addition to our responsibilities in the 
arrival zone, the Customs Service through our air and marine 
interdiction assets also provides significant assistance to 
other domestic and international law enforcement agencies who 
have responsibilities in both the source and transit zones.
    I realize that this committee is primarily interested in 
Cuba today, but I would like to briefly describe the border 
threat that we face in the entire Caribbean.
    As the committee is aware, it is estimated that 
approximately 40 percent of the cocaine destined to the United 
States enters our country through the Caribbean. In fiscal 
years 1998 and 1999 respectively, the Customs Service seized 
20,673 and 20,492 pounds of cocaine in and around Puerto Rico 
and the Caribbean. Our intelligence analysis and enforcement 
operations now indicate that private aircraft are used to 
conduct air drops in the transit zone to a variety of vessels. 
The areas where we have seen this activity most frequently have 
been in the waters off Haiti, Dominican Republic, Puerto Rico 
and the Bahamas.
    One of the current areas of increasing threat for Customs 
is Haiti, where the smuggling by coastal freighters presents 
both an inspectional and investigative challenge. The political 
instability in Haiti combined with their lack of marine law 
enforcement capabilities has meant that drug smuggling 
organizations have been able to exploit the absence of law 
enforcement and have been able to operate there with relative 
impunity.
    I have two charts that will illustrate the current threat 
we face in the non-commercial maritime arena in the Caribbean. 
These charts are a summary of the confirmed and suspected non-
commercial maritime smuggling events which were detected during 
calendar years 1998 and 1999 in three areas of particular 
interest to the committee--Jamaica-Bahamas, Puerto Rico-Virgin 
Islands and Haiti-Dominican Republic. The noticeable difference 
between these two charts is that the flow of cocaine in the 
non-commercial maritime environment has increased by 
approximately 15 percent.
    I would like to present to you how the Customs Service 
views the threat presented by Cuba in the area of drug 
smuggling. With limited anecdotal evidence, our intelligence 
analysis and enforcement experience has led us to believe that 
Cuba plays a minimal role, if any, in non-commercial smuggling. 
Smugglers on occasion use Cuban waters and air space to thwart 
end game drug interdiction operations. We believe drug 
smugglers are acutely aware of the lack of operational 
coordination and law enforcement exchange between the United 
States and Cuban Governments and accordingly exploit the 
situation by circumventing our interdiction efforts.
    As you have heard in previous testimony on this subject, 
radar track data indicates that in 1999, there was a decrease 
in air tracks transitting Cuban air space. I have brought with 
me four additional charts that will illustrate that change.
    As you can see from the first chart, in 1998, there were 34 
confirmed or suspect tracks that that transitted Cuban air 
space. I would like to pause here and just briefly describe 
what we consider confirmed or suspected. We consider that not 
just our radar tracking, but a secondary source that confirms 
that there was an asset there or that was a smuggling attempt 
there. Whether we were successful at interdicting that or not, 
we consider that a smuggling attempt.
    In 1999, the number of confirmed or suspected tracks that 
transitted Cuban air space declined to 11. The last of these 
tracks occurred just last week. On December 29, a plane was 
tracked as it flew over Cuban air space to an air track 
location outside Cuban territorial waters. The go-fast vessel 
that received the drugs was tracked to the Bahamas where the 
crew was arrested after they ditched what was believed to be 
approximately 500 pounds of cocaine.
    Returning to the charts, the third and fourth chart 
illustrate the air track data for Haiti during that period. 
These charts show a 25 percent increase in tracks over Haiti.
    Our overall assessment is that drug smugglings are using 
Cuban waters and air space when it is in their interest, 
particularly in situations where it enables smugglers to avoid 
drug interdiction efforts.
    As you are aware, Customs agents have debriefed cooperating 
defendants who have given us some insight into the role that 
Cuba has played in their drug smuggling operations. The 
information provided by cooperating defendants largely supports 
our characterization of Cuban waters and air space as a place 
used by smugglers as a safe haven from drug interdiction 
forces. One example of this type of cooperating information is 
that which was provided to Customs debriefers in 1999 by a 
Colombian transportation coordinator who we arrested in 1998.
    I believe that the report of this debriefing has already 
been provided to the committee. The general description of this 
cooperator's information is that smugglers use Cuban waters and 
air space to conduct air drop operations because they believe 
they are safe from United States drug interdiction operations. 
The source further stated the air drops are completed--excuse 
me--that after air drops are completed, smugglers stage in 
Cuban waters until they are sure law enforcement assets are not 
in the area before they depart for their final destination. 
This particular cooperator indicated that while drug smugglers 
may transit Cuban air space, it is not necessary to coordinate 
with or seek permission from Cuban authorities.
    It should be noted that this cooperator's description of 
air drop operations inside Cuba has been corroborated by 
surveillance operations conducted by our Customs P-3 aircraft.
    I would like to take a few moments to describe for the 
committee how the Customs Service has tried to respond to the 
Caribbean threat and some of the successes that we have 
achieved. Customs has committed a significant law enforcement 
presence in the Caribbean. Our Office of Field Operations has 
209 Customs inspectors and canine officers assigned to the 
islands of Puerto Rico, St. Thomas and St. Croix. The Office of 
Investigations has 82 special agents assigned to the island of 
Puerto Rico and 8 more special agents assigned to St. Thomas.
    The Customs Service has dedicated nine aircraft to the 
Caribbean air branch; three tracking aircraft, three 
helicopters and three twin engine fixed wing aircraft. We have 
also dedicated a total of 41 vessels to the Caribbean. I should 
note that this represents 30 percent of all the vessels 
operated by the Customs Service. These vessels include 22 
interceptors, 7 patrol craft, 11 utility craft and 1 blue water 
craft. Using all of these resources, Customs interdiction 
operations have been responsible for numerous successes.
    In March 1996, the Customs Service initiated Operation 
Gateway in an effort to insulate Puerto Rico and the United 
States Virgin Islands and the surrounding waters and air space 
from drug smugglers. This multi-year operation was a natural 
extension and expansion of Operation Hardline, which had 
focused on the southern land border and southern tier of the 
United States.
    More recently, the Customs Service and other law 
enforcement agencies have undertaken several operations to 
address both the air and maritime threats in the region. One of 
these, Operation Two Dozen, was a pulse and surge type 
operation whereby the Customs Service, Coast Guard, DEA, U.S. 
Army and Bahamian Police coordinated all source intelligence 
and responded with enforcement operations accordingly. The 
focus of this operation was to interdict vessels and aircraft 
smuggling into the Bahamas and south Florida. It was in effect 
during February and March 1999.
    During the four phases of the operation, drug interdiction 
patrols were conducted for a total of 13 days. These patrols 
resulted in the seizure of 2,060 pounds of cocaine, 850 pounds 
of marijuana, the seizure of 3 vessels, 1 aircraft and arrest 
of 40 individuals.
    Last, I would like to briefly describe three recent 
enforcement examples which I believe will provide you with a 
sense of the enormous challenge facing the U.S. Customs 
Service.
    To give you a sense of the physical threat confronting our 
officers, I will briefly describe a smuggling example which 
occurred on March 26, 1999 when a vessel attempted to elude 
Customs agents by colliding with our vessel. Agents were forced 
to fire rounds at the suspect vessel to disable the engine. 
When the five crew members were arrested, they were all wearing 
face masks and bulletproof vests. No weapons were recovered. 
The Coast Guard did recover 1,900 pounds of cocaine that the 
crew had jettisoned during the pursuit.
    In specific response to the increasing threat from Haiti, 
the Customs Service has led a multi-agency enforcement 
operation called River Sweep, which focuses on Haitian coastal 
freighters attempting to smuggle drugs, principally cocaine, 
into the United States. Since its inception in 1998, this 
operation has resulted in the seizure of 8,256 pounds of 
cocaine, 129 arrests, the seizure of 12 Haitian coastal 
freighters, $1.5 million in currency, and the recovery of 19 
stolen vehicles.
    In just the last 90 days, Customs has seized 1,740 pounds 
of cocaine from Haitian coastal freighters on the Miami River 
and $1 million suspected drug proceeds from our outbound 
interdiction program.
    On November 14, 1999, in our most recent cooperative 
effort, Customs, FBI and DEA agents in St. Thomas seized 4,672 
pounds of cocaine discovered aboard the motor vessel Adriatik 
which was stopped and searched by the Coast Guard based upon a 
successful lookout.
    I should also note that this past Saturday, Customs 
aviation assets participated in a tracking and later detention 
of Ly Tong, who overflew Cuba after departing from the United 
States in a rented plane. The Customs Service air and marine 
interdiction and coordination center in Riverside, California 
was able to track Mr. Tong from the time he departed Miami 
until he returned.
    I would like to thank the committee for the opportunity to 
provide the Customs Service's perspective on this important 
issue. I have tried to present to you a brief overview of the 
operational environment which our front line employees confront 
every day. We are always proud to share the experience, 
expertise and accomplishments of our dedicated officers who 
make many sacrifices and frequently place themselves in harm's 
way on behalf of the citizens of the United States.
    Mr. Chairman, thank you for allowing me to testify before 
you and the committee today. I will be glad to answer any 
questions you may have.
    [The prepared statement of Mr. Varrone follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.034
    
    [GRAPHIC] [TIFF OMITTED] T9521.035
    
    [GRAPHIC] [TIFF OMITTED] T9521.036
    
    [GRAPHIC] [TIFF OMITTED] T9521.037
    
    [GRAPHIC] [TIFF OMITTED] T9521.038
    
    [GRAPHIC] [TIFF OMITTED] T9521.039
    
    [GRAPHIC] [TIFF OMITTED] T9521.040
    
    [GRAPHIC] [TIFF OMITTED] T9521.041
    
    [GRAPHIC] [TIFF OMITTED] T9521.042
    
    [GRAPHIC] [TIFF OMITTED] T9521.043
    
    [GRAPHIC] [TIFF OMITTED] T9521.044
    
    Mr. Burton. Thank you, Mr. Varrone. We do appreciate very 
much your candor and your dedication. I think all of the 
agencies that are dealing with the drug trafficking deserve 
accolades because there is a great deal of risk involved and 
you lay your lives on the line on a regular basis, and we do 
appreciate that.
    One of the things that concerns me is the politicization of 
the drug problem. The Cuba issue, Mr. Ledwith, that you talked 
about, the information, much of the information that you 
received came from Cuban authorities as I understand it.
    Mr. Ledwith. Yes, sir, some of it came to us from Cuban 
authorities.
    Mr. Burton. Well, the Cuban authorities, we had a tape that 
I was going to subpoena from DEA that we showed yesterday. That 
tape showed a man who landed his plane in Cuba and he said he 
had engine troubles, he got false documents from the Cuban 
Government saying that there were engine problems and that is 
why he force landed there. He was carrying drugs, cocaine. And 
the Cuban Government was complicitous because they were lying 
about why he landed in Cuba. Mr. Sierra, in the Prensa Latina 
said that the 7.2 metric tons, or 7.25 metric tons that was 
coming out of Colombia was destined for the United States.
    Now some people in DEA and others have said well, the Cuban 
official was saying that the drugs were coming but were going 
to Spain and not to the United States. Then we heard that that 
was not even going to go to Cuba, it was going to go to another 
location and then go to Spain. You hear all kinds of things 
like that. But the fact of the matter is from government 
officials, our government officials, we have been told that 
what Mr. Sierra said was an accurate statement that he made. He 
made that statement and the only shipment of that size that was 
going to Cuba during that time period or through the Caribbean 
during that time period was this particular shipment. This did 
not come from DEA, it came from another government agency that 
is very reliable.
    I hate to see political statements made by any official of 
our government, DEA or any others, that is not really accurate, 
when we put members of the various agencies under oath like we 
did you today, and I fully presume that you did tell the truth 
to the best of your knowledge. But the fact of the matter is 
the information that we have from other agencies is that that 
7.2 metric tons definitely was the only one of that size going 
through the Caribbean at that time or scheduled to go through 
the Caribbean at that time. There had been several other 
shipments of that type to Cuba, not just 4 but as many as 7 or 
8, and if you add all that up, it could amount to as much as 50 
or 60 metric tons of cocaine going into Cuba.
    You said I believe in your opening statement that the 
amount going to Europe was 40 metric tons. If the information 
we received is correct, more than that was going into Cuba from 
Colombia on seven ships that transitted it. We have been told 
by DEA that usually when somebody is sending a shipment of that 
magnitude, that they have planned that and done that before, 
they just do not send seven metric tons of cocaine in unless 
they have a pretty good idea it is going to get to its 
destination.
    But let us assume the worst or the best, let us say that it 
was not going to the United States, that it was going to Spain. 
The fact of the matter is, Cuba is a major drug transit point 
in the Caribbean. You said 49 percent of the drugs goes through 
Haiti, the cocaine goes through Haiti; you said 29 percent goes 
through the Bahamas--49 percent of the total 110 metric tons 
goes through Haiti, 29 percent you estimate goes through the 
Bahamas and only 1.7 metric tons goes through Cuba. This one 
load was 7.2 metric tons. And from other sources, we believe 
there were at least seven shipments like that, that is 49 
metric tons. So I do not know where you came up with this 1.7 
metric tons, but I would like for you to tell us.
    Mr. Ledwith. This is the estimate provided by the 
Interagency Assessment of Cocaine Movements, which DEA is a 
participant. We are not the author necessarily of these 
figures. These are the figures that the interagency community 
produces for their assessment of cocaine shipments, sir.
    Mr. Burton. Yes, sir.
    Mr. Ledwith. It is not solely derived from DEA figures.
    Mr. Burton. No, I understand. But when you make a statement 
like that, you are speaking for a very important agency, one 
that does great work and I am not here to criticize you because 
I think you guys risk your lives, like I said to Customs 
agents, I do not think I would like to do that.
    But the fact of the matter is there is multiple shipments 
going out of Colombia, according to our sources, many of those 
sources in our government, not through DEA, other sources. I am 
not at liberty to tell you those because they have given us 
information they do not want us to talk about. They were 
talking about the jealously between agencies, I suppose this is 
part of it. But they told us that this 7.2 metric tons was 
definitely going to Cuba and that that was the only ship with 
that amount or shipment of that amount that was going through 
at that particular time, it had to be going to Cuba and Mr. 
Sierra said it was going to be destined for the United States. 
Seven of those shipments we believe were made during that time, 
that year, which is 49 metric tons. And I cannot believe that 
one agency of our government would indicate that kind of a 
quantity is going through Cuba and this consortium of this 
agencies that you are talking about says that only 1.7 metric 
tons goes through there.
    One of the concerns that we have--and I hope my colleagues 
will bear with me for just a second--one of the concerns that 
we have is that we passed what was called the Helms-Burton law. 
I was one of the authors of that bill. It was to create a very 
strong embargo against Castro to end the last Communist 
dictatorship in our hemisphere. All the other countries have 
been democratized. The administration did not want to sign that 
law, but because two airplanes were shot down by Russian MiGs 
that were owned by the Cubans, the President then negotiated 
with me and Senator Helms and others and he did sign the bill. 
Now they are trying to weaken the embargo and they are trying 
to normalize relations with Cuba and one of the things that 
flies in the ointment is Cuba being a major transit point of 
drugs. And so information we are getting about Cuba, we 
believe, not because of you, may be tainted because of 
political goals of the administration. And I think that is very 
unfortunate because the drugs are coming into Cuba. We believe 
a large part of those are destined for the United States and 
kids are dying, people are being addicted for life.
    The heroin, I do not know how much heroin is going through 
Cuba, if any, but in Baltimore, MD right now, 1 out of 17 
people in Baltimore, MD are addicted to heroin and one of the 
council members there says he believes it is as high as 1 out 
of 8. It is an absolute epidemic. And so I believe the 
administration and our agencies ought to be very forthright 
with us and tell us where the conduits are.
    So I believe that you are accurate with Haiti, I think that 
is a major conduit, I believe the Bahamas are a major conduit, 
and I believe our Attorney General from Puerto Rico was 
accurate when he said that we need to put more resources into 
places like the Caribbean and Puerto Rico.
    But to say that Cuba only had 1.7 metric tons of cocaine 
going through there when one shipment was 7.2 metric tons and 
another agency of our government says it definitely was going 
to Cuba is a misrepresentation. And I am not saying it is 
because you are misrepresenting it, maybe the information you 
got was not accurate.
    But I believe that as much as 50 metric tons are going 
through Cuba and for some political reason, maybe to normalize 
relations with Cuba, that is being kept under cover.
    If you have a comment, I will let you comment and then I 
will yield to Mr. Mica.
    Mr. Ledwith. Sir, I can only presume that the agency that 
you referred to that provided you with that information is a 
participant in the Interagency Cocaine Movement Assessment and 
I would be very happy to work with you or members of your staff 
to make sure that those figures are incorporated.
    I can only provide you what--this is not DEA's paper, as I 
say, this is the IACM's paper. It is an interagency effort, it 
is not based solely on DEA's statistics, it is agreed to by the 
interagency community before publication.
    Mr. Burton. Yes, sir.
    Mr. Ledwith. So I can only tell you I would be out of place 
to provide you with any other statistic.
    Mr. Burton. Well, what we will do is I will try to find out 
if I can provide you with the information we have and perhaps 
that can be put into the mix.
    Mr. Ledwith. And we will be very happy to incorporate that, 
sir.
    Mr. Burton. Thank you, Mr. Ledwith.
    Mr. Mica.
    Mr. Mica. Let me just followup, if I may, Mr. Ledwith, with 
some questions on the same seizure that the chairman was 
referring to, the 7.3 metric tons. I thought I read in your 
report the Cuban Police gave to the Colombian National Police 
indicated a search of the premises and they also found four 
containers that appeared to have been outfitted with false 
compartments. This is in addition to the 7.3 metric tons.
    Mr. Ledwith. Yes, sir, that is correct.
    Mr. Mica. So again, I think the chairman was raising a very 
valid point. Now whether this is headed for Spain or the United 
States, you are still talking about an incredible volume of 
cocaine transitting through Cuba; is that correct?
    Mr. Ledwith. If these facts as reported to us by the Cuban 
Police are accurate, sir; yes.
    Mr. Burton. It says none of the agencies investigating this 
have been able to obtain direct evidence that any of the 
containers in the four shipments described above contained 
cocaine; is that correct? But I was told at the hearing that we 
conducted in November that there was residue, whether it was 
planted or--do we know whether there was residue in those?
    Mr. Ledwith. There was a dog, cocaine sniffing dog that 
alerted on one of the containers and that gave rise to the 
residue remark. There was not actual cocaine recovered in the 
sense that it could be used in an evidentiary manner. A cocaine 
alerting dog alerted to it.
    Clearly we are concerned, sir, DEA is extremely concerned 
with any utilization of Cuba for trafficking. Our concern also 
is for Europe. One of our concerns would be the incredible 
strength that can be generated both economically and corruptive 
potential to gangs in Colombia by sale of cocaine to Europe 
either.
    Mr. Mica. If the chairman is correct--and excuse me for 
interrupting, I do not have a lot of time on this--but if the 
chairman is correct and we had a 7.3 metric ton and we had 
three or four containers that may have also been used in 
shipment, we are talking--again, the chairman has got to be 
close to correct, simple math would bring you up in the 40-50 
metric ton range. The entire amount of shipment for Europe was 
somewhere around 40 metric tons.
    Mr. Ledwith. That was what was seized, sir.
    Mr. Mica. Yes, seized, exactly. This is a phenomenal 
amount.
    Mr. Ledwith. Yes, sir.
    Mr. Mica. I was somewhat skeptical before I held the first 
hearing until we started getting evidence on this, and it 
appears that Cuba, is in fact, a major transit route. Now, 
whether it is coming to the United States, we cannot confirm, 
but we know it is a transit route.
    The second thing is, did DEA recommend to the 
administration--now the President and the administration put a 
list out of major trafficking countries and identifies them. 
Did DEA, to your knowledge, recommend to the President that 
Cuba be placed on this list? The hearing we held was right 
after the President did not put Cuba on this list. What was the 
DEA's recommendation, to your knowledge?
    Mr. Ledwith. Sir, I do not have immediate knowledge of it. 
We make recommendations to the Department of Justice, which are 
incorporated in a deliberative process.
    Mr. Mica. Well, based on the information you have, would 
you not think it would be a candidate to be placed on that 
list?
    Mr. Ledwith. It is not a recommendation that I am able to 
make, sir, at my level. Quite honestly, it is not something for 
me to do. Based on the information that we are developing, it 
is certainly something that should warrant a close look.
    Mr. Mica. Is this case closed?
    Mr. Ledwith. No, sir, it is not, as to the 7.254 tons, sir, 
it is being actively and aggressively pursued. You can take my 
word for it, I am not going to mislead anyone on this issue. 
And it will be, with a certain element of luck as is involved 
in any investigation, will be successfully concluded in the 
foreseeable future.
    Mr. Mica. If I may, let me shift over to Customs for a 
second. I went down to the southern Caribbean, the area 
actually around the Cuban coast and flew in one of the Customs 
planes, the military planes. We witnessed ships, old container 
ships and commercial vessels, zig-zagging in and out of the 
Cuban waters. Is that still pretty much the pattern of activity 
using Cuban waters as a refuge for people who may have illicit 
cargo.
    Mr. Varrone. As indicated by the air tracks; yes, sir, the 
air tracks and our marine operations, we believe that they use 
Cuban waters as a staging area.
    Mr. Mica. We also looked at the go-fast boats, some of 
those were being produced in Jamaica on the coast. Has that 
operation been closed down or are they still producing the go-
fast boats there?
    Mr. Varrone. I do not know if that particular operation has 
been closed down.
    Mr. Mica. Where are they producing the go-fast boats?
    Mr. Varrone. I do not know.
    Mr. Mica. You do not know. Well, I was briefed on that and 
they told me it was on the northern coast, they even told me 
that the engines for the go-fast were being purchased in the 
United States, and we are tracing that back, and being 
purchased by a Bahamian who was involved in organizing some of 
the traffic through the Caribbean area. Is that--does anyone 
have knowledge of where we might be on that?
    Mr. Vigil. I might be able to answer that. You know, there 
is still production being conducted of Yolas, what they call 
Yolas. They are somewhat go-fast boats. However, it is very 
difficult to shut down the entire operation, quite simply 
because a lot of people use that as fishing boats and they use 
that in terms of livelihood. They are not only used for drug 
smuggling operations. We do have several ongoing investigations 
in Jamaica in terms of individuals, drug trafficking 
organizations that do use go-fast boats, but again, they are 
not entirely used for drug trafficking activities or 
enterprises.
    Mr. Mica. Last thing, Mr. Chairman, and I would like an 
update on that whole situation and also whether the individual 
who was identified, who was the Bahamian ring leader, if he has 
been brought to justice and whether they are still producing 
most of them in Jamaica.
    Mr. Chairman, we heard numbers of personnel here, 209 in 
1982 I guess. Can we get some historical perspective on the 
number of Customs personnel? I do not know whether you have 
those figures available, what we had 4, 5, 6, 7 years ago 
versus what we have now. We heard a little bit about INS, but I 
want to know about Customs personnel in Puerto Rico and also 
the Virgin Islands area that you discussed.
    Mr. Varrone. Can we submit those to you, sir? I do not have 
those numbers with me.
    Mr. Mica. Are we up, down or what?
    Mr. Varrone. The numbers are static right now.
    Mr. Mica. Static to what, a year ago, 2 years ago?
    Mr. Varrone. It has been between on board and what the 
table of organization states, anywhere between 66 and 80 
special agents, 82 is what I think the number is. It 
fluctuates. We have similar problems as DEA and our other 
Federal agencies do with retaining staffing because of 
conditions transferring people to Puerto Rico, with incentive 
packages. We are actually working on a package right now in 
Washington that will try to parallel some of the incentives 
that DEA and other Federal agencies have.
    Mr. Mica. Mr. Chairman, if we could insert in the record at 
this point a historical description of the personnel for 
Customs, I would appreciate that.
    Mr. Burton. Without objection, we will do that. And I would 
like to have maybe that from DEA and the other agencies as 
well. If you could give us some perspective over the last say 
10 years, it would help us a great deal.
    Mr. Barr.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.045
    
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Ledwith, what we consider artificially low estimated 
cocaine flow through Cuba that the chairman was discussing with 
you and I think Mr. Mica also previously, you have indicated 
that in your view that reflects a consensus opinion, I suppose, 
of the IACM. DEA does not agree with those artificially low 
assessments, does it?
    Mr. Ledwith. We were a participant in establishing those, 
sir, but clearly we are in the process of re-assessing those 
based on information----
    Mr. Barr. Did DEA file a dissent to those low figures?
    Mr. Ledwith. I could not answer that, sir. I do not believe 
DEA filed a dissent to these figures as published. I believe 
these are a year or two old, as is the general nature of making 
these assessments also, sir. So I would have to make a 
determination as to today's DEA opinion, if you will, sir, on 
the reliability of those numbers.
    Mr. Barr. If you carry some weight with Mr. Marshall, who 
will have confirmation hearings hopefully early in the year, 
would you urge him to be a little more forceful in these 
meetings?
    Mr. Ledwith. Yes, sir.
    Mr. Barr. I would appreciate that.
    You indicate in your testimony that, quote, to date--well, 
let me not put in quotes what ought not to be. On page 5 of 
your testimony, you indicate that there are a number of 
agencies, including DEA that continues to investigate very 
thoroughly the 7.3 ton cocaine seizure in Cartagena and you 
state that ``to date, have not developed direct evidence of the 
ultimate destination of the cocaine.'' Does that mean that it 
may have been destined for the United States, you just do not 
have any evidence yet to say conclusively one way or the other 
that it was or it was not?
    Mr. Ledwith. That would be correct, sir, we do not have 
direct evidence that would indicate a definitive location that 
that was going to.
    Mr. Barr. So DEA cannot, based on all of the evidence thus 
far, rule out the United States as being the ultimate source?
    Mr. Ledwith. Based on direct evidence, that would be 
correct, sir.
    Mr. Barr. Where then did the President get his evidence 
that he stated publicly on November 10, ``their judgment 
remains that Spain and not the United States was the intended 
final destination.'' And the ``their judgment'' that he is 
referring to is our intelligence agencies. Where did he get 
that information?
    Mr. Ledwith. It is DEA's position to this point, sir, that 
we do not have direct evidence. We have indications that it was 
headed to Spain but we do not have direct evidence at this 
point.
    Mr. Barr. So the statement of the President is not 
supported by DEA.
    Mr. Ledwith. I would not be able to say that, sir. I would 
only be able to answer--I certainly cannot----
    Mr. Barr. If I said is the following statement, Mr. 
Ledwith, consistent with evidence of DEA, ``their judgment 
remains that Spain and not the United States was the intended 
final destination.'' You could not agree with that, could you?
    Mr. Ledwith. No, sir, I would not say that. I would say 
that at this point, that is an accurate representation. Our 
indications were that it was headed to Spain. Clearly, we do 
not yet have direct evidence, but there is a significant 
difference between indications the way the investigation is 
developing at this point, and direct evidence.
    Mr. Barr. Like we were saying a little bit earlier, you are 
sort of backtracking now. Maybe that is my fault for trying to 
pin you down. Heaven forbid that we should try and pin people 
down.
    I do not think the problem is yours, but I think what you 
are trying to do is support a political judgment that the 
President has made that is a wrong judgment, that is not 
supported by the facts. I understand the predicament that you 
are in. You are not a policymaker.
    Mr. Ledwith. No, sir, I am an operator, I have 31 years as 
an operator, not a policymaker.
    Mr. Barr. The one thing that I have always respected 
tremendously in DEA is your law enforcement. You operate on the 
law and on the evidence and the investigations and you take 
them where they lead you. What we have been witnessing and I 
think this is what the chairman was referring to a little bit 
earlier, what we are witnessing is sort of a bastardization of 
that process now for apparent political reasons, the judgments 
being made at the White House, at the top policy levels, that 
are not supported by the best interests and the best evidence 
of law enforcement, and that is disturbing to us.
    We see reports such as the one in October 20, 1999 in the 
Miami Herald of meetings between--meetings in Cuba of top level 
drug traffickers. We have reports that--and I would appreciate 
your view on this--what is the status of the draft 1993 
indictment of Raul Castro and others, including the institution 
of the Cuban Government itself for drug trafficking?
    Mr. Ledwith. I have limited knowledge of that. My 
understanding of it, it was referred back to the Department of 
Justice in Washington and not acted upon. I would not be the 
expert person that could speak to that particular issue. That 
is my understanding.
    Mr. Barr. Have you ever seen a copy of that draft 
indictment?
    Mr. Ledwith. I have not, sir, no.
    Mr. Barr. Does it exist? One would presume that it does.
    Mr. Ledwith. It would be a presumption on my part, sir, but 
I would presume it exists.
    Mr. Barr. On my part too.
    Mr. Chairman, I think we might want to take some steps, 
either through subpoena or other means, to obtain a copy of 
that because it is another indication--U.S. Attorneys, Mr. 
Martinez having been a very distinguished U.S. Attorney, do not 
draft indictments based on will of the wisp information. Even 
though it is a draft, a draft indictment prepared by a U.S. 
Attorney's office, including one with such a distinguished 
record of drug prosecutions as the Miami U.S. Attorney's 
office, draft an indictment based on very substantial evidence, 
and I think the fact that this indictment was drafted indicates 
that there is very substantial evidence, even as far back here 
as prior to 1993 when these reports of this draft indictment 
surfaced, that Cuba has been intimately and very vigorously 
involved in drug trafficking in and of itself as well as as a 
transshipment point. So I would appreciate it if we could make 
some efforts to obtain a copy of that draft indictment.
    Mr. Burton. We will. I think with your acquiescence, we 
will send a letter to Attorney General Reno asking for this 
draft indictment. If they are not forthcoming, I will be happy 
to issue a subpoena to try to get that for us.
    Mr. Ledwith. Mr. Chairman, might I respond for a moment to 
one of Mr. Barr's questions, please?
    Mr. Burton. Sure.
    Mr. Ledwith. I would just like to say for the record that 
DEA is an apolitical agency and if we had evidence, direct 
evidence or if we had indications that that load was headed to 
the United States, the 7.2 ton issue that we are speaking of, I 
would be standing before you here saying that that is the case. 
Irregardless----
    Mr. Barr. I have no doubt that that is the case.
    Mr. Ledwith. I would come here before you and say, despite 
what anybody else may be saying, it is our position that if we 
had those indications or evidence that it was headed to the 
United States, as to that particular 7.24 or 5 ton seizure. We 
are not a political agency and quite honestly, sir, I am not a 
very political person. I am here to tell you the truth as best 
we can see it, and that is what we are doing.
    Mr. Barr. I appreciate that and I know that is the case 
from my personal experience as a U.S. Attorney with DEA, and 
since then as a Member of Congress. The problem I think is 
where you have an administration that does not take that view. 
They may not ask the questions because they do not want to hear 
the answer that you might give them. The President I think--I 
do not know, Mr. Chairman, did he ever meet with Mr. 
Constantine on these matters? I think there has been testimony 
that he just never even asked for briefings, so that therefore, 
they can make statements like this one in November that have no 
basis in legitimate evidence or fact, and DEA is not often 
given the opportunity to participate and provide that objective 
evidence that you and your colleagues would. But that is not 
your problem, that is a problem at a higher level that we have 
to face.
    Mr. Burton. Let me just say to my good friend, Mr. Ledwith 
from DEA before I yield to Mr. Ose, that I had some of the 
officials from DEA into my office along with one of the people 
that was involved in DEA's activities in Latin America and 
Colombia and there was some discussion between DEA and the 
White House about this shipment and one of the individuals--I 
think there was some misrepresentation of it. I am not sure 
whether it was because there was pressure put on them or what, 
but I think there was some misrepresentation, and so I think 
that one of the things that everybody ought to ask is why would 
Rogelio Sierra, who is a spokesman for the Cuban Ministry of 
Foreign Relations, say that 7 tons of Cuban-bound cocaine 
seized in Colombia was destined for the United States? He says 
or they are now saying that that was a mistake, he was talking 
about another shipment that was going through the Caribbean 
that was destined for Spain. But the other agency I talked 
about said there was no other shipment close to that size 
during that time period. So it appears as though Mr. Sierra and 
the Cuban Ministry down there was trying to cover their 
derrieres after he had a slip of the tongue that got in the 
paper, Prensa Latina.
    But I do not want to belabor the point, you are going on 
with your investigation and I hope you will keep us informed 
and I appreciate--I know we have put you on the spot today and 
I apologize for that, I think that you have handled yourself 
very well.
    Mr. Ledwith. Thank you.
    Mr. Burton. Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman.
    First of all, I want to express my appreciation to Mr. 
Varrone and his many colleagues at the Miami International 
Airport. I had a very interesting 3 hour visit with them when I 
came in on Sunday night. We actually----
    Mr. Barr. You were not detained for 3 hours, were you?
    Mr. Ose. I was not detained--thank you, Mr. Barr----
    Mr. Barr. You might want to clarify that for the record.
    Mr. Ose. I was actually invited to witness or watch their 
operations and in the course of that 3 hour period, they were 
able to detain one person on a wants and warrants check for 
stalking, another person for a nominal amount of marijuana they 
were bringing in on their person and then one of the rovers on 
the Customs floor, by sight, picked out a guy that was packing 
8,000 pills of Ecstacy headed to the South Beach area for 
retailing. Mr. Varrone's colleagues, man, they just picked him 
out and it was just a thing of beauty to watch. [Laughter.]
    Mr. Barr. Based on tangible, articulable evidence. 
[Laughter.]
    Mr. Ose. Listen, you are the attorney, I am just sitting 
here telling you what I saw. They just nailed the guy and it 
was a thing of pleasure to watch. So my compliments to you and 
your colleagues.
    I want to go back and clarify something, Mr. Ledwith. On 
your testimony here, if I understand the dilemma we are facing 
here, it is that this chart on page 2 refers to estimates of 
cocaine headed to the United States and the dilemma that we 
have as it relates to this 7.2 metric tons is that DEA judged 
that to be going to Spain, so it was not included in this 
chart.
    Mr. Ledwith. And I appreciate you pointing that out, sir, 
that is accurate.
    Mr. Ose. Is that accurate? We heard testimony yesterday and 
I have heard it here a little bit today about that not being--
that 7.2 metric ton container being not the only--I cannot even 
talk right now. Not the only container that was considered to 
have been shipped, just on the basis that being that that 
volume or amount of cocaine would not be shipped through a 
channel that had not been tested, for instance.
    Mr. Ledwith. That is a very accurate assessment. The 
traffickers would not risk a quantity of that size and 
magnitude until they had tested the pipeline with smaller 
shipments. They would build to that size shipment, because the 
risks are enormous.
    Mr. Ose. I was doing some math up here and I have lost the 
numbers, but it is somewhere on the order of half a billion 
dollars worth of cocaine. I may be off by an order of 
magnitude, but that number----
    Mr. Burton. The 7.2 metric tons?
    Mr. Ose. Yes.
    Mr. Burton. It is $1\1/2\ billion.
    Mr. Ose. $1\1/2\ billion. Well $500 million or $1\1/2\ 
billion, that is a heck of a lot of cocaine. I want to make 
sure I understand, that while that 7.2 metric ton shipment, in 
DEA's opinion, was destined for Europe, there is evidence, 
logical or otherwise, to suggest that other shipments had gone 
down that delivery channel, if you will, previous to that, 
headed for both Europe and possibly the United States?
    Mr. Ledwith. You could say that, sir. We cannot say with 
any kind of definitive answer exactly where those other 
shipments went. We can say that there were certainly, in our 
opinion, other shipments, because they would not risk that 
amount of drugs without testing that system. There is evidence 
that there had been at the very least four prior shipments.
    And Mr. Chairman, as Mr. Ose points out, I apologize, but 
the 1.7 reference was to drugs that could be definitively said 
were going through Cuba toward the United States and I believe 
that thus this 7 ton shipment might not have been part of those 
numbers and that is the mathematical problem that you mentioned 
earlier. But yes, sir, there would have been other shipments.
    Mr. Ose. Through Cuba, destined somewhere.
    Mr. Ledwith. Yes, sir.
    Mr. Ose. In the opinion of DEA.
    Mr. Ledwith. Yes, sir.
    Mr. Ose. All right. Do the organizations that push that 
kind of volume traffick in both Europe and the United States?
    Mr. Ledwith. Absolutely, sir.
    Mr. Ose. All right. Have you run into any drug trafficking 
organizations recently moving that kind of volume to both 
Europe and the United States?
    Mr. Ledwith. Yes, sir.
    Mr. Ose. OK. Through Cuba?
    Mr. Ledwith. No, I cannot say through Cuba. When you asked 
me have we run into organizations shipping those kind of 
volumes----
    Mr. Ose. I understand. Let me rephrase my question. Have 
you run into any--have you recently run into any drug 
trafficking organizations shipping that quantity of drugs 
through Cuba to either Europe or the United States?
    Mr. Ledwith. No, sir.
    Mr. Ose. You have in December 1998, the 7.2 metric tons 
came from an organization headed toward Europe.
    Mr. Ledwith. Yes, sir.
    Mr. Ose. In the DEA's opinion. But there has been no 
similar conclusive position on DEA's part of a similar shipment 
headed through Cuba to the United States?
    Mr. Ledwith. To this point, no, sir, we do not have any.
    Mr. Ose. And you have a number of ongoing investigations, I 
am confident of. Do you have a number of ongoing investigations 
in this regard?
    Mr. Ledwith. We do, sir. We are constantly examining those 
issues from our respective offices in the Caribbean and South 
America and the United States. To this point, I can say that we 
do not have evidence of organizations shipping enormous loads 
of cocaine both to Europe and the United States through Cuba. I 
do not have that at this time.
    Mr. Ose. My time is up. Thank you, Mr. Chairman.
    Mr. Burton. If you need more time for questioning, we will 
come back for another round.
    Mr. Barcelo.
    Mr. Romero-Barcelo. Thank you, Mr. Chairman.
    I would like to thank Mr. Ledwith and Mr. Vigil and Mr. 
Varrone for the job that you are doing in Puerto Rico and I 
think everyone is very impressed and very happy with it.
    I would like to ask Mr. Vigil something about when you 
discussed the problems in the security of the agents in Puerto 
Rico. What were you referring to because I would like to know 
and see how I could be helpful, if any, in helping that issue.
    Mr. Vigil. I appreciate the question. I was feeling kind of 
abandoned here, Mr. Romero-Barcelo.
    Mr. Ose. Just wait, Mr. Vigil, we will get to you.
    Mr. Vigil. The security issues are, as you know, there is a 
high crime rate in Puerto Rico. Obviously it has gone down 
significantly as a result of the efforts not only at the 
Federal level but at the State level. One of those, you know, 
deals with street crime. We recently had an individual that was 
at a business and there was an armed robbery attempt that 
occurred and the individuals that conducted the assault put a 
gun to his head.
    Several months ago, we had an individual that was on his 
way home, his vehicle broke down and he had to walk about a 
mile to his residence, came back with his wife, told his wife, 
look, stay in the car, if anything happens, drive away from the 
area. He starts to work with the vehicle's battery and sure 
enough not more than 5 minutes had elapsed when a vehicle 
pulled up and an individual exited the vehicle and approached 
him carrying a hand gun and he demanded money. At that time, 
his wife started to move away from the area and the individual 
points the weapon at her and he happened to be armed, pulled 
out his weapon and fired two shots. One of the bullets struck 
the vehicle that he was in and the other one struck him on the 
left side of his chest. Later, the suspect reported to a 
hospital in the immediate vicinity and he was given emergency 
treatment. He died a few minutes later.
    The same individual some time back was at an ATM machine 
and there was an attempted robbery.
    Mr. Romero-Barcelo. The same agent?
    Mr. Vigil. Same agent. There was an attempted robbery, he 
fired several rounds and struck the suspect. Did not kill him, 
but I think there were about three bullet impacts.
    I have had a group supervisor whose home was invaded by 
several individuals carrying weapons, his entire family was put 
on the floor and held at gunpoint and eventually he was able to 
wrestle one of them and they fled the area.
    So those are the type of things that are encountered. As 
Mr. Attorney General Fuentes Agostini stated, we do estimate 
that about 80 percent of the homicides that occur in Puerto 
Rico are drug-related. Obviously we are undertaking measures at 
the Federal level with other agencies and also in cooperation 
with the Puerto Rico Police Department and the Attorney General 
to address a lot of these violent organizations. As you are 
well aware, we assisted you in the Agalateo project, we 
eliminated a very significant drug-trafficking organization 
that engaged in wholesale violence and had complete control of 
that area.
    So there are security and safety issues that we are 
concerned with. Obviously, we are working in a combined effort 
to try and address those, not only with the agencies 
themselves, the law enforcement agencies, but also with the 
local prosecutors as well as with Federal prosecutors.
    Mr. Romero-Barcelo. Are you doing any recruiting, active 
recruiting in Puerto Rico for agents?
    Mr. Vigil. We do a tremendous amount of recruiting in 
Puerto Rico. Obviously the Spanish language is very important, 
so we focus very heavily in terms of minority recruiting. I 
would venture to say that the vast majority, you know, we have 
gotten a tremendous amount of excellent recruits out of Puerto 
Rico.
    Mr. Romero-Barcelo. Because I was going to suggest that if 
you need any help on organizing any kind of special programs in 
the colleges or universities, I would be very glad to sit down 
with you and sit down with the president of the Higher 
Education Council and the secretary of education and discuss 
that and see any special courses that could be prepared so that 
the students would feel that they would have an opportunity at 
least to try for positions in the DEA or Customs or the Coast 
Guard or whatever.
    Mr. Vigil. I appreciate that and we will sit down and 
discuss that. We do actively engage in recruitment, the 
recruitment process, at the universities. We attend job fairs 
and obviously we do a lot of recruiting from the Puerto Rico 
Police Department and other agencies. You know, at the same 
time, they are engaged as task force officers in our task 
forces.
    Mr. Romero-Barcelo. Thank you very much. My time is up.
    Mr. Burton. Let me just make a couple more comments and ask 
a couple more questions of Mr. Ledwith.
    Mr. Ledwith. Yes, sir.
    Mr. Burton. Told the Miami Herald that the Colombian drug 
traffickers had held a meeting in Havana on at least one 
occasion. And you said that Cuba's counter-narcotics efforts 
have been mixed. It seems to me--we had testimony yesterday 
from two people who used to be involved with the Cuban 
Government. One of the fellows was in the Department of the 
Americas, his wife was the daughter of one of the people that 
were executed, a Colonel that was executed with General Ochoa. 
So they were very, very high up in the government and they went 
into great detail about Castro's activities with narcotics and 
how they gave bags of money, splitting it up in the Interior 
Ministry, which is their intelligence agency, giving half to 
Castro and half to the others. And when he eliminated these 
people, then Castro could get all of it, and much of this was 
drug-related.
    So we have a lot of evidence that shows that Castro has 
been involved in the drug trafficking. This meeting, which has 
been talked about by Mr. Mazelli with leaders of the drug 
cartel meeting in Havana on at least one or two occasions would 
indicate that Castro was giving his stamp of approval or 
getting something for that meeting. He knows everything that is 
going on in Cuba, according to every source we have talked to. 
They have block captains watching people who are dissidents, 
who get upset with the Castro government, in almost every block 
or every other block, just like the Communist set up in the 
Soviet Union years ago to watch people who were potential 
problems for the government. And many of those people have been 
incarcerated and thrown into prison for indeterminate periods 
of time. So Castro knows what is going on. He is involved, 
deeply involved, in watching everything to protect his regime.
    Now Mr. Mazelli says that on two separate occasions, or at 
least one occasion, the leaders of the cartel have been in 
Havana. How can we say that the Cuban Government's cooperation 
is mixed, if they are actually having drug cartel members there 
for meetings, and we know that drugs are transitting Cuba? And 
how can we believe them when they say that drugs were going to 
a different area or that the dogs were sniffing--the police 
there said that dogs were sniffing canisters and finding 
Spanish money in them and remnants of cocaine--how can we 
believe them?
    Mr. Ledwith. Sir, we cannot.
    Mr. Burton. Well, then how do you verify that and how do 
you say that there is mixed----
    Mr. Ledwith. When I say that there is mixed reviews, I am 
in the very awkward position of defending Cuba's actions in the 
drug war, which I do not believe that Cuba has done everything 
that they possibly can in any fashion and I have so testified. 
If we look at the diminished tracks coming across Cuba that my 
colleague from Customs pointed out this morning in his 
testimony, I do not for a minute feel that that is a result of 
their fear of Cuban interdiction efforts. I feel that it is 
solely a result of a logistical change and it is easier to go 
someplace else. The Cubans have not effectively patrolled their 
waters, their air, nor have they assisted us in the methods 
that I feel they should assist us. It is a closed community. It 
is, as you mentioned earlier, sir, a very restrictive 
environment. We do not have anybody stationed there, nor are we 
able to go there and effectively operate. And if we went there, 
I am not sure we could believe what they told us.
    Mr. Burton. Well, let me just say regarding them patrolling 
their waters, and I am just saying this for the record because 
I think it is important to be in the record of this hearing, 
the March 13th tugboat containing women, children, they washed 
them off the decks, they drowned them all, they killed them 
all. If they can patrol and watch people leaving Cuba trying to 
get to freedom in the United States, if they can shoot down two 
unarmed aircraft and send up MiGs to intercept people that are 
flying into Cuban air space, they sure as the dickens can watch 
people going in and out of Cuban waters, participating in the 
drug trade.
    Mr. Mazelli also described a situation where the Cuban 
Government was facilitating--in his opinion, facilitating drug 
shipments by not arresting these men when they were there. So I 
think during that time period when he was talking to the Miami 
Herald, he was saying very clearly that he thought Cuba was 
very complicitous and involved.
    Mr. Varrone--oh, excuse me, did you have something?
    Mr. Ledwith. We have on many occasions heard from 
undercover contacts that the crooks feel very comfortable 
meeting in Cuba, they feel that they will be completely free of 
United States surveillance, intervention, T-3s or any varieties 
of technical interceptions because of the very nature of Cuba. 
I think that would be an accurate statement.
    Mr. Burton. Let me end my questioning here real quickly to 
Mr. Varrone. Has the Customs Service received any reliable 
intelligence from drug traffickers in recent months that Cuban 
authorities do not bother you when you are moving drugs through 
the island?
    Mr. Varrone. Yes, sir, we have heard that from a variety of 
sources. The credibility of sources are always in question, the 
sources that we have heard it from are cooperating defendants 
who are pending sentencing and the amount of credibility that 
you can give to that is always----
    Mr. Burton. But it is not one source, there are a number of 
sources?
    Mr. Varrone. We have heard it from more than one source; 
correct, sir.
    Mr. Burton. OK. My staff has been told by Customs agents in 
Miami that as much as 98 percent of the drugs coming into the 
Port of Miami get through undetected, is that correct?
    Mr. Varrone. I do not believe that is accurate, sir.
    Mr. Burton. You think it is much less than that?
    Mr. Varrone. I think we are more effective than that; yes, 
sir.
    Mr. Burton. OK. All right, I guess the only other thing is 
what does the Customs Service need to do to be more effective 
in stopping the drugs at the Port of Miami and in Puerto Rico? 
If you can give me a generic answer to that, is it more money, 
more agents, what?
    Mr. Varrone. Well, we have H.R. I think it is 1833 that 
Senator Mica has--I am sorry, Congressman Mica has sponsored. 
[Laughter.]
    Mr. Ose. I will vote for that.
    Mr. Burton. Did he pay you to say that? [Laughter.]
    Mr. Varrone. Which is a resource request for the service. 
Our resources have been static and I know particularly in the 
Miami area that they have been static and I believe that they 
could use more people and the production that we get from our 
people is very high. So I think that would be very helpful.
    Mr. Burton. I will co-sponsor the bill and see if we cannot 
help you out.
    Mr. Mica.
    Mr. Mica. Thank you. I have a couple of questions as we 
start this second round here. Mr. Ledwith, how long have you 
been in your position?
    Mr. Ledwith. I have been the Chief of International 
Operations with DEA since May of last year, sir.
    Mr. Mica. Are you familiar with any of the DEA operations 
in Haiti?
    Mr. Ledwith. Somewhat, sir.
    Mr. Mica. I am absolutely baffled by the situation that has 
developed here. It looks like Haiti is becoming a major conduit 
in drug trafficking. Is that a correct assumption?
    Mr. Ledwith. I think that would be an accurate statement, 
sir.
    Mr. Mica. Because we have spent $3 to $4 billion in nation-
building. We have spent an incredible amount of resources in 
trying to build the judicial system there and the governmental 
system. Is the DEA working with their officials? Do we have a 
specific drug program in Haiti working with their officials 
that you can relate?
    Mr. Ledwith. From the headquarters perspective, sir, we are 
currently involved in a series of meetings at the Washington 
level to try and replicate Operation Bat which is a helicopter 
interdiction program that has been quite productive and 
successful in the Bahamas, and we are attempting to put 
together the resources to bring such a mechanism to Haiti.
    But I would like to defer to Mr. Vigil if I may, sir, who 
has the responsibility of immediate oversight of Haiti and I 
would ask Mike, if he would----
    Mr. Mica. I would really like to hear that because I cannot 
think of any nation in the western hemisphere in which we have 
put more resources and more U.S. attention and had a bigger 
failure, and now to find out that it is the major conduit. And 
the description that we had from the former Puerto Rican 
Attorney General of drugs coming into Haiti, being transported 
across to the Dominican Republic. And when you get through with 
Haiti, can you tell us what is going on with the Dominican 
Republic, a supposed ally, a good friend. We have also assisted 
that country, but could you describe what is going on, what the 
problems are?
    Mr. Vigil. Let me begin by saying that there are 
significant problems, as we are all aware of, in terms of 
Haiti, the lack of political and economic infrastructure plays 
a very important role in the fact that a lot of Colombian and 
Dominican drug trafficking organizations have moved into the 
area and are using Haiti as a major transshipment point.
    Mr. Mica. OK, we know that. What are our programs?
    Mr. Vigil. Well, we have several programs.
    Mr. Mica. What are we doing, why are they not working?
    Mr. Vigil. Well, the thing is that right now we have a 
program at the Port-au-Prince airport and we work very closely 
with the BLTS. The BLTS is the counter-drug arm of the Haitian 
National Police. They have had some success there.
    Mr. Mica. What about maritime?
    Mr. Vigil. And then we also have a maritime task force also 
at Port-au-Prince.
    Some of the other programs that we have developed there 
along with the Customs Service, we initiated a binational 
operation between Haiti and the Dominican Republic, 
approximately 1 year ago. I thought it was a tremendous success 
in the fact that we were able to bring two countries together 
that have had so much conflict and strife during the past 
several decades. The operation was a tremendous success, we 
garnered a lot of arrests and seizures, but the arrests and 
seizures were not the predominant focus or operational 
objective. What we were trying to do is get them to exchange 
information and work with one another.
    Subsequent to Operation Genesis, the Haitians arrested the 
wife, son and brother-in-law of Heriberto Coneo, who was a 
major drug trafficker. They did not have venue in Haiti, so 
they worked out an agreement with the Dominican authorities and 
they drove these individuals to the border near Malpas and 
turned them over to the Dominican authorities.
    Later, the Haitians requested assistance from the Dominican 
Government in terms of an individual that was responsible for 
several homicides and the Dominicans responded, arrested this 
individual boarding an American Airlines flight in Santo 
Domingo headed for New York. They again drove him over to 
Malpas and turned him over to the Haitians.
    Recently, we conducted Operation Columbus, which was a 
multi-national operation involving 15 countries, to include 
Venezuela, Colombia and Panama, which are to me the countries 
that greatly impact on what we do in the Caribbean. Haiti 
participated in that operation and they arrested what I 
consider to be a very significant Haitian trafficker by the 
name of Edmond Noel, who owns several businesses in Haiti. They 
also executed a search warrant at a residence belonging to two 
individuals that are the subject of an investigation here in 
the United States and they seized 275 kilograms of cocaine, 
seized the residence which is estimated to be valued at over $2 
million and several thousands of dollars of weapons, luxury 
vehicles and what-have-you.
    What they are doing now are what I consider to be embryonic 
steps, but they are undertaking what I consider to be 
significant strides in comparison to what they did in the past. 
We have opened the doors to the international arena in terms of 
this country and I think that they have responded rather well. 
I think that they lack the resources, they lack the training 
and unfortunately we have a police force that up to a year ago 
was about 6,000 strong and now probably has dwindled down to 
about 5,000.
    We have also implemented a program which we call Unicorn, 
it is the Unified Caribbean Online Regional Network and this is 
a computer data base system that links over 20 some odd 
countries and allows them to exchange information with one 
another. So I look at these types of initiatives as very 
significant in terms of the implementation of a comprehensive 
regional strategy and Haiti is, you know, playing a strong role 
in this implementation.
    Mr. Mica. Thank you. I would like to get more information 
from the agencies and we will have additional questions after 
the hearing. Just one final thing, if I may, if my colleagues 
will indulge me.
    This report that we have from the GAO just within the last 
couple of weeks here says according to the Southern Command, 
the command can only detect and monitor 15 percent of the key 
routes in the overall drug trafficking area about 15 percent of 
the time. That is pretty low coverage of the huge Caribbean 
area.
    Then while I was home, some of the headlines in the central 
Florida papers announced the closing of the Aerostat program, 
which is located off of our Gulf coast and they said that other 
Aerostats are being closed down.
    I do know that we have some, what is it, over the horizon 
radar coming in place. Can Customs tell me, or DEA, what kind 
of coverage we anticipate; one, with the close down of 
Aerostats, and also with the information given us by the 
commander of Southern Command here.
    Mr. Ledwith. We will defer to our Customs colleague I 
believe regarding air tracks.
    Mr. Varrone. Mr. Mica, I have not seen that report. Those 
are all DOD assets and as you know, we only operate one 
Aerostat, we only have one Aerostat left.
    Mr. Mica. Are you going to keep that one?
    Mr. Varrone. I believe so, at least in the short term. I 
cannot describe the technological presentation of the radar and 
what areas we cover and what we cannot cover. I have with me 
Bill Daley from our aviation unit, who may be able to give you 
some insight if you would like to hear from him, or we could 
submit some answer to you.
    Mr. Mica. I do not think he has been sworn, has he?
    Mr. Varrone. No, sir.
    Mr. Mica. We do not want to get into that then. But what I 
would like to do is get an assessment from Customs and DEA 
about this entire matter of coverage and how we should approach 
it, maybe your recommendations, and then what is going to 
happen. I think these Aerostats are under the Air Force's 
jurisdiction, but they are coming down and there is a great 
concern in Florida and some of the other areas where they have 
had coverage in the past. So I would like your perspective on 
that, if you would submit that for the record.
    Mr. Varrone. Yes, sir.
    Mr. Mica. Did you want to comment before I yield?
    Mr. Vigil. I would like to make a comment, not necessarily 
on the Aerostats, but I think more importantly is the fact that 
on occasion we do have adequate detection and monitoring assets 
in the Caribbean, and I am talking about ROTHR, P-3, and what-
have-you. But I think more important is the fact that we need 
to address response capability and I think Mr. Fuentes Agostini 
very appropriately brought up the fact that we need some 
Blackhawk helicopters, we need that response capability because 
otherwise, we are going to be able to detect, but we are not 
going to be able to interdict those drug loads. And that is a 
major problem that we have.
    Mr. Mica. Mr. Chairman, they opened themselves up to a 
question here on the Blackhawks. Why can you not have an 
interagency agreement to utilize the National Guard 
helicopters? Do you lack the O&M funds or has that been 
discussed? Someone said we had half a dozen or so National 
Guard helicopters sitting in Puerto Rico----
    Mr. Burton. Eight, I think.
    Mr. Mica. OK. Not being utilized. What is the problem with 
that?
    Mr. Vigil. Well, the thing is that we are working on 
developing this type of response capability as we speak. The 
problem with the helicopters belonging to the National Guard--
and we have conducted several meetings, with a multitude of 
agencies, to include the National Guard there--the funding that 
they are being provided is strictly for military readiness.
    Mr. Mica. Mr. Chairman, maybe we could do a letter from the 
committee. They have eight of these Blackhawk helicopters 
sitting down there, they have had discussions and nothing seems 
to be getting done, and then we have a request from Puerto 
Rico, maybe the delegate could join us in this----
    Mr. Romero-Barcelo. Sure.
    Mr. Mica [continuing]. To get those things done.
    Mr. Burton. Well, the Attorney General, I think when he 
spoke, I think we did talk about that and you may have been out 
of the room. We ought to do that.
    Mr. Mica. But I think the committee should do something 
immediately and we will bring in the National Guard Commander 
or whoever it takes, and others, and I am certain we could find 
the resources to get those things activated.
    Mr. Romero-Barcelo. I will be happy to join in the efforts.
    Mr. Burton. Why do we not have the staff give us all of the 
agencies that ought to be contacted and we will write a joint 
letter from Mr. Barcelo and the committee.
    Mr. Mica. And maybe conduct a meeting as soon as we get 
back, to bring them together. I would like to request that, if 
I could.
    Mr. Burton. Why do we not see if we can do that.
    Mr. Vigil. Thank you.
    Mr. Burton. Mr. Ose has to catch a plane and so I hope you 
will all bear with us while we let one of our newer members go, 
because I do not want him to have his wife all angry with him 
by not being home tonight.
    Mr. Ose. Thank you, Mr. Chairman, you are very kind.
    Mr. Burton. Of course.
    Mr. Ose. I want to followup on an earlier question that I 
asked and that is, it was directed to Mr. Ledwith regarding 
these containers. It would seem to me that based on what we 
have heard today, that containers for volume transactions--I 
mean I cannot even stand talking about this in normal business 
language--for this kind of drug poison to get shipped over in 
this kind of volume, some of the producers have gone to 
containerized shipments. We have established that they sent one 
container at least to Cuba. Have they sent other containers to 
other countries? Have other containers been sent under similar 
circumstances to other countries, for instance, Mexico.
    Mr. Ledwith. By this particular organization, sir?
    Mr. Ose. Or any similar one.
    Mr. Ledwith. Certainly containerized cargo is probably the 
best method of shipping drugs, if that is what you are asking. 
This particular organization, we have found records that 
indicate at least four prior containers were shipped through 
Cuba to Spain, if you are speaking to the particular 
organization involved in the 7.2 ton shipment.
    Mr. Ose. E.I. Carib.
    Mr. Ledwith. Yes, sir.
    Mr. Ose. OK.
    Mr. Ledwith. That organization had definitely utilized 
containers previously and in fact, four of the containers 
allegedly found by the Cuban National Police with hidden 
compartments, those serial numbers, backtracking of the 
shipping documents regarding the serial numbers, indicated that 
those very containers had previously been shipped from Colombia 
to Cuba to Spain.
    Now if we are speaking of in general, are other 
containerized cargo methods being utilized to ship drugs, 
absolutely.
    Mr. Ose. Did E.I. Carib engage in shipment of containers to 
other countries besides Cuba?
    Mr. Ledwith. It does not--our records at this point do not 
indicate that; no, sir, their particular shipment of containers 
that we have found already--now I may be incorrect at this 
point and I will find out for you and report to the committee, 
my immediate information is that as to the shipments involving 
the company are in Cuba and in Spain.
    Mr. Ose. So E.I. Carib, what we have is evidence that E.I. 
Carib sent a container from Colombia to Cuba and at that point 
the container was in effect arrested.
    Mr. Ledwith. Actually, sir, the containers never left 
Cartagena with the drugs in them.
    Mr. Ose. OK, so the Colombian National Police seized it.
    Mr. Ledwith. The 7.2 ton seizure took place in Cartagena, 
Colombia.
    Mr. Ose. OK.
    Mr. Ledwith. And the documents indicated that they were to 
be shipped to Cuba.
    Mr. Ose. Do the lading numbers on the various containers 
indicate that once containers went to Cuba, did they go in a 
variety of directions or only on to say Spain? Did they go from 
Cuba to Mexico or Cuba back to wherever? Was it just a singular 
destination point on these containers?
    Mr. Ledwith. With the E.I. Carib, one container--our record 
check indicates one container went on to Mexico. The other 
containers in question went from Cartagena to Kingston, Jamaica 
to Cuba to Spain. That is the shipping route they utilized.
    Mr. Ose. And that was the lading that was indicated on the 
7.2 metric tons?
    Mr. Ledwith. That is correct.
    Mr. Ose. On this other container that went to Mexico----
    Mr. Ledwith. It went from Cartagena to Kingston, Jamaica to 
Cuba to Mexico.
    Mr. Ose. Now we have heard testimony today about Mexico 
being one of those countries through which a significant amount 
of these narcotics are shipped into the United States. Is it 
possible that one of these prior runs, for instance this 
container from Cartagena to Jamaica to Cuba to Mexico contained 
drugs?
    Mr. Ledwith. It is certainly possible.
    Mr. Ose. The four containers that were identified as having 
false compartments, was one of those four the container that 
went from Cartagena to Kingston to Cuba to Mexico?
    Mr. Ledwith. No, it was not. The four containers with the 
hidden compartments were alleged to have continued on to Spain.
    Mr. Ose. OK, and they were the property of E.I. Carib?
    Mr. Ledwith. Yes.
    Mr. Ose. Now is E.I. Carib still in business?
    Mr. Ledwith. I think it closed as a result of this 
investigation.
    Mr. Ose. And E.I. Carib was engaged in shipping 
transactions with a company called Plastico Royal based in 
Havana?
    Mr. Ledwith. Yes.
    Mr. Ose. Who owned Plastico Royal?
    Mr. Ledwith. Herrera and Royal.
    Mr. Ose. Herrera and Royal were individuals?
    Mr. Ledwith. They were individuals who had the company in 
Havana.
    Mr. Ose. They were the corporate agent?
    Mr. Ledwith. They were part owners, if you will with the 
Government of Cuba.
    Mr. Ose. What part of ownership did they hold?
    Mr. Ledwith. I believe they held 49 percent while the Cuban 
Government held 51 percent.
    Mr. Ose. So the Cuban Government held 51 percent ownership 
in a shipping company--excuse me, a receiving company, Plastico 
Royal, that was receiving containers that according to evidence 
that the Colombian National Police provided contained 7.2 
metric tons of cocaine destined, in this case, for Europe, 
according to the DEA analysis.
    Mr. Ledwith. That would be correct.
    Mr. Burton. If the gentleman would yield briefly. We 
covered this a little bit yesterday. There were two Ministry of 
the Interior officials that pretty much ran the company, they 
watched everything that went in. They made--the lady in charge 
in the Ministry of the Interior made a call to Cartagena saying 
where is that shipment. She did not find out about it. She made 
a call to one of the people who was also a minority stockholder 
in Spain saying where is that shipment. So they were very, very 
concerned about that shipment because they knew it contained 
the cocaine, I believe. I mean I do not know why else they 
would be so anxious to get a shipment that contained 7.2 metric 
tons of cocaine. And the Ministry of the Interior's past 
history shows clearly that they were involved in getting bags 
of money from various sources and splitting it up between 
Castro and other agencies, and ultimately when General Ochoa 
was killed, Castro could get it all.
    And they even went into detail yesterday as to how the 
money was spent. One was for a health facility for the upper 
crust in Cuba.
    So just to flesh out what the gentleman was pointing out, 
the Ministry of the Interior down there, they were the ones 
pulling the strings on those drug shipments.
    Mr. Ose. Mr. Chairman, I appreciate you being so much more 
eloquent and briefer than I could have been, so I appreciate 
you doing that.
    I do want to emphasize one point. I did not come to 
politics 5 years ago or 10 years ago, I came to politics last 
January and I came to politics from business. And I can 
guarantee you, I held 51 percent of every partnership I ever 
held because I was going to control the checkbook. And the 
concept is no different in Cuba for those who seek to line 
their own pockets than it is in the United States amongst those 
who seek to engage in legal business. If you control 51 
percent, as the Cuban Government did in this instance, you 
control what happens in that company.
    Mr. Chairman, I regret I have to go. This is by far the 
most interesting field hearing I have been involved in and I 
appreciate the opportunity to participate.
    Mr. Burton. Well, thank you very much, Mr. Ose. We will 
miss your eloquence and I hope you make your plane. Tell you 
what, give your wife our regards.
    Mr. Ose. Thank you.
    Mr. Burton. Mr. Barr.
    Mr. Barr. Thank you, Mr. Chairman.
    The evidence that you all have just been talking about, Mr. 
Ledwith, when was this developed, when was this information 
known? It was known to DEA quite awhile ago, was it not?
    Mr. Ledwith. Yes, sir.
    Mr. Barr. Prior to November 10 of last year?
    Mr. Ledwith. Yes. He is in charge of the investigation, so 
pardon me----
    Mr. Barr. Who is he?
    Mr. Ledwith. Toby Van Breesen, he is the senior supervisory 
agent who is handling this from the headquarters perspective, 
so I just want to make sure that I am accurate in my 
representations to you.
    Mr. Barr. Thank you.
    Has this information been given to the White House?
    Mr. Ledwith. I would not know. I have never even been to 
the White House.
    Mr. Barr. You would hope that it would have been.
    Mr. Ledwith. Through channels, I would have to say yes, 
sir.
    Mr. Barr. The reason I asked on November 10 is that is the 
date on which the administration makes this big public 
pronouncement that, you know, there is essentially no evidence 
linking Cuba to any of this, it all has to do with Spain or 
something.
    Mr. Vigil, you lost me a little bit ago and I wanted to 
make sure that I understood what you said. You were talking 
about Haiti.
    Mr. Vigil. Correct.
    Mr. Barr. And I think you said, and I jotted this down, 
that Haiti is playing a strong role in the implementation of a 
regional strategy.
    Mr. Vigil. Regional strategy, right.
    Mr. Barr. I presume you mean a strong negative role?
    Mr. Vigil. No, a strong positive role.
    Mr. Barr. Well, then I am confused. I mean we have seen 
Customs information here today which I presume you do not 
dispute, that Haiti has been--and we have heard other testimony 
that Haiti is becoming a significant, a very significant 
player, in transshipment of drugs from South America into the 
United States, there is rampant corruption in Haiti. I think 
there is something like 8,000 supposed law enforcement officers 
that U.S. taxpayers have paid for training down there. It is my 
understanding that few, if any, of those have ever performed 
any real law enforcement activities, they are just padding 
payroll. Yet a significant number have been, over the last 4 
years since we have been involved down there, have been 
dismissed for corruption.
    What is there positive? I do not see anything positive in 
all this. What is there that you see is so positive about this 
situation?
    Mr. Vigil. Well, let me say this. I do not dispute the fact 
that there is endemic corruption, the fact that they need 
additional training, the fact that Haiti----
    Mr. Barr. Do you think the U.S. taxpayers ought to put more 
money into training? I mean we have seen no positive results at 
all so far.
    Mr. Vigil. Well, let me continue, if you will.
    Mr. Barr. Well, answer that question first though, I mean 
do you think we ought to throw good money after bad?
    Mr. Vigil. Well, I think that we need to structure the way 
that we do training, I think that we need to structure a lot of 
the resources that we provide to Haiti. Again, you know, I do 
not question the fact that Haiti is the hot spot in terms of 
the Caribbean in terms of drug trafficking activities going 
through that country. What I am alluding to is the fact that in 
the past, there was nothing done in Haiti in terms of counter-
drug efforts. Now we are seeing what I consider to be positive 
steps, an embryonic state, if you will, in terms of enforcement 
activity, the fact that they are willing to participate and 
coordinate drug trafficking investigations and operations with 
other countries I think is a positive note.
    Obviously we are not there yet in terms of 100 percent 
readiness, 100 percent response, 100 percent in terms of their 
operations and what-have-you. But the things that I am seeing 
there are much more positive than what I saw, let us say, even 
5 years ago. So I take those things in a positive light and 
hopefully we can buildupon those to further operations in Haiti 
and other areas.
    What I look at in terms of the Caribbean is I do not look 
at, one particular country, I look at regional strategies, I 
look at cooperation, I look at building institutions where we 
can attack a lot of these significant organizations that do not 
only operate in Haiti, but they operate in a multitude of other 
countries. Unless we get these countries to work with one 
another, we are pounding sand.
    Mr. Barr. We are. When you look at Mexico and the former 
head of DEA, Mr. Constantine, who I have tremendous regard for, 
was very blunt about it, probably the only top level 
policymaker in the administration who was honest about this, we 
are pounding sand. We are not getting cooperation, there is 
endemic corruption in Mexico, we know it is in Haiti, other 
countries as well. So there is no strategy, I do not think, for 
dealing with this.
    While I salute your optimism in saying that after 4 years 
or 5 years and billions of dollars, we finally have an 
embryonic effort and that is tremendous. You know, as stewards 
of the public money, we do have to look at it perhaps a little 
more realistically and question, you know, why should we want 
to throw more money at this when several billion dollars and 
several years of so-called nation building has yielded at best 
an embryonic effort. That is what troubles us, as Members of 
Congress with responsibility for the taxpayer money.
    And here again, I know that it is not DEA that is the 
problem here, the problem is a policy that just throws money at 
these situations for political gain. You know, invading Haiti, 
of all places, invading Kosovo, and so forth. Lord knows how 
many billions of dollars and years we are going to be involved 
over there and maybe 5 years from now we will have an embryonic 
effort over there.
    And I think this is one reason why over the last 10 years 
or so, and I think it was if memory serves me properly exactly 
10 years ago that General Noriega was arrested and 
unfortunately that may have been sort of, you know, the real 
high point of our international effort. And since then, 
although we were able to get the Escobar organization partially 
as a direct result of Noriega demise and information that we 
get, we had Operation Polar Cap and several in the late 1980's, 
very, very successful efforts. Since then, I do not think we 
can say that. Yes, maybe we see embryonic successes in a couple 
of these places, but when you look at the problems that we see 
in Mexico and the lack of willingness of this administration to 
take any steps to really rectify that, I think we have an 
overall very serious problem with drug policy on the 
international side. And part of that is reflected, as I know 
you all are aware, in the budgets of this administration.
    It is my information--I think these figures are correct--
that of the total $5.4 billion for interdiction, treatment and 
prevention programs, over 85 percent of that goes to treatment 
and prevention. And, you know, while that may be very 
important, one I think really has to question the amount of 
money, because that is being taken out of source country 
efforts, efforts that you all could be using I think to much 
greater advantage. I just think that you all are not getting 
the resources that you need. I think Mr. Vigil and Mr. Varrone 
and Mr. Ledwith, if you were making policy, we would see a lot 
better results than with the folks that are, we would see more 
than an embryonic effort. Because I do not think the DEA, if 
they were in charge, they would stand for these sort of results 
that we are seeing, billions of dollars, you know, just thrown 
down the drain. I wish all that money had--well, we do not need 
to get into that. I just think you all are doing a tremendous 
job, but it is the policy of this administration in particular 
that really is holding you all back, and that is why for the 
last 10 years on the source country effort, we have seen such 
problems. And we are all aware of the problems with Colombia in 
terms of this administration just refusing to abide by even our 
laws in getting them the money and the equipment that the 
Congress has mandated. It is very distressing. But this hearing 
today, as Mr. Ose said before he left, is very enlightening and 
I appreciate it, Mr. Chairman.
    Mr. Burton. Thank you, Mr. Barr.
    Do you have any concluding questions or comments?
    Mr. Romero-Barcelo. Yes, Mr. Chairman, I have a couple of 
questions.
    I just heard the Secretary of Justice of Puerto Rico 
telling me that the helicopters, Blackhawk helicopters that are 
in Puerto Rico, eight of them, that they need the night vision 
equipment. I do not know how you call that, it has a special 
name.
    Mr. Vigil. Yes, the FLIR, forward looking infrared.
    Mr. Romero-Barcelo. FLIR, forward looking infrared 
equipment, that they need four of them, right?
    Mr. Vigil. It is for nocturnal operations.
    Mr. Romero-Barcelo. It is only that there have been 
arrangements made to get the equipment and now all of a sudden 
the equipment that was all set to be sent to Puerto Rico is 
going to be sent to the Bahamas. Do you know anything about 
that?
    Mr. Vigil. [Shakes head.]
    Mr. Burton. When we send that letter, Representative 
Barcelo, what we will do is we will include in there the 
question and the request for the night vision equipment, so 
that the helicopters will have that. If we can get them 
operational.
    Mr. Romero-Barcelo. OK, thank you, that is what I wanted to 
mention.
    Mr. Burton. We really appreciate you coming in from Puerto 
Rico, along with the Attorney General.
    I had one last question. Mr. Ledwith, you had indicated 
that there was a shipment that went to Mexico, do you have the 
dates on that?
    Mr. Ledwith. I can provide them to you, sir, I do not have 
them.
    Mr. Burton. Would you provide that for the record? We 
really would like to have that.
    You do not know, was that before the Spanish transmission 
of drugs or was it after that? The gentleman back there may 
know.
    Mr. Ledwith. It was before.
    Mr. Burton. It was before. If you could give us the dates 
on that, we would really appreciate it.
    I wish we had time, we had former Chairman Larry Smith, a 
former Member of Congress back there, who headed the 
International Narcotics and Terrorism Task Force for what, 6 
years, Larry?
    Mr. Smith. Yes.
    Mr. Burton. And he has given us some information which we 
will put in the record regarding some of the problems that we 
have had at State Department in getting to the bottom of this, 
and Larry, we really appreciate you bringing that to our 
attention.
    Mr. Smith. I appreciate you coming down to my former 
district. I have had many hearings right here in this room too, 
and we appreciate you being here and taking up this very 
important subject, especially to Florida.
    Mr. Burton. Well, thank you, buddy, and time has been good 
to you, you look good.
    I would like to now make a couple of closing remarks for 
the record.
    We have heard a lot of testimony over the last 2 days and I 
think we have all come away with a better understanding of the 
issues surrounding drug trafficking in the Caribbean. What I 
have heard has only increased my belief that Fidel Castro is 
neck deep in drug trafficking in the United States and Europe.
    I would like to insert into the record the first section of 
this book, which is factual, it is called ``Castro's Final 
Hour'' written by Andres Oppenheimer. Mr. Oppenheimer's 
description of the Ochoa case is very enlightening and is 
directly relevant to what we have been talking about here 
yesterday and today.
    [Note.--The information referred to, ``Castro's Final Hour, 
The Secret Story Behind the Coming Downfall of Communist 
Cuba,'' may be found in committee files.]
    Mr. Burton. We have seen on video from the DEA that 
Castro's government was involved in drug trafficking throughout 
the 1980's. We have also heard from a variety of sources that 
Castro's government, including his own brother, Raul Castro--
and we are going to subpoena that draft indictment, as you 
requested--were also involved in drug trafficking throughout 
the 1990's.
    The Customs Service currently has a very reliable witness 
and maybe more than one--I think you said more than one--who 
says the Cuban Government is not an obstacle to transporting 
drugs to the United States.
    My staff has conducted a year long investigation into the 
7.3 metric tons of cocaine shipment which everyone agrees was 
going to Cuba. Unfortunately, the Clinton-Gore administration 
has used the DEA as well as every other agency in this 
government to prove this shipment was headed to Europe instead 
of working from the assumption it was coming to the United 
States, a decision clearly rooted in politics rather than based 
on facts.
    The bottom line is Castro was involved in drug trafficking 
in the 1980's, and as we have shown over the last 2 days, his 
government remains deeply involved today. This is a well-
established pattern of drug trafficking, a pattern that the 
Clinton-Gore administration should not, but chooses to ignore. 
In their effort to normalize relations with Castro, the 
administration has ignored many relevant facts.
    I would like to insert into the record--and this came from 
the FBI--a current list of 60 dangerous fugitives who have 
sought and received refuge from Castro. They run all the way 
from Robert Vesco to murders and drug traffickers and every 
other kind of ilk you can think of--60 of them that they are 
hiding out in Cuba today.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T9521.046
    
    [GRAPHIC] [TIFF OMITTED] T9521.047
    
    [GRAPHIC] [TIFF OMITTED] T9521.048
    
    [GRAPHIC] [TIFF OMITTED] T9521.049
    
    [GRAPHIC] [TIFF OMITTED] T9521.050
    
    [GRAPHIC] [TIFF OMITTED] T9521.051
    
    [GRAPHIC] [TIFF OMITTED] T9521.052
    
    [GRAPHIC] [TIFF OMITTED] T9521.053
    
    [GRAPHIC] [TIFF OMITTED] T9521.054
    
    [GRAPHIC] [TIFF OMITTED] T9521.055
    
    [GRAPHIC] [TIFF OMITTED] T9521.056
    
    [GRAPHIC] [TIFF OMITTED] T9521.057
    
    Mr. Burton. Remember, Cuba is on the State Department's 
list of nations who sponsor terrorism. This FBI list contains, 
as I said, murders, drug traffickers, hijackers and others. The 
old phrase ``birds of a feather flock together'' was never more 
fitting. Curiously, the Clinton-Gore administration continues 
to make every attempt to normalize relations with Castro, 
despite his well-documented egregious human rights abuses, 
Cuba's inclusion on the terrorist list, Castro's harboring 
FBI's most wanted fugitives and the Castro government's 
involvement in running drugs. These normalization efforts are 
confusing and in my opinion, shameless, even to fellow 
Democrats like Senator Robert Torricelli and Representative Bob 
Menendez, both very prominent Democrats.
    While the Clinton-Gore administration is always easy to 
jump at a moment's notice into a conflict that does not 
directly impact American national security such as Bosnia, 
Kosovo, Haiti or East Timor, it is clearly unwilling to protect 
our American school children from a direct assault by drug 
traffickers coming through Cuba. Lacking a balanced and 
coherent counter drug strategy, the administration has chosen 
to fight the war on drugs by treating the wounded. They have 
taken a great amount of the money that was used for drug 
interdiction and eradication and are using it for education and 
treatment of those who are already wounded by drugs. They 
prefer to allocate its scarce counter narcotics budget 
resources on treating the addicted rather than a balanced 
approach which includes fighting drugs at their source before 
they reach American streets and school yards, along with these 
treatment programs. This is a policy debate we will continue to 
raise during the budget process this next year.
    With that--and I know you have had a tough time today, 
fellows--I want to thank all of you for coming out and 
testifying. I think you did a good job.
    I also want to thank Mayor Diaz and the Sweetwater Police 
Department. You have all been very, very helpful. I want to 
thank our staff, you did a great job in putting all this 
together. Had a few glitches, but nothing significant. And I 
want to thank my colleague, Congressman Diaz-Balart and his 
staff for hosting us in his district.
    And with that, no further business being on the docket, we 
stand adjourned.
    [Whereupon, the hearing was concluded at 12:36 p.m.]

                                   <all>

</pre></body></html>
